<html>
<title> - NOMINATION OF HON. GARY F. LOCKE TO BE SECRETARY OF THE U.S. DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 111-389]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-389
 
                    NOMINATION OF HON. GARY F. LOCKE 
                         TO BE SECRETARY OF THE 
                      U.S. DEPARTMENT OF COMMERCE 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-160 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 18, 2009...................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator Cantwell....................................     6
Statement of Senator Begich......................................     7
Statement of Senator Thune.......................................     9
Statement of Senator Warner......................................     9
Statement of Senator Johanns.....................................    10
Statement of Senator Brownback...................................    12
Statement of Senator Lautenberg..................................    14
Statement of Senator Snowe.......................................    15
Statement of Senator Martinez....................................    16
Statement of Senator Klobuchar...................................    18
Statement of Senator Nelson......................................    19
Statement of Senator Udall.......................................    20
Statement of Senator Dorgan......................................    42

                               Witnesses

Hon. Patty Murray, U.S. Senator from Washington..................     4
Hon. Gary F. Locke, Secretary-Designate, U.S. Department of 
  Commerce.......................................................    22
    Prepared statement...........................................    24
    Biographical information.....................................

                                Appendix

Hon. Barbara Boxer, U.S. Senator from California, prepared 
  statement......................................................    53
Hon. Mark Pryor, U.S. Senator from Arkansas, prepared statement..    53
Response to written questions submitted to Hon. Gary F. Locke by:
    Hon. John D. Rockefeller IV..................................    53
    Hon. Kay Bailey Hutchison....................................    56
    Hon. John F. Kerry...........................................    57
    Hon. Byron L. Dorgan.........................................    60
    Hon. Barbara Boxer...........................................    61
    Hon. Bill Nelson.............................................    62
    Hon. Frank R. Lautenberg.....................................    65
    Hon. Mark Pryor..............................................    66
    Hon. Tom Udall...............................................    68
    Hon. Mark Warner.............................................    70
    Hon. Mark Begich.............................................    71
    Hon. Harry Reid..............................................    75
    Hon. Olympia J. Snowe........................................    76
    Hon. Sam Brownback...........................................    80


                    NOMINATION OF HON. GARY F. LOCKE
                         TO BE SECRETARY OF THE
                      U.S. DEPARTMENT OF COMMERCE

                              ----------                              


                       WEDNESDAY, MARCH 18, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:12 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. My apologies to all, and explanations will 
follow later.
    I wish good morning to everybody, particularly to Gary 
Locke and to the two splendid people who are going to be 
introducing him. And you, sir, will be the Nation's 36th 
Secretary of Commerce. And you know, we could have waited 
another several months.
    [Laughter.]
    The Chairman. We are getting pretty good at it, but we are 
really happy to see you here, and particularly somebody of your 
character. I am not sure if you have noticed, but there has 
been a lot of talk about all that recently.
    I am going to skip all of the good things I was going to 
say about how you grew up, what you have done, your public 
service, all different varieties of it. You have been 
completely committed since your parents came here. You have 
come up the hard way, and you have served the public at every 
single instance in every single way.
    We are in a very hard time. I think that you understand--I 
know that you understand Main Street, and I know you understand 
the way the people of your State are thinking and the way the 
people of the Nation are thinking. And I think that you have 
your finger on the pulse of what people want.
    The department which you will be taking over, it surprises 
people, I think, sometimes to find out how huge the scope of it 
is. It is so huge that sometimes one part doesn't stand out 
over another. They all stand out on their own. And so, it is a 
huge responsibility you have.
    Just to name a few, you have successful national transition 
to digital television, which I will be asking you about, as 
well as the census, which may be your biggest headache to 
overcome that and get it done on time. The allocation of $4.7 
billion in needed broadband funds to areas of the country which 
desperately need it.
    The engagement on climate change, head on. That is what we 
are doing here. We are part of the process. We have been a 
smaller part of the process in the past. We are going to be a 
larger part of the process in the future, working with you, 
always working with you.
    And amplification of science and technology. Our President, 
who you serve and who, in a sense, we all serve, or as my 
colleague would say ``work with''--that is not my colleague 
here. That is my colleague from West Virginia. We work with 
him. It is just about the most difficult time we have ever been 
in, and he is an enormous believer in science and technology, 
which you are, too.
    He has great faith in it. He believes that it leads us to 
solutions, and I agree with him. And that is true whether you 
are talking about climate change, estuaries, the oceans, the 
skies, whatever it might be.
    And the list goes on and on, and it is a thrilling 
opportunity for you and a great privilege for us that you would 
be willing to do it.
    I think we can all agree that the Commerce Secretary is one 
very, very big job, therefore, and we need somebody who wakes 
up every day thinking about what is best for working families 
and for the Nation at the same time. That is everybody.
    So, Governor Locke, you are going to represent the 
interests of people with honor. I know that you will ensure 
American workers can prosper, that our businesses can thrive. 
We have a very large free enterprise agenda. We have a great 
deal to do with what goes on or doesn't go on in businesses 
large and small. We have trade, all kinds of things.
    And we need to move quickly on this nomination, needless to 
say, because you need to be in place, and I obviously am 
declaring that I am very much for you. And so, my general 
theory is let us get moving.
    And I will now turn to my distinguished Ranking Member, 
Senator Kay Bailey Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I am very pleased that you are holding this hearing and 
agree with you that we need to proceed through this hearing and 
this nomination because it is such an important position, and 
there are so many areas in which the Department of Commerce 
must function and function well.
    The expansive jurisdiction covering such matters as NOAA, 
international trade, and our domestic telecommunications 
infrastructure are of immediate interest, and we did provide 
$17 billion in budgetary authority for Fiscal Year 2009 to the 
Department of Commerce to carry out these missions. There are a 
number of challenges, and I look forward to hearing from the 
nominee about how he will manage them.
    First is the census. There has been a lot of discussion, as 
you are aware, about the oversight of the 2010 census, and I 
have concerns about reports that the Administration might 
insert itself into the management of the census.
    I believe the process must remain transparent and 
nonpoliticized. And when I met with Governor Locke earlier this 
month, we talked about that, and I was pleased to hear his 
position that the census will stay in the Department of 
Commerce, and it will be handled on a professional basis. And I 
will ask you about that for the record to assure that we are on 
the same wavelength, which I believe we are from my 
conversation with you.
    DTV is another huge undertaking, and this Committee, with 
the leadership of the Chairman, actually extended the deadline 
for the transition from February to June. However, we cannot 
extend that deadline again.
    The NTIA has been given additional funding, and the number 
of consumers on the wait list to receive coupons has 
diminished. But there are still many out there, and I will 
certainly want to see how you plan to run the NTIA to assure 
that DTV is ready to transition in June because it would be 
wrong to extend that deadline again.
    Science and technology are also critically important. 
Investments in science and technology will be critical in 
helping our Nation's economic recovery. We need to invest in 
basic scientific research, math and science education. One area 
in particular that I hope to talk to you about is the issue of 
research efforts in the area of weather modification and storm 
mitigation. I am particularly interested in your views because 
NOAA and the National Weather Service will be very much a part 
of that in your department.
    The Commerce Department has awarded more than $4 billion in 
broadband grants across the country. Broadband, as we all know, 
is a key building block for new businesses and jobs. But we 
must ensure that the broadband policies focus on both urban and 
rural America and offer solutions for both.
    The department must also continue to work with the Internet 
Corporation for Assigned Names and Numbers to ensure that the 
Internet remains a secure space in which commerce can flourish 
nationally and internationally.
    In my home State of Texas, we rely very heavily on weather, 
making sure that we know what the predictions are, and what the 
track of a hurricane is. We are also the home to significant 
oil, gas, and other energy infrastructure, maritime commerce, 
all vital to our Nation and all very much affected by the 
Department of Commerce.
    As an example, when Hurricane Ike hit Texas and Louisiana 
coasts last September, NOAA's advanced warnings clearly 
minimized the loss of life, and its many response teams helped 
to reopen our ports and coastal infrastructure to commerce. It 
was incredible to see what NOAA and the Weather Service did, 
tracking that hurricane from 5 days out and hitting it almost 
on the dot where it would land.
    They predicted well the hurricane. What was not predicted 
was the surge, which really was the damage causer, both with 
Ike and Katrina, frankly. So that is an issue that we are going 
to have to address.
    Clearly there are so many things that affect our country 
that are within your department. I think you have acquainted 
yourself very well during this time since your nomination, and 
you have a very strong record as Governor. I look forward to 
working with the Chairman to expedite your nomination, barring 
any unforeseen questions or answers or anything that we haven't 
learned yet. Everything I have seen is very good.
    Thank you very much, and I look forward to working with you 
in all these areas.
    Mr. Locke. Thank you.
    The Chairman. I might add two things. One is that the 
Ranking Member and I have both looked at all the financials and 
FBI reports, and it was clean and happy reading.
    [Laughter.]
    Senator Hutchison. True. Boring would have been----
    [Laughter.]
    The Chairman. It was pretty boring, yes. But with the 
indulgence of the Committee, what I would like to do now, since 
actually Senator Cantwell is the next one to give her 
statement, is not to hold Patty Murray, who sort of runs this 
place, and let them introduce our next Secretary, hopefully. 
And that will free them to come back, Maria to give her 
statement, since she is next in line.
    And if that is OK with the Committee, if there is no 
objection, I think that is a fair and efficient way to do it.
    So, Senator Patty Murray?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman, for that 
consideration.
    Ranking Member Hutchison, members of the Committee, along 
with my colleague Senator Cantwell and members of our 
Washington State House delegation, it is my pleasure to 
introduce to all of you Gary Locke, who is the former Governor 
of Washington State, to serve as the next Secretary of 
Commerce.
    I want to welcome Governor Locke and his wife, Mona, who is 
here with us today. And to thank her and their children--Emily, 
Madeline, and Dylan--for willing to let him do this for all of 
us.
    Mr. Chairman, I am very proud to recommend Gary Locke to be 
the next Secretary of Commerce at this important time in our 
Nation's history. As we all work very hard to recover from the 
worst economic downturn since the Great Depression, we need a 
Commerce Secretary with the dedication and expertise to carry 
out policies that will strengthen our economy well into the 
future.
    Governor Locke understands the importance of the American 
dream because he has lived it. His grandfather emigrated from 
China and worked as a servant just a mile from our Governor's 
mansion in Olympia. Governor Locke spent his first 6 years in 
Seattle's Yesler Terrace, a public housing project for families 
of World War II veterans.
    His background taught him firsthand the importance of 
education, hard work, and responsibility, and what it means to 
live in a country that provides opportunities for its citizens. 
He studied hard in school, helped out at his father's grocery 
store, and became an Eagle Scout.
    He graduated from Franklin High School in Seattle, Yale 
University, and Boston University Law School and began a very 
long career in public service, first in the King County 
prosecutor's office and then in the Washington State House of 
Representatives.
    I first met Governor Locke when we served together in our 
State capital in Olympia, and I couldn't be happier that he is 
now the nominee to head the Department of Commerce. Now there 
are a lot of reasons why Governor Locke is an ideal nominee, 
which I will talk about in a minute. But I want to take this 
opportunity to tell a personal story that I think illustrates 
his commitment to public service and to making sure we all make 
the best decisions for our taxpayers.
    As I said, I first met Governor Locke in our State 
legislature. He was Chair of the State appropriations, House 
Appropriations Committee. I was a brand-new State Senator, and 
I was working very hard to get a piece of legislation passed 
that was critical to my constituents.
    Now, Governor, I don't know if you remember this, but I 
still remember it to this day. It made a huge impression on me. 
As part of getting my bill passed, as a Senator, I had to go 
talk to Gary Locke as Chair of the Committee, and I had to sit 
down in the chair in front of him. And it was one of the 
toughest experiences I ever had.
    He knew that budget inside and out. He ran me through the 
paces. He grilled me about what was in my bill and what impact 
it would have on our taxpayers, and he was very tough. But 
ultimately, after putting me through that grilling, he 
supported me and asked the hard questions and defended my 
legislation, and we improved that bill and got it passed 
because of his commitment.
    Governor Locke has brought that level of expertise and 
dedication to the taxpayers in every position that he has held, 
and it makes him an ideal candidate now to serve in the 
Department of Commerce.
    So, Mr. Chairman, let me just say a few words about the 
experience that he brings. One of the most critical jobs the 
Commerce Secretary performs is finding markets for American 
products and technologies. Governor Locke understands how 
important that is, and he knows how to do it successfully.
    As the two-term Governor of the Nation's most trade-
dependent State, he spent 8 years breaking down trade barriers 
and promoting American products from airplanes to apples to 
operating systems. He has led numerous successful delegations 
to our Asian trading partners to foster those relationships. 
And the experience and relationships he built over the years 
will serve him well as he works to promote American products 
and American technologies to a global market.
    Governor Locke also understands the health of the 
environment and knows that it has a direct impact on our 
quality of life and on our economy. People in our home State of 
Washington really value our natural resources for recreation 
and enjoyment. But a great many people depend on those same 
resources to make a living.
    Finding a good balance between those two interests is 
something every Washington State Governor grapples with, and 
Governor Locke's experience means he is going to hit the ground 
running as Commerce Secretary as we confront global climate 
change and other environmental concerns, including the 
management of our fisheries.
    And that leads me to my final point. Former Senator Fritz 
Hollings, who served as Chairman of this Committee, used to 
joke that the Secretary of Commerce always comes in thinking he 
will be the head businessman and then he finds out that he is 
really the head fisherman.
    [Laughter.]
    Senator Murray. Now I am not trying to diminish the 
importance of the Commerce Department or the issue. The 
management of our limited fishing stocks is extremely 
important, and as a Senator from the Northwest, I know from 
experience that we need someone to head the Commerce Department 
who has a detailed understanding of this delicate and very 
complicated issue.
    Governor Locke is the only Commerce Secretary nominee, to 
my knowledge, who has personally negotiated a fishing treaty to 
balance fishing and environmental interests. He understands 
both sides, and he will bring an evenhanded approach to this 
issue at Commerce.
    So, Mr. Chairman, I am very pleased to introduce this 
Committee to Governor Locke, and you. He has served the people 
of our State well. He will bring that same level of commitment 
and intelligence to this Administration, and I am very proud to 
support his confirmation.
    Thank you.
    The Chairman. Thank you very much, Senator Murray. I detect 
approval in your remarks.
    [Laughter.]
    Senator Murray. You got it.
    The Chairman. And now, Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Chairman Rockefeller, Ranking Member Hutchison, thank you 
for holding this important hearing, and it is an honor to be 
here with my colleague Senator Murray and to be here to 
congratulate the President on his selection of former Governor 
Gary Locke to be the next Secretary of Commerce.
    I have known Gary Locke for more than 20 years. And I can 
say to my colleagues, Governor Locke, is the right man for this 
job. As Governor, he helped bring broadband services to the 
rural parts of our State. Under his leadership, using the E-
rate funds, Washington State developed the K-20 Network, a 
high-speed, high-capacity network linking K through 12 schools 
with libraries, colleges, and universities across the State of 
Washington.
    Governor Locke has also been involved in both public and 
private sector trade missions advocating open markets and 
promoting U.S. products. At the International Trade 
Administration within the Department of Commerce, that 
experience will be put to good use.
    Part of the mission is to advocate for American companies 
competing abroad. It can mean the difference between whether 
major foreign sales go to U.S. companies or whether they go to 
foreign competitors.
    At NOAA, which is over half of the Department of Commerce 
budget, Governor Locke's prior experience with the complexities 
of Puget Sound, endangered salmon species, the hazards of oil 
spills will also be invaluable. As Governor of Washington, 
Governor Locke dealt with one of the Nation's most vibrant 
fishing industries, appointing the North Pacific Fishery 
Management Council.
    The fisheries in the North Pacific are among the best-
managed fisheries in the world, a fact that has not gone 
unnoticed by the U.S. Oceans Commission and the Pew Commission.
    In addition to commercial fishing, Governor Locke has dealt 
with the complexities of endangered salmon and, in December 
2004, presented to the Federal Government the first locally 
developed regional salmon recovery plan for Washington State.
    Additionally, many of the challenges Commerce Department 
faces in the near term are management challenges, from the set-
top box program for digital television to NOAA's satellite 
program and getting it back on track, to wisely investing the 
$4.7 billion in the broadband grants as part of the American 
Recovery and Reinvestment Act.
    And Gary Locke has never shied away from difficult 
management challenges, like crafting a State budget in his 
second term as Governor just after the tech bubble bust. He 
worked with Democrats and Republicans in the State legislature 
to come up with a spending reduction proposal--many of the 
ideas unpopular at the time, but necessary given the need to 
balance the State budget. I know that he will continue that 
same bipartisan spirit working as Secretary of Commerce.
    Mr. Chairman, I believe that Governor Locke will also help 
round out the President's economic team. He is someone who 
understands the challenges many Americans face as they try to 
get their own personal economic situation and our national 
house in order.
    As my colleague Senator Murray mentioned, Governor Locke, 
raised in public housing, worked hard, through financial aid 
and scholarships graduated from Yale University and onto a law 
practice. He is a testament to the American dream.
    So I look forward to working with Governor Locke on many 
issues and urge my colleagues today for his quick confirmation 
as the next Secretary of Commerce to the United States.
    I thank the Chairman.
    The Chairman. Thank you very much, Senator Cantwell.
    And I understand that that is your statement, and so I 
won't call on you next up here. However, just to show the 
dominance of the Northwest, the next person on the first-come, 
first-served is Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    And Governor, I know we had our brief meeting, but it was 
an interesting meeting. It told me that you have great 
capacity, as we started in my office, walked down the hall, 
ended up in an elevator, down through the train, and then to 
the Capitol. So I know that you have great flexibility, and I 
appreciate that.
    Again, I have a few questions, and I will just lay them 
out, if that is OK? And Mr. Chairman, I am not sure how the 
rounds will work, but I am very excited about having you. I 
have read your resume. I have seen your experience. I am 
personally aware of who you are from our own experience, from 
our Governor in Alaska and the work you have done on salmon 
treaties.
    I am going to lay out questions instead of a statement just 
because I want you to kind of think about them as the process 
goes forward. There will be one area of issue, obviously, is 
the Arctic policy and climate change and how those two will be 
part of the equation and how you see your department 
participating in engaging in that issue.
    For Alaska, the Arctic is becoming more and more not only a 
local issue, obviously, but a national issue. And how you see 
the department engaging in the issues of oil and gas 
exploration, shipping and tourism, and the other commercial 
activity up there and how you see your role and how you will 
participate with other agencies throughout the Federal 
Government. That is one area as we move forward that is going 
to be a grave concern for us in Alaska.
    The other--and I liked the comment that was made that you 
will not be necessarily the head businessman. You will be the 
head fisherman. And I agree with that because people who do 
come to Commerce realize later that there is a lot of activity 
that you will be engaged in, and with NOAA's budget, about half 
of your budgetary responsibility, commercial fishing in Alaska 
is pretty significant. It is 62 percent of the fishing stock in 
this country.
    And the issue of farmed fish is of grave concern to us. In 
Alaska, we are not big fans of that, to say the least. And your 
role and your opinion in regards to the requirement or the 
potential of farm fishing allowed in Federal waters throughout 
all of this country and how you would see Alaska hopefully not 
fitting into that. I am giving you the answer, hopefully, to 
your question--to my question.
    The last, and again, because our time is always so short 
here, the other is a very specific one, which is the Denali 
Commission, which is pretty significant for Alaska. The Denali 
Commission has been around for about 10 years. It takes Federal 
money and invests it throughout the State of Alaska in rural 
communities in fuel storage and in solid waste and teacher 
housing and a variety of areas. But they are also more than 
likely going to expand into broadband issues and renewable 
energy.
    The Denali Commission has been one of those programs that I 
believe has worked very successfully in impacting and 
positively impacting rural communities, and I am hopeful that 
you could give some commentary on that issue also and how you 
feel about that. And can it become instead of what it has been 
every year, kind of an earmark, but more programmatic because 
the impact has been significant?
    I will stop there, Mr. Chairman, because I wanted to rapid 
fire the questions so he can have time to be thinking about 
them, depending on how the process works here.
    The Chairman. Thank you, Senator Begich.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    I want to thank you and Senator Hutchison for scheduling a 
timely confirmation hearing for Governor Locke, and welcome and 
thank you for your willingness to serve as our next Secretary 
of Commerce.
    If confirmed, you are going to be leading a department and 
working with this Committee during a very difficult time in our 
country's history. There are a number of issues that people are 
struggling with today across the country. We have small 
businesses who are hurting and families that are anxious over 
their next paycheck, their next mortgage payment, or their next 
job.
    As Commerce Secretary, you are going to help shape and 
carry out economic and trade policies that are intended to turn 
the economy around. In particular, you are going to oversee the 
implementation of a massive broadband deployment as called for 
under the Stimulus Act. That is an issue of interest and 
concern to me.
    I am hopeful you will work closely with this committee as 
we ensure that these funds are effectively directed to unserved 
and underserved areas of the country that are most in need of 
the assistance.
    And additionally, you are going to be charged with 
overseeing the upcoming census of the United States, which, for 
over 200 years, has played a central role in measuring the 
progress and growth of our country and helped policymakers 
govern a growing and changing population. The 2010 census has 
got to be carried out accurately and objectively.
    And as you know from your service as a Governor, many 
programs, including education, Medicaid, and highway funding, 
are all determined by the outcome of the census. And 
additionally, the census is going to determine the number of 
Congressional seats that each State has.
    So, needless to say, the stakes are high. These reports of 
that process being politicized are very concerning to many of 
us, and recent statements by White House officials indicate 
that the White House may exert an unprecedented influence in 
that census process. Those are statements and suggestions that 
I find unacceptable, and I look forward to hearing more from 
you on making sure that the census is an open and independent 
process.
    So, again, I thank you for your willingness to serve. Many 
have spoken to your many qualifications, and obviously, you 
come to this job with great experience and great background. 
And we look forward to working with you in taking on many of 
the challenges that the country currently faces.
    So thank you, and thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune.
    Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman.
    And let me add my voice to my colleagues and friends from 
the State of Washington on a personal recommendation and great 
appreciation of the President for choosing Gary Locke to be 
Secretary of Commerce.
    I had the opportunity to serve with Governor Locke during 
my tenure as Governor. My wife, Lisa, and I consider he and 
Mona friends. We had wonderful times together with Governor 
Johanns when Governor Locke hosted the NGA out in Seattle, and 
I can say firsthand that this is a soon-to-be Secretary of 
Commerce who was extraordinarily well respected by Governors 
across the country from both sides of the aisle. He brought a 
lot of imagination and innovation during his tenure as Governor 
of Washington.
    One thing that I am particularly excited about, Gary and I 
have spent some time talking about this in the past, and during 
his tenure as Governor, he spent a lot of time trying to make 
the State of Washington government more efficient and budgeting 
more effective. And some of the things that don't get a lot of 
press attention, but clearly, in a department as far-flung as 
the Commerce Department is, with so many different functions 
and focuses, trying to bring the kind of management expertise 
you brought to the State of Washington, I think, to the 
Commerce Department will be something that we will all be well 
suited with.
    I will simply make one final comment, and Senator Thune has 
raised this issue already, about the broadband deployment. 
Regardless of where we may have been on the recovery package, I 
think we are all very excited about the opportunity to continue 
to roll out broadband. I do think there is going to be enormous 
tension between the goal of getting the funds out quickly, but 
at the same time, having appropriate oversight and making sure 
that there is an effective deployment, particularly to rural 
and underserved areas.
    And I particularly look forward to working with you in the 
areas of last-mile deployment. We can get that broadband 
backbone in, but if we don't do a good job of the last-mile 
deployment, working with our local communities, and I would 
add, we in Virginia have had very extensive--we have got the 
biggest rural broadband deployment in the country.
    And we have spent a lot of time in the last year or so 
working on these last-mile issues, on how you engage local 
governments and local communities to make sure you can get this 
service not just to the school and to the government, but 
actually to the businesses and the consumers in the area. And 
there may be somewhere we can collaborate and cooperate on 
that.
    So I will simply say, Mr. Chairman, a hearty yes to Gary 
Locke, and he will serve not only the Department, but our 
Nation, I know, with distinction.
    Thank you.
    The Chairman. Thank you, Senator Warner.
    Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you.
    And let me, if I might, just second the words of my 
colleague across the aisle, Mark Warner. Governor, it is just 
great to see you here.
    Our times did overlap when I was Governor of Nebraska, and 
you did a great job. And if I were to add just another thought, 
you did it in a very bipartisan way. You worked with 
Republicans, Democrats, and Independents, and we can't ask for 
anything more than that.
    If I could, I want to add my endorsement. Let there be no 
doubt about it. I like Gary Locke a lot. I celebrated when I 
saw that you were going to be the person that was nominated. In 
my mind, you can't get enough governors in the Cabinet.
    [Laughter.]
    Senator Johanns. That is how I feel about it.
    There is the official job description for what you do, and 
then there is kind of the unofficial job description. As a 
former Cabinet member myself, I had an opportunity to work with 
Carlos Gutierrez when he was at Commerce, who is just a fine, 
fine man.
    He came with a lot of experience in foreign trade and other 
expertise. But the unofficial situation with Carlos was he kind 
of became the face of trade in many respects. Now, of course, 
there is the USTR. And there were the rest of us that were 
working trade issues. But oftentimes, it was the Commerce 
Secretary that in kind of an informal way became the face of 
trade.
    As you talk today, I would like to ask you to offer some 
thoughts on some hard questions. I won't ask any trick 
questions, but I will ask you some hard ones. Trade promotion 
authority--I maintain no President can negotiate a trade 
agreement without TPA. I support it whether it is a Republican 
or a Democrat in the White House.
    We don't have it today. Haven't had it now for many months. 
I don't know why a country would negotiate without TPA because 
the negotiations never end. That would be the first thing.
    The second thing is it is one thing to say we want better 
foreign relations. We all want that, I think. It is quite 
another thing when you realize that the first thing that 
foreign leaders bring up with you when you sit down with them, 
whether you are a Cabinet member or the President of the United 
States, is very, very specific trade issues.
    And I will just give you an example, a very, very tough 
issue at the moment. You have got one of our largest trade 
partners that is very, very irritated with us about action that 
was taken on what really was a pilot program relating to trucks 
out of Mexico. How do you deal with that?
    Because that is billions and billions of dollars of trade, 
and it has a profound impact on farmers and ranchers in 
Nebraska because if, all of a sudden, retaliation starts, there 
is no way to end that. How will you propose to manage that, 
whether it is in the setting of a Cabinet meeting or a 
conference with the President or face-to-face with the world 
leader?
    You will be shocked at how much you travel, how much you 
are on an airplane talking to foreign leaders about trade 
issues. I would like you to give some thoughts on that as you 
move on to your testimony.
    But let me just wrap up with this. I could not agree with 
Senator Warner more. You are the kind of guy we need in the 
Cabinet. I am thrilled to hear everything has worked well in 
terms of your background checks and all of that. One thing you 
will realize in the Cabinet, boring is a really good thing. The 
more boring you get, the better.
    So I wish you the very best. You will have my support and 
look forward to working with you, Governor. And it is so good 
to see Mona here. I will pass her regards on to Stephanie.
    Thanks.
    The Chairman. Oh, my heavens. I have failed completely. 
Governor, could you introduce your wife, please?
    Mr. Locke. Thank you very much, Mr. Chairman and to the 
members of the Commerce Committee, I would like to introduce my 
wife, Mona Locke, seated behind me.
    She is a former television reporter. Actually worked a 
stint here in Washington, D.C., and was kind of the 
correspondent for some of the smaller stations in Kansas. So 
she got to know the Kansas delegation quite well. And then 
ended up in Green Bay, covering the Packers and tailgate 
parties in Green Bay. Came to Seattle, and I met her----
    The Chairman. Was she on the sidelines there?
    [Laughter.]
    Mr. Locke. And then we got married, and she has been a 
terrific first lady, really championing early learning well 
before it was ever popular. The importance, critical 
importance, of educating our children, stimulating their 
intellectual and emotional well-being well before they even go 
to kindergarten.
    And then she is now the Executive Director of the Puget 
Sound or Western Washington Susan G. Komen for the Cure 
Foundation, working on breast cancer education, prevention, and 
treatment of breast cancer.
    So she has been an incredible partner, an incredible 
administrator, incredible motivator, and a really terrific mom 
to our three children--Emily, Dylan, and Madeline.
    Thanks for being here, honey.
    The Chairman. She ought to be pretty happy about that.
    [Laughter.]
    The Chairman. Thank you very much.
    Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman.
    Welcome, and welcome, Mona. Good to see you. It is good to 
have you here.
    Enjoyed our private discussion that we had. A lot of issues 
have already been raised that I agree with, particularly on 
broadband issues in underserved areas. One that hasn't been 
talked about is the Patent Office. Although I notice in your 
written statement, you have talked about getting and addressing 
some of the backlog on the Patent Office.
    There is another issue that is going to be coming out that 
I hope you will put some attention to, and that is the changes 
in the patent law. I was on the Judiciary Committee for a 
while, and this is such a key, critical area for the further 
growth of our economy, the protection of intellectual property 
and development of intellectual property, that I hope you will 
lean in and watch that all groups are taken care of on this, 
and it doesn't just favor one group over another group.
    That was the issue that started coming up with the last 
patent reform bill--a certain group of industries favored it 
and others didn't because it was going to favor one group over 
another. And I don't think that is a wise way for us to grow. I 
don't think it is something we need to do to change and improve 
the patent system.
    Another issue that you are very familiar with is trade 
disputes that we have that you will have a voice at the table 
and work on, particularly one on Airbus that I know you, as the 
Governor of Washington, and my State of Kansas, we have had 
this ongoing dispute with Airbus in Europe. That case should 
report out during your tenure as Commerce Secretary.
    I hope that we win that case and that we are able to use 
the offsets to really make this a fair and balanced fight. 
Whether it extends to the civil side of the aircraft that the 
case is built on or the militarized side of the aircraft where 
the tanker issue comes up that I see is floating back around 
now, and people talking about what to do on it, I think it 
requires a new kind of thinking about how we would address this 
because those two issues are related.
    They subsidized the civilian development of the aircraft 
and then used it to undercut the price of the militarized type 
of the tanker aircraft. That is a bit of an insider issue, but 
I know you understand it fully from the State of Washington's 
perspective.
    I also would mention to you on disputes with China, I know 
you practiced law in that area. You are very familiar with 
trade issues. I don't know of another trade area that we are 
going to have more difficulty in working with than in China, 
whether it is currency manipulations, or protection of 
intellectual property rights. We just really have had or 
perhaps need to have a brawl with the Chinese on making sure 
everybody abides by their obligations.
    And it gets very frustrating to people here that you get a 
subsidized system or artificially holding down of currency 
rates, and then nothing happens. Or intellectual property 
rights are being stolen. I was on the streets of Beijing the 
day that a movie came out in the United States, and it was 
being sold on the streets by vendors the day of release. And 
you are thinking, ``Boy, that was very efficient.''
    I would rather think it was stolen, but we have had that as 
an ongoing dispute for some period of time. I hope you really 
will dig into those issues, and I know by your past and your 
track record that you will.
    I look forward to working with you on some of these cases, 
particularly for ours, for my State of Kansas, the Airbus 
dispute and then how that has morphed into the tanker 
controversy is just--it is a $40 billion issue for us in the 
United States versus Europe.
    So I look forward to working with you. Glad to have your 
wife back in town. All the best to you.
    Thank you, Mr. Chairman.
    The Chairman. Thanks very much, Senator Brownback.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman, for conducting 
this oversight and review of an excellent candidate for 
Commerce Secretary. We saw a Washington armada here with the 
two highly thought of Senators and the distinguished former 
Governor.
    Governor Locke and I share background and experience from 
parents. His parents, like mine, ran a neighborhood store, kept 
open 7 days a week typically, 365 days a year. And the thing 
that we did, each of us seem to have learned is hard work.
    And unfortunately, with the economy in recession, too many 
people are searching for a chance to work hard as they struggle 
to make ends meet. The unemployment rate across the country, 
the highest it has been in 15 years, and those people who have 
jobs are working longer and getting less for their labor. And 
so, we are counting on the next Commerce Secretary to help 
right this ship and get the economy back onboard.
    This Committee has responsibility that goes beyond that of 
the Commerce Department, and that is we do some significant 
infrastructure work here. One of them is, for instance, 
investment in rail service, transportation improvements. Light 
rail reduces congestion, reduces our dependence on fossil 
fuels, and will employ 27,000 people for every billion-dollar 
investment. And I use that as an example.
    And as the Cabinet Secretary responsible for America's 
economy and its competitiveness, I hope that Governor Locke 
will be a partner in promoting investments in transportation, 
even though it is not within--directly within his department.
    In our meeting, Governor Locke and I talked about another 
type of infrastructure investment mentioned by several 
colleagues, the need to invest in broadband, especially in 
underserved areas in New Jersey. The economic recovery law we 
recently passed provides the Commerce Department with nearly $5 
billion for broadband initiatives to improve high-speed 
Internet access to the served and unserved and underserved 
communities around the country.
    Getting broadband into these communities, especially the 
low-income areas, is essential if we are going to keep America 
competitive. For Americans with limited time and limited 
resources, Internet access means access to information, quality 
healthcare, and education that otherwise might be out of reach.
    And it means that children can get homework help from 
libraries, and parents can go back to school in search of a 
newer, better job even as they stay at home. And for low-income 
Americans, the opportunities available online can help find a 
way out of poverty.
    The Secretary of Commerce has the ability to impact so many 
aspects of American lives, from protecting the health of our 
oceans to promoting American trade, technology, and economic 
development, to ensuring accurate representation through the 
census. And I look forward to working with Governor Locke on 
these issues and many others, including stopping companies from 
doing business with terrorist states.
    And I close, Mr. Chairman, since you, too, were a Governor, 
an appeal was made for more governors here. I come out of the 
business community, and my appeal is for more businesspeople to 
join us here in the U.S. Senate.
    And I thank you, Mr. Chairman.
    The Chairman. How do I respond to that?
    Senator Lautenberg. Applause.
    The Chairman. I sort of come out of both is my calculation.
    Governor, just so that you will come back when we have our 
next hearing involving you, it is our custom when somebody 
presents themselves for nomination for all members to give 
statements. We have cut them down to 4 minutes. Ordinarily, it 
is the Chairman and the Ranking Member that give statements. So 
keep your spirits high.
    [Laughter.]
    The Chairman. And to keep them high even further is Senator 
Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Oh, thank you. Yes, great timing on that 
point.
    I will try to be brief, Governor Locke, and I welcome you 
and congratulate you on your nomination. I think it comes at an 
especially critical time for the Commerce Department.
    And certainly, your life's journey does represent a great 
American story, and also the depth and breadth of your 
experience and expertise in this multi-mission agency is so 
well suited for the many challenges and also the spheres of 
jurisdiction within the agency. So I certainly want to applaud 
your nomination, and I appreciate the productive meeting that 
we had recently on so many issues.
    Obviously, one of the critical missions of your agency, as 
you have already mentioned in your statement, is creating jobs 
that are made in and stay in America, and that is exactly 
right. We have to really focus on jobs.
    There are so many programs within your agency and 
administrations within your agency that are going to create 
jobs, and we have to maximize the potential of that job 
creation. And that is why one of the recommendations that I 
made to you, and I am exploring it as well, is to create a jobs 
coordinator within the agency so that you can be singularly 
focused in bringing together all of the potential of all the 
programs and administrations under your jurisdiction to create 
jobs and making sure they stay in America.
    For example, you have got the International Trade 
Administration. You have got the economic development program 
that is so essential, the Manufacturing Extension Partnership, 
the national telecommunications. Obviously, all the trade 
issues that are so important.
    So I think that we have to maximize that potential, become 
singularly focused in coordinating that under one person that 
reports to you because it is now more important than ever given 
the level of unemployment. And we are, unfortunately, at a 
juncture where we have got people making unemployment claims, 
which are now the highest since the 1960s. And so, it really 
truly is troubling. I think we have to do everything we can to 
enhance that capability within the Commerce Department.
    As far as trade is concerned, another issue that I 
mentioned, I happen to think that we ought to coordinate all of 
the enforcement activities under the jurisdiction of the 
Commerce Department, and specifically the International Trade 
Administration.
    I think that the USTR has sort of conflicting missions, 
negotiating trade agreements and then having to enforce them. 
And the public petitions simply don't get recognized by the 
USTR; it has been 12 years since they have acted upon a public 
petition.
    So I would like to see all of the enforcement activities 
come under the jurisdiction of the International Trade 
Administration. That way, we would have singular capability of 
making sure we are represented when it comes to violation of 
trade agreements in addition to the anti-dumping and the 
subsidy responsibilities that are already under the mission of 
the International Trade Administration.
    I just think that is so important in this day and age when 
we are losing jobs to make sure that we are dealing with a 
level playing field when it comes to trade enforcement.
    Finally, on fisheries, you have heard so much, and I 
express this as well: I am really appreciative of your 
expertise in this area because it is so complex and it is 
critical. Your nomination couldn't come at a more pivotal time 
for fisheries, and that is certainly true in New England.
    We are facing enormous hardships with the groundfish 
industry, for example. I explained to you what happened with 
the New England Management Council's decision that, 
unfortunately, got undermined by one vote: the regional 
administrator's. It was 15-1, to move in a direction to reduce 
the days at sea, but not as dramatically and drastically as the 
agency decided in overturning that decision by the Council.
    The Inspector General just came out with a report that 
underscores what I mentioned to you in our meeting, that is 
there is a tremendous level of distrust between the fishermen 
in New England and the National Marine Fisheries Service. It is 
something that we have to restore. We have to create a 
confidence, and that means in the integrity of the science and 
also in the way in which these decisions are made.
    So I hope to work with you on this because it is so 
critical and so pivotal. We have got to preserve our fishermen 
as we preserve the fish stocks, and that is simply not 
happening. And we are not going to survive this year, given the 
interim regulation they just issued in order to move ahead to 
the sector management in 2010. So I hope we can explore that 
further in the future.
    Again, Mr. Chairman, I thank you.
    The Chairman. Thank you, Senator Snowe.
    Senator Martinez?

                STATEMENT OF HON. MEL MARTINEZ, 
                   U.S. SENATOR FROM FLORIDA

    Senator Martinez. Mr. Chairman, thank you very much.
    Governor, I am delighted to have a chance to welcome you as 
well and congratulate you on your nomination, as well as your 
family. Your willingness to serve is appreciated.
    I should tell you at the outset that I enjoyed very much 
our opportunity to chat, and as you know from my comments to 
you on that day, I am vitally interested in the issue of trade. 
The State of Florida is a state that benefits greatly from 
trade. It benefits greatly from the opportunity of job creation 
as a result of trade.
    You obviously know that because you were so forceful in 
leading many successful trade missions during your time as 
Governor, and I know that your State and mine both have 
seaports, and the proximity to overseas markets make us 
particularly attuned to these issues.
    I am concerned about the protectionist attitudes that seem 
to pervade at this moment in history. The issue with Mexico 
that former Secretary, Governor, and now Senator Johanns 
brought up is one that I greatly share his concern.
    I share the concern about TPA. I am also terribly concerned 
about the fact that we could never get Congressional approval 
of the free trade agreement with Colombia, one that I think 
would enhance our opportunity for job creation not only in the 
State of Florida, but in companies like Caterpillar.
    Heavy equipment is what they import there. Colombia is 
moving on to do trade agreements with other countries, 
competitors of ours. They will enter into long-term agreements 
to purchase heavy equipment from others like perhaps Germany, 
where they are in negotiations for a trade agreement. So we are 
going to fall behind.
    And I think it is incumbent upon you to provide the 
leadership that this Administration needs to be a clear voice 
on the issue of trade. In this time of economic turmoil, I 
think that protectionism is the last thing we need.
    I will mention to you that your predecessor, Carlos 
Gutierrez, who was also mentioned by Senator Johanns, and I 
share a great friendship. And I also admire greatly that he got 
terribly involved and deeply involved in the issue of 
immigration. Not exactly in the portfolio of the Commerce 
Secretary, but he joined with the Secretary of Homeland 
Security and was a strong partner as we work for a 
comprehensive immigration reform solution to this Nation's 
immigration problems.
    I hope that you will raise your voice. I know you are 
sensitive and understand the issue in your own life and in your 
own family, as I do, and that you will have the opportunity to 
weigh in and help us to move forward an agenda that will 
include a comprehensive immigration reform bill that I think 
will be good for our country.
    I join the Ranking Member also in talking about the issue 
of hurricanes, very important to a coastal State like Florida. 
So NOAA is a very, very vital part of hurricane preparedness.
    I have been involved in presenting some bills, I think I 
mentioned to you during our conversation, relating to better 
research, particularly on issues of storm surge, mitigation of 
damage, and things of this nature. I hope that we can continue 
to talk about these issues as you take office.
    And in conclusion, I should say take heart because Chairman 
Sarbanes, when I was before the Banking Committee for my 
confirmation, Mr. Chairman, was not as kind as you. And I did 
not realize that I would get to give a statement at some point 
during the course of the day, as everybody went around the 
table.
    But, anyway, best of luck to you. I wish you great success. 
I enjoyed my time in the Cabinet. I know you have a very 
exciting assignment ahead and lots of challenges.
    But I do look for you to provide what I think is essential 
leadership in this Administration on the issue of trade. You 
know it. You understand it. You know the benefits of it. You 
now need to be the advocate because the confusing and mixed 
signals that we are sending to the world are not good.
    And I think particularly as it relates to our friends--
Mexico is a neighbor and a good friend. We need Mexico to be 
economically and politically strong. And right now, going back 
on our commitments on NAFTA is not the way to do it.
    Thank you very much.
    The Chairman. Thank you, Senator Martinez.
    And now, Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    And welcome, Governor Locke. You are only just a few 
Senators away from giving your statement.
    I also wanted to welcome your wife. I, too, have spent a 
significant time in Green Bay in our neighboring State of 
Wisconsin, which we always think of as the ``beer and bratwurst 
capital'' of the United States.
    And I do have a button I can give you from my last campaign 
visit on behalf of the President to Wisconsin. My favorite one, 
``Brat Obama.'' And that, you could wear that to your first 
Cabinet meeting.
    [Laughter.]
    Senator Klobuchar. I am sure you would look very 
impressive.
    I was just, as I listened to the great tributes to you from 
your fellow Governors, I think you can have nothing better than 
that, as well as our Senators from Washington. I was struck by 
a number of them, including Senator Cantwell, that talked about 
your management experience, and that was my impression when we 
met. And how important that is to this job as you look to 
managing not only the census, but also managing the digital TV 
transition.
    We talked about how in my state, 21 percent of the people 
still have the rabbit ear or the old TVs, and I was one that 
believed that because of the mismanagement of the program that 
we needed a little more time. I remember asking the FCC 
Commissioner if he truly wanted to go on a roof in Minnesota in 
the middle of February to try to adjust the antenna.
    I think this little more time is a good thing, but yet you 
are inheriting something of a messy program, and I believe we 
can do it. We have already transitioned some of our stations in 
our state, and it has gone well so far. So I think it has 
actually helped us that some of the stations have already 
transitioned. So we look forward to working with you on that.
    Second issue that has been mentioned by many of the 
Senators is the broadband issue. I think that this is a true, 
true opportunity to get our country up to date. We went from 
fourth in the world, industrialized world, for Internet 
subscribership to 15th in just 8 years. Jobs that we could be 
placing in Thief River Falls, Minnesota, have been going to 
other countries. And I think that this Internet expansion is so 
important to our country.
    I think back to 1935, when President Roosevelt looked 
across the landscape and saw that only 12 percent of the rural 
households had electricity. And then, 15 years later, 75 
percent of them had electricity. And I see this issue of 
Internet and broadband, the rural electrification issue of this 
decade.
    So I think this is a great opportunity to try to get our 
system up to date. It has been mentioned there are all kinds of 
issues with what areas. I can tell you in our State there are a 
number of areas that may have Internet service, but it is 
incredibly slow or it is incredibly expensive. So we have to 
look at those areas as well.
    I am going to be chairing--Martinez is the Ranking Member--
the Competitiveness, Innovation, and Export Promotion 
Subcommittee. So we hope with your experience in promoting 
American products abroad, we can have some discussions and work 
on those issues.
    And I am also going to be chairing a tourism hearing, and I 
know that is one issue that hasn't been mentioned, as we are in 
these troubled times. But tourism is still a very important 
industry to this country, and we would like the Commerce 
Department's help in promoting tourism in these troubled times, 
understanding that it is still very important that so many 
Americans make their livelihood in the tourism industry.
    And then, finally, Senator Cantwell talked about the work 
with NOAA and oceans. Just a reminder that the Great Lakes are 
also included in that. For 2 years, I served on that 
subcommittee. As I told the Chairman, I couldn't quite figure 
it out at the beginning, given that I am from Minnesota and it 
was called the Oceans Subcommittee. But then I realized it was 
because I could see Lake Superior from my porch.
    But I will tell you, Governor Locke, that the Great Lakes 
issues are incredibly important. We have seen issues with Great 
Lakes restoration, ballast, invasive species, and I hope that 
you keep this high on the front burner when you look at NOAA 
and the work that is done, that we make sure that there are 
significant resources and focus on the Great Lakes as well as 
our great oceans.
    Thank you very much. We look forward to working with you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, how long do I have?
    The Chairman. Four big ones.
    Senator Nelson. I can make it very quick, Mr. Chairman.
    I support you, Governor. I enjoyed our visit. I have a 
series of questions that I will proffer for the record that you 
can answer that go all the way, and this is an amazing 
department how many subjects that you have to control.
    The questions that I will submit go all the way from 
managing the fishery stocks. We have a problem in Florida on 
snapper and grouper. And the question is, is it plentiful or is 
it being reduced, and getting accurate information?
    Of course, all the questions around climate change, 
including organizational questions about: should the National 
Climate Service be situated within NOAA? And how are you going 
to continue the satellite sea level rise measurement, such as 
the Jason-3 and other Jason-type capabilities in our 
satellites? How are--as you get into climate change, to make 
sure that all governments at all levels understand the 
consequences of climate change?
    The single-point failure on tracking hurricanes--single-
point failure, one G-IV. If it is down for maintenance or for 
an accident, we don't have that increased 15 percent accuracy 
capability that we have now.
    Of course, the census has been raised--to accurately count 
the census.
    The NTIA, as an entity, should coordinate closely with the 
FCC on telecommunications policy. Question of getting broadband 
out into as many areas as possible versus to as many people as 
possible by making it affordable. That is an issue in your 
department.
    The joint project agreement having to do with assigned 
names and numbers on the Internet, and should that JPA, that 
joint project agreement be extended? So those are just a couple 
to digest as you take on this enormous responsibility.
    Thank you for your offer of yourself for continued public 
service.
    Thank you, Mr. Chairman.
    The Chairman. Nicely stated, Senator Nelson.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Rockefeller. 
Great to be at this hearing today.
    And welcome, Governor Locke. It is a real pleasure to have 
you here.
    And I just want to say the accolades you have received from 
all your former Governors say a lot about you. I was never a 
Governor. I was a State Attorney General, and I served with 
several Governors, but I belonged to an association that had 
the acronym of NAAG. And they always used to accuse us, I know 
the Governors did, of the ``National Association of Aspiring 
Governors.''
    [Laughter.]
    Senator Udall. Which I have not aspired to do at this 
point, but I think these Governors that I served with, and 
Governor Rockefeller here, have set a great example of public 
service.
    Several of the Senators have talked to you about what we 
should do in rural areas. And I know in our discussion earlier, 
you talked--outside this committee room, you talked about the 
rural areas in Washington and getting digital into those areas 
and making sure that people understand the transition to 
digital TV. You also talked about broadband in the rural areas.
    And so, I think you can see there is a real consensus on 
the Committee, on both Democratic--the Democratic and 
Republican side that we want to see those things happen. We 
want your attention put there.
    This $650 million I think that has been given to you in the 
stimulus package for coupon assistance is something that is 
important to us, and I just hope that you make sure that that 
is administered in a very transparent way. And so that we get 
out in those rural areas and get people taken care of.
    The other issue I wanted to mention, and you in particular, 
as a Governor, I think have this experience. You have many 
tribes in Washington. We do also in New Mexico. Senator 
Klobuchar does in Minnesota. There are many other states that 
have Indian tribes. They are really hurting in terms of 
economic development. They have been left behind in many, many 
areas, and I hope that your department will make that a top 
priority, working with the tribes, working with their economic 
development efforts.
    It is something that I hope will be done collaboratively. I 
know Ken Salazar shares the same feelings you do, over there at 
the Department of the Interior. And I think seeing Interior and 
the Department of Agriculture and the Department of Commerce 
and probably other departments working together would make a--
could make a real difference on what is a very dire situation.
    Just to remind you, at least for my tribes, many of the 
Indian reservations in New Mexico have 50 percent unemployment. 
You know, if we had those kinds of numbers any place else 
across the country, we would call it an emergency. We would 
have an immediate response of Government that we would move out 
there and get some things done immediately.
    So I hope you take it with that urgency, and I have some 
other questions. Because we are limited here in terms of time 
and I have another commitment, I am going to submit those for 
the record. But I certainly wish you the greatest of success 
and look forward to working with you on all of the issues that 
your department covers, which have a big impact in New Mexico 
and across the West.
    Thank you.
    The Chairman. Thank you, Senator Udall.
    I am just going to make up a question here not off my time, 
which now goes to 5 minutes per person. And that is that you 
will respond to any and all questions that we pose to your 
department? Some departments are better than others.
    [Laughter.]
    The Chairman. And we have an investigations group. So I 
mean, we take--I serve, still do, on the Intelligence 
Committee, and we get no cooperation. And so, you have to do 
that. You have to hold out that subpoena power, or whatever it 
is. I assume we will never have to use it on you. But I just 
want you to know that we are going to be an aggressive 
committee, and we will be proud to be that way.
    My questions are----
    Senator Hutchison. Mr. Chairman, opening statement?
    The Chairman. It would probably be decent if you gave an 
opening statement.
    [Laughter.]

  STATEMENT OF HON. GARY F. LOCKE, SECRETARY-DESIGNATE, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Locke. Well, thank you very much, Chairman Rockefeller.
    And actually, maybe we could--I am even tempted to dispense 
with an opening statement and get right into your questions. 
But I will take this opportunity to make a few remarks.
    I want to thank you, Chairman Rockefeller and members of 
this Committee. I am truly humbled and honored to be here 
today, seeking your approval, seeking your confirmation as 
Secretary of Commerce.
    Over the past few weeks, I have had the opportunity to meet 
with most of the members of this Committee to discuss the need 
for a vibrant Department of Commerce, one that aggressively 
promotes American products, services, and ideas both here at 
home and abroad while protecting our environment.
    We share a common vision for this department--to be an 
engine of innovation, job growth, and economic renewal--and I 
look forward to working with all of you to achieve this vision, 
if confirmed.
    Mr. Chairman, I want to thank you, as well as the 
distinguished Ranking Member, Senator Hutchison, for the 
courtesies that you have shown me in the 3 short weeks since 
President Obama nominated me to be Secretary of Commerce. I 
appreciate how expeditiously you have moved this confirmation 
forward.
    I am particularly grateful to my two Senators from the 
great State of Washington, Senator Patty Murray and Senator 
Maria Cantwell. I want to thank them for their kind 
introductions. Over the years, I have worked closely with both 
Senator Murray and Senator Cantwell in the other Washington in 
our capacity as members of the State legislature and then once 
they came here to this Washington.
    We have been able to collaborate closely on the issues 
facing the people of Washington State and our Nation, and I am 
looking forward to the opportunity of serving with them again, 
but in this Washington.
    Mr. Chairman, even though he is not able to attend the 
hearing today, he did stop by earlier, and that is Senator 
Inouye, a great patriot who served our country valiantly in 
World War II, as did my father. He has been a great role model 
and inspiration to so many Asian Americans and Pacific 
Islanders.
    I also want to reintroduce again my wife, Mona, who is able 
to join me today. As First Lady for the State of Washington, 
she spent 8 years tirelessly promoting the critical importance 
of early learning. That learning cannot wait until 
kindergarten, that really it starts from the time of birth.
    And she did this well before it was popular, and she is now 
doing a great job as Executive Director of the Puget Sound 
Susan G. Komen for the Cure Foundation, focusing on education, 
prevention, and research for breast cancer.
    Our children--Emily, Dylan, and Madeline--can't be here 
today. But like all of the Locke family, they are very much a 
part of these hearings. As has been mentioned, I am the son and 
the grandson of immigrants. My family's history in this country 
dates back to more than 100 years.
    My grandfather came to the United States from China and 
worked for a family in the State capital of Olympia, 
Washington. He washed dishes, swept floors, and cooked meals in 
exchange for English lessons. He lived in a house just one mile 
from the Governor's mansion. And when I was sworn in as 
Governor, I remarked that it took our family 100 years to 
travel that one mile.
    But our family's story is really the story of millions and 
millions of Americans since the beginning of this great Nation. 
It is a story founded on the American promise of freedom, hope, 
and opportunity, and it is precisely those values that led me 
to come before you today, seeking your confirmation to be the 
Nation's 36th Secretary of Commerce.
    The Department of Commerce touches ordinary American 
citizens in so many ways every single day. From the weather 
satellites to NOAA, to the global offices of the International 
Trade Administration, and from the laboratories of the National 
Institute of Standards and Technology to the many communities 
that benefit from the Economic Development Agency programs.
    Next year, as the Department conducts the 2010 Census, more 
than 1.2 million temporary Commerce employees will fan out 
across the country to provide a full and physical count of the 
American people.
    While the Department of Commerce has incredible depth and 
breadth, I want to provide a unifying mission. And if 
confirmed, I will develop an aggressive, integrated, agency-
wide program to create and protect American jobs.
    The goal is simple--to carry out the President's plan for 
economic recovery by focusing the Department of Commerce on 
saving American jobs and creating family-wage jobs for the 
future. We must look over the horizon and prepare for the new 
economy that will emerge when this recession passes. Simply 
put, we must rebuild, retool, and reinvent our national 
strategies for sustained economic growth.
    The Department of Commerce, as the President has noted many 
times, must be able to do multiple things all at once. And with 
the talented staff of the Department of Commerce, I know we can 
do all these things and, indeed, more.
    We must create public-private partnerships that bring 
together businesses, other Federal agencies, State and local 
governments, universities, and community-based organizations. 
And together, we will come up with innovative solutions to 
create jobs that are made in America and stay in America; to 
foster entrepreneurship and growth across all sectors of the 
economy; to deliver broadband to communities far and wide, 
urban and rural; to support innovation through cutting-edge, 
honest science; to protect our global ecosystem; and to reduce 
our Federal deficit by positioning the United States as a world 
leader in exports.
    In my home State of Washington, trade is the lifeblood of 
our economy. We are the most trade-dependent State in the 
Nation, with nearly one to every three to four jobs directly or 
indirectly tied to trade. And there has never been a more 
important time for this country to have strong and fair trade 
partnerships around the world, partnerships that protect our 
national interests while opening the doors of prosperity to 
American businesses and raising the standard of living for 
developing countries.
    In both the public and private sectors, I have worked hard 
to open global markets for American-made goods and services. 
And more than free trade, though, I believe in fair trade. And 
this means we must enforce our trade agreements. And if 
confirmed, I will not only help negotiate complex trade 
agreements, I will enforce them. As a former prosecutor, I 
believe in vigorous and even enforcement of the law.
    The success of the Department of Commerce has never been 
more important to the economic success of America. It is my 
hope that you and the people of this great Nation will come to 
know the Department of Commerce as a champion of knowledge, 
innovation, and sustained economic growth.
    Mr. Chairman, thank you again for the opportunity to 
address this Committee. Should you confirm my nomination, I 
pledge, as Secretary, that I will continually and frequently 
inform and consult with the members of this Committee.
    I now look forward to your questions. Thank you.
    [The prepared statement and biographical information of Mr. 
Locke follows:]

    Prepared Statement of Hon. Gary F. Locke, Secretary-Designate, 
                      U.S. Department of Commerce
    Chairman Rockefeller, it is with a great sense of honor and 
humility that I come before you and the members of this Committee 
today. I want to extend my personal thanks to you and to the 
distinguished Ranking Member, Kay Bailey Hutchison, for the courtesies 
you have shown me. It has been just three short weeks since President 
Obama nominated me to be Secretary of Commerce and I appreciate the 
urgency with which you have moved this confirmation process.
    Over the past few weeks, I have had the opportunity to meet with 
members of this Committee to discuss the need for a vibrant Department 
of Commerce that aggressively promotes American products, services and 
ideas both at home and around the world. We share a common vision for 
this Department to be an engine for job growth and economic renewal. I 
look forward to working with all of the Committee members, if 
confirmed.
    I am particularly grateful to my two Senators--Patty Murray and 
Maria Cantwell--for their introductions. I have benefited from the sage 
wisdom of Senator Murray for many years and had the privilege of 
serving with Senator Cantwell when we were in the state legislature 
together. The people of Washington are proud to have two such able 
leaders representing us in the U.S. Senate.
    The honor of appearing before you today is compounded by the 
presence of one of my mentors, Chairman Daniel Inouye of Hawaii. 
Generations of Asian Americans and Pacific Islanders who choose to 
enter politics have him to thank for blazing the trail for all of us. 
Senator, you are a great role model and I offer you my most profound 
``Mahalo.''
    I'd like to introduce the members of this Committee to my wife, 
Mona, who joins me today. As First Lady for the State of Washington, 
she spent 8 years advocating for issues relating to children and 
families. She continues her advocacy to this day as Executive Director 
of the Susan G. Komen for the Cure's Puget Sound affiliate, where she 
has been a leading voice in the fight to cure breast cancer.
    My children--Emily, Dylan and Madeline--cannot be here today, but 
like all of the Locke family, they are very much a part of these 
hearings. You see, I am the son and the grandson of immigrants. My 
family's history in this country dates back more than a century when my 
grandfather emigrated from China to Olympia, Washington. He got a job 
as a ``house boy'' for a family whose home still stands, just one mile 
from the Governor's mansion. During my tenure as Governor, it was never 
lost on me that it took my family 100 years to travel that one mile.
    That journey--like the journeys of so many immigrant families--was 
possible because of the opportunities we were afforded in this land.

  <bullet> My grandfather received an education because his employers 
        chose to teach him.

  <bullet> My father, who fought for our country on the beaches of 
        Normandy, was able to come home from the war and support his 
        family through his grocery store because of the value this 
        country places on entrepreneurship.

  <bullet> And I was able to become the first Asian American Governor 
        on the mainland because of the sons and daughters of Italian 
        and Russian immigrants and African Americans who had been 
        elected to represent Washington State before me. They didn't 
        just make history for themselves and their communities. They 
        opened doors of possibility for all of us.

    My family's story--and the stories of all those other families--is 
embedded in the values that make America great. And it is precisely 
those values that lead me to come before you today seeking your 
confirmation to be the Nation's 36th Secretary of Commerce.
    My goal is simple: to carry out the President's plan for economic 
recovery by putting every part of the Department of Commerce single-
mindedly to work on saving American jobs and creating the jobs of the 
future.
    The Department of Commerce touches ordinary American citizens in 
ways obvious and obscure every day--from the weather satellites of NOAA 
to the global offices of the International Trade Administration and 
from the laboratories of National Institute of Standards and Technology 
to the many communities that benefit from Economic Development Agency 
grants.
    Next year, in the conduct of the decennial Census, more than 1.2 
million temporary Commerce employees will fan out across the country to 
provide a full, accurate and physical count of the American people. Mr. 
Chairman, as you know, I'm a stickler for accuracy. The Census only 
happens once every 10 years and we need to get it right--no exceptions, 
no excuses. That is why it will be run out of the Department of 
Commerce and by a Director who will work with the Congress, the 
Administration and our state and local leaders to make sure you and 
they are involved every step of the way in making this a successful 
count.
    We meet at a time of great challenges for the Department. The 
ongoing transition to digital television, the looming 2010 Census and 
the critical role the Department will play in the economic recovery--
all create a sense of urgency. I think urgency is a good thing because 
it lets the people at the Department of Commerce know that their work 
has never been more important and that we must solve the immediate 
challenges we face.
    At the same time, I want to make sure we don't allow the urgent to 
crowd out the important:

  <bullet> Setting a foundation for long-term economic growth and job 
        creation is important.

  <bullet> Improving weather forecasting is important.

  <bullet> Managing our fishing industry responsibly is important.

  <bullet> Reducing the backlog of patent applications is important.

    We must look over the horizon and prepare for the new economy that 
will emerge when this recession passes. Simply put, we must re-build, 
re-tool and re-invent our national strategies for sustained economic 
success. The Department of Commerce, as the President has noted many 
times, must be able to do multiple things at once.
    I believe we can.
    When the high tech bubble hit Washington State, we pressed forward 
with a series of smart policy initiatives that set us up for future 
growth and created incentives to drive economic expansion. And we set a 
laser focus on attracting and developing the next generation of 
innovative and emerging industries. We came out of that period 
stronger, healthier, and better prepared to embrace economic change. 
That is the kind of leadership I hope to bring to the Department of 
Commerce.
    Already, the Department holds key tools our Nation needs:

  <bullet> To lead the world in innovation, science and technology,

  <bullet> To boost exports by promoting American products and working 
        with American businesses,

  <bullet> To ensure the health of our oceans and combat climate 
        change,

  <bullet> To create new, energy-efficient businesses and green jobs, 
        and

  <bullet> To strengthen our ability to compete in a global economy.

    Now, these tools, which have been too long ignored and fragmented, 
must become effective solutions to implement the President's vision of 
job growth and economic renewal.
    Mr. Chairman, as you and the members of this Committee know, I 
started my political career as a legislator. I felt then, as I later 
did as Governor, that government works best when there is a true and 
open partnership between the executive and legislative branches. Should 
this Committee confirm my nomination, I pledge that as Secretary, I 
will follow a collaborative path to inform, cooperate with and seek 
advice from this Committee.
    We can create public-private partnerships that bring together 
businesses, other Federal agencies, state and local governments, 
universities, and community-based organizations. Together we will come 
up with innovative solutions to:

  <bullet> Create jobs that are made in America and stay in America,

  <bullet> Foster entrepreneurship and growth across all sectors of the 
        economy,

  <bullet> Deliver broadband to communities far and wide,

  <bullet> Support innovation through cutting-edge, honest science,

  <bullet> Protect our global ecosystem, and

  <bullet> Reduce our Federal trade deficit by positioning the United 
        States as a world leader in exports.

    I hail from the ``other Washington'' where trade is the lifeblood 
of our economy. We are the most trade dependent state in the Nation 
with more than one in four jobs in our state either directly or 
indirectly tied to trade. There has never been a more important time 
for this country to have strong trade partnerships around the world--
partnerships that protect our national interests while opening the 
doors of prosperity to American business. As a Governor and an 
attorney, I have worked hard to open markets in Asia to American 
businesses.
    More than free trade, though, I believe in fair trade. That means 
we must enforce our trade agreements and place a high value on 
environmental, labor and safety standards. As a former prosecutor, I 
believe in enforcing the law. It is pointless to negotiate complex 
trade agreements if we don't intend to enforce them. If I am confirmed 
for this position, I will.
    The success of the Department of Commerce has never been more 
important to the success of the United States. It is my hope that, in 
years to come, the constituents and workers will come to think of this 
as the Department of Commerce and Innovation. Sustained and sustainable 
economic success is dependent on America maintaining its global 
leadership in innovation. Innovation drives productivity and 
collaboration; it allows mature companies to do better and new 
businesses to be formed. It offers opportunities for workers to use new 
skills in creative ways. It sustains communities as they create their 
own competitiveness strategies. I intend to integrate the work of the 
Department of Commerce toward a strategy of knowledge, innovation and 
sustainable economic growth.
    Together, we will energize the Department of Commerce. We will 
include the American people in rebuilding the economy. And we will say 
to the world, as clearly as possible, that America is open for 
business, once again.
    Mr. Chairman, I thank you again for the opportunity to address this 
Committee. I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Gary Locke.
    2. Position to which nominated: Secretary of Commerce.
    3. Date of Nomination: March 16, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 1201 Third Ave., Suite 2200, Seattle, WA 98101.

    5. Date and Place of Birth: January 21, 1950; Seattle, Washington.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Mona Locke (Spouse), Executive Director, Puget Sound Susan G. 
        Komen For The Cure; children: Emily Locke, 12 years; Dylan 
        Locke, 10 years; Madeline Locke, 4 years.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Yale University, Bachelor's Degree, Political Science, 1972.
        Boston University, LLD, 1975.

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Partner, Davis Wright Tremaine LLP, Seattle, WA.

        <SUP>*</SUP>Governor, State of Washington, 1997-2005.
---------------------------------------------------------------------------
    \*\Relate to Nominated Position.

        <SUP>*</SUP>King County Executive, King County Washington, 
---------------------------------------------------------------------------
        1994-1997.

        <SUP>*</SUP>Representative, State of Washington House of 
        Representatives, 1983-1994.

        <SUP>*</SUP>Chair, Appropriations Committee, State of 
        Washington House of Representatives.

        <SUP>*</SUP>Attorney, Economic Development Manager, Pacific 
        Northwest Bell, 1986-1989.

        Attorney, Seattle Human Rights Dept., 1981-1983.

        Prosecuting Attorney, King County Washington, 1976-1980.

        Attorney, Garvey, Schubert & Barer, Sept. 1984 to Dec. 1984.

        Attorney, Washington State Legislature, Jan. 1981 to May 1981.

        Legal Intern, King County Prosecutor's Office, June 1974 to 
        Aug. 1974.

    9. Attach a copy of your resume. See Attachment 1.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Port of Seattle Funding Policy and Strategic Planning 
        Committee, Fall 2008.
        Washington State Life Sciences Discovery Fund, Trustee, 2005-
        present.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Davis Wright Tremaine LLP, Seattle, WA, Partner.

        Safeco Inc., Seattle, WA, Director, 2005-2008.

        mInfo Inc, Seattle, WA, Director, 2005-present.

        Key Technology, Walla Walla, WA, Director, 2008-present.

        Blue Marble Energy, Seattle, WA, Advisor, 2008-present.

        General Biodiesel, Seattle, WA, Advisor, 2008-present.

        Waggener Edstrom, Bellevue, WA, Advisor, 2007-present.

        Q-Tires, Greenville. SC, Advisor, 2008-2009.

        Eden Rock, Seattle, WA, Advisor, 2008-present.

        Mountains to Sound Greenway Trust, Seattle WA, Trustee, 2005-
        present.

        Digital Learning Commons, Seattle, WA, Trustee, 2005-present.

        Fred Hutchinson Cancer Research Center, Seattle, WA, Trustee, 
        2006-present.

        Seattle Art Museum, Seattle, WA, Trustee, 2006-present.

        5th Avenue Theatre, Seattle, WA, Trustee, 2006-present.

        College Success Foundation, Issaquah, WA, Trustee, 2006-
        present.

        Life Sciences Discovery Fund, Seattle, WA, Trustee.

        Co-Founder, America's Opportunity Fund PAC, 2005.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Committee 100, Member, 2005-present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has an outstanding debt, the amount, and whether you are 
personally liable for that debt: Yes. No outstanding debts.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Bruce Harrell, Seattle City Council, 10/03/2007, $500.

        Page Miller, Seattle City Council, 10/21/2005, $500.

        Peter Goldmark, Congress, 11/04/2006, $700.

        Democratic National Committee, 11/17/2000, $500.

        Obama Victory Fund, 10/08/2008, $2,000.

        William Sherman, State Representative, 09/13/2007, $500.

        Terry Bergeson, WA Superintendent of Public Instruction, 10/23/
        2008, $500.

        Asian-American Leadership Council--Obama for America, 2008.

        Surrogate, Kerry/Edwards Presidential Campaign, 2004.

        Chair, Democratic Governors Association, 2003-2004.

        Vice-Chair, Democratic Governors Association, 2001-2003.

        Surrogate, Gore/Lieberman Presidential Campaign, 2000.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Boston University, Honorary Dr. of Law.

        Eastern Washington University, Honorary Dr. of Law.

        University of Puget Sound, Honorary Dr. of Law.

        Seattle University, Honorary Dr. of Law.

        Peking University, Honorary Dr. of Law.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Columns:

        Bellingham WA Herald, Initiative 1000 Pro: Allow the Dying to 
        Chart Their Own Destiny, 10/25/2008.

        Seattle Post Intelligencer, The Triumph of Terry Bergeson, 10/
        14/2008.

        Puget Sound Business Journal, Research and the Ecosystem of 
        Innovation, 
        3/14/2008.

        Seattle Times, Helping Working Families a Good Deal for 
        Everyone, 3/03/2008.

        Seattle Times, Reject Bigger Noisier Viaduct, 2/27/2008.

        Seattle Times, Former Governors Call For Tougher Gun Safety 
        Laws, 4/06/2006.

        Seattle Times, I-330s Damage Limits Won't Lower Insurance 
        Rates, 10/26/2005.

    Speeches:

        China International Food Safety and Quality Conference and 
        Expo, Beijing, China, September 24-25, 2008, Subject: Food 
        Safety.

        Western Pension Benefits Spring Conference, April 23, 2008, 
        Subject: Globalization Microsoft Corp., Seattle, WA, November, 
        19, 2007, Subject: U.S.-China Internet Forum.

        Clearpoint's Global Business Symposium, Seattle, WA, May 2007, 
        Subject: Globalization.

        BOAO Forum for Asia Annual Conference, Hainan, China, April 
        2007, Subject: Climate Change.

        Law Seminars International Conference, Seattle, WA, December 
        2006, Subject: Intellectual Property Issues in China.

        NW Food Manufacturers and Packaging Expo, Portland, OR, 
        January, 18, 2006, Subject: Keynote Address.

        Washington State Bar Assoc. Corporate Law Dept. Quarterly 
        Dinner, Seattle, WA, June 21, 2005, Washington Business and the 
        Global Economy.

        Government Leaders Forum, Beijing, China, April 2007, Subject: 
        Technology in Education.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        U.S. House of Representatives, Spring, 1996, regarding negative 
        impacts of professional sports franchises (namely Seattle 
        Seahawks) leaving/abandoning communities.

        U.S. Senate, Spring, 2001, regarding West Coast Crisis and 
        urging wholesale electricity price caps.

        U.S. House of Representatives, Committee on Government 
        Oversight and Reform, July 1998. Deposition before committee 
        staff on Chinese political fundraising efforts in the United 
        States.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I wish to serve as Secretary of Commerce because I believe there is 
a vital role for the Department of Commerce in our economic recovery. 
The unique strengths of the department and its talented public servants 
make it a natural agency to serve as the catalyst for America's 
economic recovery and resurgence. The Department of Commerce can play a 
vital role in renewing our Nation's place as the forefront of 
innovation--in green jobs, energy independence, while at the same time 
we restore our position of respect in the world.
    In this regard, I believe I bring the necessary experience to 
reenergize the Department of Commerce to become this new center of 
innovation for our Nation, and engage in a new economic diplomacy with 
the world.
    As a two-term Governor of the Nation's most trade-dependent state, 
I broke down trade barriers around the world to advance American 
products. For the past 4 years, I have been a successful business 
advocate and adviser, helping U.S. companies break into international 
markets, particularly in Asia, and expand their international business.
    I bring broad and diverse trade and economic development leadership 
experience in the public and private sectors and have worked closely 
with business, labor and government at all levels to successfully 
negotiate complex issues.
    I have a strong record of effectively working across party lines to 
find common ground and solve intractable problems. During my tenure as 
Governor, Washington State was recognized as one of America's five best 
managed states by Governing Magazine, and as the most Digital 
Government in America.
    To open doors for Washington State businesses, I led 10 highly 
productive trade missions to Asia, Mexico and Europe, significantly 
expanding the sales of Washington products and services. I successfully 
fostered economic relations between China and Washington State. My 
visits are credited with introducing Washington companies to China and 
helping more than double the state's exports to China to over $5 
billion per year. I also opened a Washington State trade office in 
Germany to advance trade relations with European countries.
    I firmly believe in the creativity and productivity of the American 
worker. As America's Secretary of Commerce, I will hold firm to the 
measuring stick laid out by President-Elect Obama--``Are we creating 
good jobs, instead of losing them? Are incomes growing, instead of 
shrinking?''
    In conclusion, I do not claim to know everything about Commerce. 
But, I will reach out to members of the Senate and House, and others 
with a deep knowledge inside and outside of the agency. As anyone who 
has worked with me will attest, I'm never satisfied from pat answers 
and refuse to depend on briefing book solutions. I have always been 
determined to understand where people are coming from, what they hope 
for, and what I can do to help. I believe that is our responsibility as 
public servants, and as a democratic government.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The responsibility of the Department of Commerce is to serve the 
American people by implementing the agenda of the President and the 
Congress as it relates to job creation, economic growth, sustainable 
development and improved living standards. As a person with extensive 
experience at the Cabinet level and having run a state, I know first 
hand what it takes to turn a large government bureaucracy into a highly 
functioning arm of the people. I'll seize this opportunity by:

        (1) Establishing a clear and ambitious strategic vision. This 
        is where great leadership starts. We will make sure that 
        everyone in the department wakes up with a sense of exactly 
        where we are going as a team and what we must achieve together. 
        People provided with unambiguous goals and vision will be more 
        inspired and effective contributors to the team.

        (2) Recruiting, appointing and retaining great personnel 
        talent. The American government ought to be staffed and run by 
        the top talent that the Nation has to offer. We will be 
        reaching out across business, government and academia to find 
        the best and brightest--people with a great contribution to 
        make to our future. We will seek out those who are motivated by 
        the desire to make a difference. The country is hungry for 
        change and I want people at Department of Commerce hungry to 
        contribute to that change.

        (3) Demanding excellence and accountability from everyone in 
        the Department. Excellence does not happen by accident. 
        Excellence happens when it is expected in everything an 
        organization does. Our standards must be high because Americans 
        have the right to demand the best. They also demand 
        accountability. I am committed to putting in place cutting edge 
        best management practices to assure we achieve both excellence 
        and accountability from every person in the department.

        (4) Seeking advice and input out from a diversity of experts 
        and stakeholders; including those who disagree philosophically 
        or ideologically with our programs and direction. Listen. 
        Listen. Listen. No mantra has been more important to my success 
        as a legislator or executive. Decisions are no better than the 
        information, ideas and arguments which serve to inform them. My 
        staff will be highly accessible to anyone with a great idea.

        (5) Creating a team environment. You can't effectively manage a 
        department as large, diverse and complex without creating 
        strong teams from top to bottom and without creating a 
        department-wide sense of belonging to a larger team. This will 
        be a huge priority for me.

    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Overall, economic recovery is the number one priority for the 
Department of Commerce. This agency can, must and will play a key role 
in planning and executing the President's economic plan. As President-
Elect Obama has stated ``the Department of Commerce must and will be an 
unyielding advocate for American business and American jobs, at home 
and around the world.''
    In specific, I believe there are three immediate challenges facing 
the Department:

  <bullet> 2010 Census: The 2010 Census currently runs the risk of 
        being less accurate than 2000, and is at risk of significant 
        operational failure.

  <bullet> Digital TV Conversion: The Department will face an immediate 
        challenge in addressing the conversion to digital television 
        signals scheduled for February 17, 2009. Should the conversion 
        not be managed effectively, many households may be without 
        television reception for an extended time.

  <bullet> Reliability of weather and climate forecasting: NOAA's polar 
        satellite program is currently over budget, sensors are behind 
        schedule, and there is a risk that nothing will be launched 
        before the old satellites stop working, leaving a major gap in 
        critical weather forecasting and information.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        Washington State Retirement Systems, Washington State Pension.
        Davis Wright Tremaine 401(k) retirement plan (no contributions 
        are made by the firm).

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: Microsoft Stock.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Microsoft, Weyerhaeuser, and other past clients while at the law 
firm of Davis Wright Tremaine LLP. All such clients have been disclosed 
to the U.S. Office of Government Ethics and the Department of Commerce, 
Office of General Counsel, Ethics Division.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In 2006 I assisted Capital Imaging LLC, dba as Upright MRI of 
Seattle, in meeting with officials of the Washington State Department 
of Labor and Industries to resolve reimbursement matters and to seek 
eligibility for future reimbursement for medical procedures using new 
MRI technology.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Will be governed by Federal and Commerce Department ethics 
rules.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.

    WSBA File No. 05-00905, June 7, 2005, Current Status: Closed.
    Mr. Locke's law firm was retained to represent plaintiffs in a 
lawsuit contesting the results of Washington State's 2004 gubernatorial 
election, but Mr. Locke did not participate in the case. The grievance 
alleged that, prior to trial, Mr. Locke improperly made a public 
statement that was inconsistent with the clients; position and the 
statement was reported in the news media. Disciplinary Counsel 
dismissed the grievance due to insufficient evidence that the firm's 
representation of the clients may have been materially limited by Mr. 
Locke's responsibilities to a third person or his own interests. The 
grievant protested the dismissal and a Review Committee of the 
Disciplinary Board affirmed the dismissal on May 6, 2006.

    WSBA File No. 06-00693, April 27, 2006, Current Status: Closed.
    Grievant alleged that, as a member of a corporation's Board of 
Directors, Mr. Locke violated Federal law by approving certain 
corporate actions which benefited a corporate officer who was running 
for public office. Similar allegations had been brought before the 
Federal Election Commission and in a shareholder suit in U.S. District 
Court, neither of which found any violation. Disciplinary Counsel 
dismissed the grievance on May 1, 2007 due to insufficient evidence of 
misconduct.

    WSBA File No. 08-00920, June 10, 2008, Current Status: Closed.
    The grievant alleged that, as Governor, Mr. Locke had taken an 
improper policy position on a legislative and budgetary matter that was 
later the subject of a lawsuit. Disciplinary Counsel dismissed the 
grievance due to insufficient evidence of misconduct. The grievant 
protested the dismissal and a Review Committee of the Disciplinary 
Board affirmed the dismissal on September 23, 2008.

    July-December 1997 Enforcement Actions
    Gary Locke: A complaint was filed against the 1996 Gary Locke 
Campaign alleging violations of RCW 42.17.060(1) for failing to timely 
deposit monetary contributions, RCW 42.17.060(5) for accepting currency 
contributions in excess of $50 without obtaining a receipt, and RCW 
42.17.080 and .090 for failing to timely report names and addresses of 
contributors. The parties entered into a stipulated agreement. The 
Commission accepted the stipulated agreement, and assessed a penalty of 
$2,500.
    Comments from the Locke Campaign--these contributions were not 
properly reported by campaign. Upon discovery of this error, the 
campaign worked closely with the Public Disclosure Commission to 
correct the situation.

    January-June 1998 Enforcement Actions
    Gary Locke for Governor Committee: An investigation was conducted 
into allegations that the Gary Locke for Governor Committee violated 
RCW 42.17.120 and .640 by reporting that it had received contributions 
from members of a Buddhist Temple and that the members did have the 
financial resources to contribute the funds. The allegations charged 
that the funds were from a single contributor. The investigation 
determined that the funds were contributed by the individual members as 
reported by the Committee. The Commission dismissed the complaint.

    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In my capacity as elected King County Executive, I was named as a 
defendant by the plaintiff, Sonia Soelter, a politically exempt 
employee, in her case against the County, claiming I terminated her 
upon my taking office because of her sex and disability (pregnancy) and 
political affiliation (Republican). The trial court dismissed the 
lawsuit in a published opinion and was affirmed by the 9th Circuit 
Court of Appeals.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: See answer to question C3 
above.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                              attachment 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Governor.
    That last statement was so important because Secretaries 
often say that and then fail to follow up on it. That is 
keeping in touch. That is not just them, but their chief 
lieutenants. It is extraordinarily important to us, to our 
staffs, to be in close touch.
    I don't believe we should write our own bills all on our 
own. I think we should cooperate with you, get your input. But 
that really does put an emphasis on cooperation back and forth.
    I am going to give you two questions at once. The census is 
just overwhelming. You mentioned at the beginning 1.3 million. 
It is the largest undertaking that our Government undertakes 
every 10 years, and the Congress has declared the census an 
emergency. We have given it $11 billion. The GAO has placed the 
decennial at the top of their list of high-risk Government 
enterprises.
    Despite these challenges, the OMB and the Department have 
seriously underfunded paid advertising, which is necessary to 
get people alert. And this all has to take place on April 1, 
2010. So, I mean, the clock has been running as we have all 
been waiting, and it is a real challenge.
    So there are some who actually think that it won't happen. 
It won't finish on time, which will feed into my next question, 
the DTV. But I am interested in the level of your confidence 
and what your program is to make sure that the census is taken. 
There is a lot of conflict about the census, and it is a very 
harmful conflict to the fabric of our Nation. And so, it must 
be done properly, and it rests on your watch.
    The second is DTV. As the Ranking Member pointed out, it 
ends on June 12, and she was kind enough to agree to extend it 
to June 12. That is not much time. And the range of people who 
are not covered by DTV, not all of them choose to be covered by 
DTV, is enormous. Go from 10 million to 16 million houses. And 
so, it is a crisis.
    So how do you use resources provided in the stimulus 
package to make certain that no consumers are left behind? I am 
obviously, coming from West Virginia, very, very sensitive to 
those who are caught in the hollows and the creek beds of a 
state which is only 4 percent flat and 96 percent mountainous. 
It makes it very difficult, and my interest, obviously, is very 
keen.
    Can you assure people that they will receive the coupons 
they need in a timely manner? That is a hard question, I would 
think, to answer. Can you pledge to be more forthcoming with 
information to both Congress and to the American people, to 
bring the American people, frankly, into this debate? I think 
that is one of our biggest problems right now is we understand 
it here. They don't understand it at all out there.
    And what is the NTIA doing to ensure that enough boxes will 
be available and that there are no regional shortages, 
particularly in smaller communities? So I would ask you those 
two questions.
    Mr. Locke. Thank you very much, Mr. Chairman.
    First of all, with respect to the census, it is an issue 
that goes back to the founding of our country. And in fact, the 
first Presidential veto in America was over the census and a 
big source of debate between Hamilton and Jefferson, and even 
President Washington was disappointed in the count and thought 
that it was an underreporting.
    With respect to the census, I know there are many members 
of the Committee that have raised that. Let me first assure you 
right off the bat that the President has assured me that the 
Director of the Census will report to me. And of course, I 
ultimately report to the President.
    But that there will always be consultation and information 
shared with the White House and with the Members of Congress 
because everyone has an interest in a full and accurate and 
proper conducting of the 2010 Census. And I pledge to do that.
    The Chairman. But that doesn't answer my question.
    Mr. Locke. No. Let me address the issue of are we capable 
of doing it? We are going to have--we are starting behind, and 
the GAO report has documented some failures of acquisition in 
technology, a whole host of management challenges that we face, 
and we are going to have to devote extraordinary efforts to 
this. And I intend to be personally involved in overseeing this 
and getting the right people in place and making sure that we 
catch up and that we work on this with absolute vigor.
    We are going to have to employ very creative methods of 
public outreach, getting the message out to people how 
important this is and the impact this has to their communities 
in terms of Federal assistance. We are going to have to be very 
creative in the use of technology to get the word out, to 
expedite it, and to be efficient as possible because time is 
running out. As you said, the count must be made on April 1, 
2010.
    With respect to the management challenges that we face, and 
it gets to the issue of how are we able to deliver, and can we 
deliver? And I want to thank you and the Ranking Member for 
your leadership in extending the deadline on digital 
television. We will not be seeking additional funds, nor will 
we be seeking an extension beyond the June 12 deadline.
    But let me just say that in just the last several weeks, 
thanks to the leadership and the funding provided by the 
Congress, we had a backlog of some 4 million coupons 
representing some over 2 million households. We are on track to 
have that backlog completely eliminated by next week, and we 
are using first-class postage to get those coupons out. We have 
a concerted effort, working with the FCC, to get the word out.
    And quite frankly, I have to tell you that I think the 
public service announcements and the education to the American 
people has not been all that clear so far. I can tell you that 
up until just about a month or so ago, I was not even aware of 
the full implications of this conversion. Most people who are 
affected don't understand what digital or analog television is. 
And it wasn't until my brother-in-law told me, because he 
relies on rabbit ears, what this all meant to him.
    I think that the public service announcements and the 
education messages have to be crystal clear that if you rely on 
that antenna on the roof of your house or rabbit ears, you are 
affected. We have to be very, very clear so that the people who 
are impacted understand this, using plain English in our 
broadcasting.
    We are also trying to work with the people to make sure 
that any lapsed coupons that they have, that they know that 
they can be reissued these coupons. And again, we believe that 
we can process all of these applications after next week after 
the backlog has been completely eliminated. We can have a 
turnaround time of less than 10 days with respect to sending 
out the coupons to any and all people who want it.
    But we have got to do a better job of still informing the 
American public as to the consequences and the implications of 
this conversion and of the availability of services.
    The Chairman. So you really are confident that we can get 
this done?
    Mr. Locke. I am confident with the resources that have been 
provided--thanks to the leadership of you and the Ranking 
Member--and the funds provided, we will get the job done.
    The Chairman. And do you have in mind a management team?
    Mr. Locke. We do have a management team already working on 
this, and I have been meeting with them already informally. 
They have been giving me progress reports on what has been 
happening. And I believe that with the new funding and with the 
new emphasis on clearing out the backlog, working with the FCC 
to reach people who still may not have heard about it, that we 
will, first of all, take care of the backlog and reach out to 
people who still have not applied for coupons.
    The Chairman. Thank you very much, Governor.
    Senator Hutchison?
    Senator Hutchison. Thank you very much.
    Governor Locke, I want to have a clear statement on the 
record regarding the census, and you have stated that it will 
be in the Department of Commerce and that you will share 
information with both Congress and the White House.
    Let me ask you, when we talked, you said that you believed 
that it must be absolutely accurate and that you believe in 
counting actual individuals at the correct locations and did 
not think that we should use statistical sampling. Is that your 
position, and would you elaborate, if you would like to, on 
your own position?
    Mr. Locke. Thank you, Senator.
    The Supreme Court has made it very clear that statistical 
sampling is not permissible for apportionment purposes. That is 
the law. We will enforce the law. That is the position, plain 
and simple.
    Statistical sampling is used with respect to determining 
accuracy, to determine whether or not we need to do a better 
outreach with specific communities or parts of the country. And 
in fact, we also have a long form and a short form that gets 
into some of the demographic detailing and profiling of the 
American population, American families. That is a method of 
sampling just to find out income levels and et cetera, et 
cetera.
    But again, for the purposes of the census as we all 
understand it, the apportionment, statistical sampling will not 
be used by the Department of Census.
    Senator Hutchison. Thank you. I think that is clear, and I 
think it is the expectation of all of us that the actual count 
is what we would be interested in assuring, and I think we are 
together on that. And I thank you for the clear position that 
you took, both with me privately and here.
    Second, on the issue of DTV, I think that all of us have 
talked about it, and you have said that you will make it 
happen. However, I want to say that I am concerned that we 
haven't had a nominee put forward yet to lead the NTIA, your 
Assistant Secretary position.
    And I wanted to ask you if you are going to address that, 
if you can tell us today that you have a nominee in mind? Where 
do we stand on having the actual person in charge of the DTV 
transition to come before us?
    Mr. Locke. I can tell you that we do have a nominee in 
mind. That person is being reviewed by the White House.
    But I want to say that we also have a Deputy Assistant 
Secretary at NTIA who is helping lead this, and we also have 
already put in place or the Department has put in place 
mechanisms for oversight with respect to a lot of these 
projects, not just digital television conversion, but a lot of 
the Federal stimulus dollars for broadband.
    And they have an intragency team overseeing this, working 
with the Inspector General's office that cuts across the 
department and is on top of these very large funding projects 
where the Congress and the American people and the 
Administration have expectations of getting these dollars out 
quickly, but with results. And so, we can talk more about that.
    But with respect to digital television, we do have a Deputy 
Assistant Secretary at NTIA that I have great confidence in who 
is very familiar with these projects, who brings an incredible 
level of energy and management oversight. And so, while we 
don't have an Assistant Secretary for NTIA that has been 
officially announced or nominated yet, the Department is moving 
forward.
    We also have incredible professionals in the Department. 
Secretaries come and go, and a lot of these political 
appointees come and go, but there is a great deal of pride and 
expertise within the Agency, and we are harnessing them, or at 
least the Deputy Assistant Secretary for NTIA is harnessing 
them and already working with stakeholders to get this job 
done.
    Senator Hutchison. Governor Locke, I have introduced twice 
in two different Congresses bills to increase the research and 
the data that we have on the violence of the weather as in more 
significant hurricanes and also, as I mentioned earlier, the 
surge issue that really has come, I think, in very recent times 
to cause the most destruction, which would be Katrina and Ike.
    In addition to that, I think we used to gather the 
information regarding the change in weather patterns where 
there had been cloud seeding and other weather modification 
efforts. But that was actually stopped years ago, back in the 
1980s.
    My question to you is, where do you think we can most 
effectively begin to gather this data and begin research? My 
hope and my original thought is that it would be in NOAA. And 
if you have any thoughts about the best place to do it, and 
would you work with me to develop this legislation going 
forward so that we can achieve this?
    We did not have the support in the past from the 
Administration for the Department of Commerce. And I think that 
is where it would logically stand. So my question to you is 
what do you think? And would you work with me to achieve the 
right result?
    Mr. Locke. Well, thank you, Senator. We chatted about this 
when I first met with you several weeks ago.
    I do believe that NOAA is the appropriate place for this 
research and data collection. It is a natural extension of the 
work that they do now with respect to weather, as well as the 
oceans. Several people have mentioned the impact of the surge 
of seawater after hurricanes, and given the fact that NOAA does 
that research, it is a natural extension of their capability, 
their expertise.
    And we must, in fact, gather more data and engage in more 
research with respect to all of our weather patterns, to 
understand whether or not modification of weather in one region 
affects what the weather would have been in another part of the 
United States and making sure that whatever modification 
efforts there are at weather do not hamper and have dire 
consequences for the weather of another part of the region 
because communities depend on that, whether it is water for 
irrigation, water for fish or recreation, and for drinking 
water for people.
    And so, I very much support that type of research and data 
collection, would look forward to working with you on the 
legislation that you might develop.
    Senator Hutchison. Thank you. Thank you, Governor.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Governor Locke, over the years, I have asked several 
nominees to the Secretary of Commerce how they plan to stop the 
flow of counterfeited goods entering into the U.S. or 
counterfeiting of U.S. products like software, videogames, or 
CDs that remain a huge problem for us in protecting our 
intellectual property. What do you think that the Department of 
Commerce should be doing in this effort?
    Mr. Locke. Well, first of all, thank you, Senator Cantwell, 
for that question. I have long been, in the public sector as 
well in the private sector, focusing on those issues of 
intellectual property protection, especially as it affects 
American companies abroad.
    When you go to other countries and as one of the other 
Senators noted, you suddenly see a DVD of an American movie 
that was just released the other day. That is taking away money 
from American companies and taking away money that otherwise 
could go into wages for the employees and supporting the 
American economy.
    So I think we have to work aggressively with the 
intellectual property enforcement programs within other 
countries and that we need to work with other Federal officials 
here and other agencies in America to stop the flow of 
counterfeit goods, whether auto parts to consumer goods to 
software, coming into this country because it is taking away 
from American workers.
    And that has got to be the number-one priority of the 
Department of Commerce, enhancing American companies and the 
employees that they support.
    Senator Cantwell. I would like to follow up on that because 
the U.S. Foreign and Commercial Services, within the Department 
of Commerce, also handles trade promotion, and as we have seen 
the opportunity for products and services to get access to 
other markets, one of the challenges has been resolving 
disputes.
    And if you look at the opportunity of our products to 
foreign markets, foreign markets have grown huge opportunities, 
but the number of specialists helping us resolve disputes, 
whether they are phytosanitary or what have you, have just 
continued to grow. So would you look to increase the number of 
U.S. Foreign and Commercial Service trade specialists overseas 
as a way to help U.S. companies?
    Mr. Locke. I believe that our Foreign Commercial Service 
operations are sometimes under appreciated and unknown. They 
are an incredible resource to American companies wanting to do 
business abroad, wanting to sell their products abroad, wanting 
to learn more about the opportunities abroad. And they can also 
be great helpers in finding potential partners and clients and 
customers in other countries and simply to understand the 
economic, political, financial, and legal system of other 
countries.
    I think it is a resource that in some ways has been uneven 
around the world. We need to really focus on improving the 
quality of those services in every country where they have a 
presence, and in some areas, we may need to beef up the number 
of Foreign Commercial Service officers.
    Senator Cantwell. I think you know of my advocacy on clean 
energy technology, particularly as it relates to getting access 
to overseas markets. Would you be willing to, in your capacity, 
work with USTR to eliminate clean energy tariffs on U.S. 
products and services for markets bound abroad?
    Mr. Locke. Clean energy and protection of the environment 
is a top priority of President Obama, and it is also an 
incredible opportunity for the United States to show leadership 
in the world. And quite frankly, we need the cooperation of 
other countries on climate change, environmental protection, 
and environmental cleanup.
    And we in the United States have so many companies that 
excel in this area--from alternative energy, energy efficiency, 
to green energy--that can create more jobs for people here in 
America while exporting that technology to other countries to 
create a better standard of living for the people of those 
countries, and ultimately for the entire globe.
    Climate change, environmental protection knows no borders. 
And what we do here at home in America cannot truly be 
successful unless we get the entire world to engage in this. 
There are incredible opportunities for U.S. technology, and 
U.S. jobs here at home. That has to be part of our trade 
agenda. That has to be part of our trade agreements as well.
    And I very much applaud you for what you have been doing to 
try to showcase American environmental technology and to 
address the issues of climate change around the world, 
especially in Asia.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    And now, Senator Snowe--who is gone.
    [Laughter.]
    The Chairman. Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, Governor.
    I know that you talked briefly with Senator Hutchison about 
the DTV transition, and there, as you know, a lot of this where 
we are today was due to a lack of organization in how the 
converter box program was handled. How will you be more 
responsive to the public as Secretary?
    Mr. Locke. Well, thank you, Senator.
    And if I am confirmed, I intend to work very closely with 
the NTIA division of the Department of Commerce. We already--
the Department, excuse me, is on top of this. The Assistant 
Secretary at NTIA or the Deputy Assistant Secretary for NTIA 
has already informed me that by next week, they hope to have 
the entire backlog for coupons completely eliminated.
    That department inherited a backlog of over 4 million, 4.2 
million coupons, representing over 2 million households. And 
thanks to the appropriation provided by the Congress, and 
especially the extension by this Committee, they intend to have 
that backlog completely eliminated by next week. And the 
turnaround time for future requests for coupons will be less 
than 10 days using first-class mail.
    There is also a very concerted effort with the FCC for 
outreach to populations that still and people who still may not 
be aware of this conversion. And as I indicated earlier, we 
have to have a better publicity, public service campaign to 
announce and educate the American people exactly what this 
conversion is.
    Too many people still do not know that if they have rabbit 
ears or the antenna attached to the chimney of their house that 
they are going to be affected come June 12.
    Senator Klobuchar. So you mean Senator Hatch and my public 
service announcement didn't get through to everyone? It was 
really a good piece.
    OK, I wanted to switch to--but thank you for that. That is 
very good news about the backlog.
    Tourism. As you know, Senator Dorgan has a bill that has a 
lot of support in the Congress, and I am now chairing the 
Subcommittee that includes tourism. And as you probably know, 
foreign visitors, international visitors spent more than $122 
billion on U.S. travel and tourism in 2007, and that was 
actually a 13 percent increase over 2006.
    Now with the economic times we are in, we know that won't 
be the same this time. Travel and tourism exports account for 7 
percent of all U.S. exports. So it is a very important piece of 
our economy.
    And what I would like to know because we get a lot of 
people talk about it, but are you willing to look at the 
Commerce Department to see how you can best leverage the 
existing resources of the Department to protect and grow the 
global market for our country? So we can get more people in and 
also promote tourism in the United States and any ideas that 
you have along this way.
    Mr. Locke. Thank you, Senator.
    We do have some people within the International Trade 
Administration that work on tourism. Tourism does generate 
millions of jobs within our country, and when you think about 
the jobs that are indirectly connected to tourism, whether 
those hotel workers and people in the hospitality industry are 
involved in tourism, they shop in malls, eat in restaurants, 
and support many other companies. So the extent and the impact 
of tourism is very large and very broad.
    There is a great deal of interest, fascination with America 
among people all around the world. They think of the great 
cities of America, but they also think of the great majestic 
natural beauty of America, from the Grand Canyon to the 
Badlands to our incredible, beautiful national parks. And they 
think of America as a place of great pristine environment, a 
place to visit, a place for recreation.
    So we need to promote that. How we do that, working in 
concert with other States that have promotion and tourism 
programs or major corporations that run major theme parks and 
attractions, that all has to be carefully sorted out because we 
have limited dollars, and how we leverage these Federal dollars 
on tourism promotion has to be carefully thought out.
    But I would like to work with you on greater emphasis on 
tourism because that is money that comes into the local 
communities, businesses, and those visitors leave, and we don't 
have to worry about some of the impact of education, schooling, 
and et cetera, et cetera.
    Senator Klobuchar. Right. Last quick question just on the 
broadband issue. You know, we have had some very successful 
public-private partnerships in expanding broadband in our 
State, and as you look at the standards you are going to use 
and the criteria for getting this money out to expand 
broadband, I wondered in your experience as Governor of 
Washington, what experience you had with these public-private 
partnerships, what do you think the best way is to expand 
service and make sure it is not so slow?
    Mr. Locke. The Congress has appropriated over $4.5 billion 
for broadband, and it is to be done expeditiously. The 
President has placed a great priority on this and has great 
personal interest with respect to bringing advanced modern 
telecommunications to the entire Nation. It is also a priority 
of this Department of Commerce.
    And if confirmed, I hope to bring some of the same 
management practices that I brought and used in the State of 
Washington where, on major projects, we have clear 
deliverables, where we have clear, coherent guidelines for the 
deployment of these dollars, and that we have monitoring 
systems in place from day one, and that we also have a final 
progress report so that we know what we got for the dollars 
that were spent.
    It is important that in the short time-frame that we have 
for the deployment of these dollars that we involve all the 
stakeholders, and the people of the Department of Commerce have 
already instituted a very transparent, very open process of 
soliciting input from everyone. No secret meetings. Public 
meetings. Input and suggestions over the Internet, and all the 
comments are available so that everyone can see what is being 
received by the Department of Commerce.
    From all of these ideas, we are going to have to distill 
down to some common themes so that, at the end of the day, we 
are having true leveraging of these dollars, working in concert 
with the programs and activities of different States, different 
regions, as well as the private sector. We need to make sure 
that, at the end of the day, we have something that is a 
unifying theme that advances modern advanced telecommunications 
for people all around the country.
    Senator Klobuchar. Thank you very much.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Senator Rockefeller, thank you.
    Governor Locke, I am going to be supporting your 
nomination. I think you are a great choice, and I appreciate 
your being here.
    First of all, on the issue of destination tourism and 
getting our share of the international tourism in this country, 
that is very job creating. As you know, I have put together a 
piece of legislation on this Committee, will be reintroducing 
it, and hope for your support. It is bipartisan, a very 
significant effort to increase international tourism in our 
country.
    I want to ask you about trade specifically, if I might? 
Last year's trade deficit was $800 billion, and the new 
Administration put out a piece here that says the President's 
trade policy agenda, an interesting piece. There is not the 
word ``deficit'' in the entire piece, not one word about the 
deficit.
    The question is, in your judgment, is an $800 billion a 
year merchandise trade deficit a threat to our economy?
    Mr. Locke. Thank you, Senator.
    I am still looking for the book and hope to get a hold----
    Senator Dorgan. That is right. I promised to send you a 
book, didn't I?
    [Laughter.]
    Senator Dorgan. I will do that.
    Mr. Locke. We will be able to--we will take care of that.
    Senator Dorgan. You can answer without having read my book. 
I am just----
    [Laughter.]
    Senator Dorgan. I am only asking if you think that an $800 
billion a year merchandise trade deficit is sustainable, or do 
you think that it ultimately undermines our economy?
    Mr. Locke. We cannot continue to have such large trade 
deficits with any one particular country, and it is of concern. 
That is why the Department of Commerce must be an aggressive 
and active champion in helping reduce that trade deficit by 
helping sell more products and services around the world and 
opening up markets for American companies.
    Senator Dorgan. Let me ask you about that then because we 
have just negotiated, our Government has negotiated a trade 
agreement with South Korea. Let me take one piece of it, for 
example, bilateral automobile trade.
    South Korea ships us around 800,000 vehicles a year to be 
sold in our marketplace. We are able to ship them about 6,000. 
Eight hundred thousand coming this way on boats. We get to sell 
them 6,000. Just over 98 percent of the vehicles on the roads 
in South Korea are made in South Korea because that is the way 
the country wants it.
    We have a trade deficit with South Korea. We have 
negotiated a new trade agreement and ignored the issue of 
bilateral automobile trade. Do you believe that we ought to 
deal with the issue of the bilateral automobile trade that 
seems so out of balance?
    Mr. Locke. Senator, I am not familiar with the specifics of 
that particular trade agreement, and I don't know what other 
markets may have been opened up for American products and 
services that may have offset that particular issue dealing 
with automobiles.
    Senator Dorgan. Would you take a look at that?
    Mr. Locke. But I would be more than happy to take a look.
    Senator Dorgan. Let me tell you, we did a bilateral trade 
agreement with China. That is a country with whom we have a 
$260 billion merchandise trade deficit at the moment. China is 
beginning to develop an automobile export industry. They are 
very aggressive, and we will begin seeing the automobile 
exports in a very significant quantity.
    Our agreement with China, a country with whom we have a 
very large trade deficit, provided the following with respect 
to automobiles. That after a phase-in, they could impose a 25 
percent tariff on any American automobiles sold in China, and 
we would impose a 2.5 percent tariff on Chinese automobiles 
sold in the U.S.
    A country with whom we have a $200 billion deficit, we said 
to them it will be OK if you impose a tariff 10 times our 
tariff on bilateral automobile trade. Does that seem fair, 
Governor?
    Mr. Locke. Again, without knowing the specifics----
    Senator Dorgan. I am actually helping with the specifics 
here.
    Mr. Locke. I understand that. But I think we also have to 
look at the entire trade agreement and what perhaps concessions 
or openings were made for other American products where perhaps 
there is no countervailing or offsetting tariff.
    Senator Dorgan. I understand. But that----
    Mr. Locke. We have to look at the entire package. But on 
its face, I mean, obviously, we need to make sure that we are 
not giving unfair advantage to the products and services of 
another country while hampering our products and services going 
into that country.
    Senator Dorgan. You are absolutely correct. You have to 
look at the entire package, and the verdict is in with respect 
to China. Since we have done the bilateral, the deficit with 
China has gone up, up, up, and way up.
    So whatever we might have achieved somewhere else was 
obviously not significant enough to outweigh what we gave away. 
And let me be clear. I believe in trade and plenty of it. I 
think our country can compete anywhere in the world, but I 
think our trade agreements are almost bankrupt. Unbelievable.
    You were asked about the Mexican truck issue today by a 
colleague of mine. Let me just tell you what happened at the 
table where you are now sitting. We had a hearing on that 
subject, and what we were told, for example, is that the 
Inspector General of the DOT says that we don't have equivalent 
standards, no centralized repository of driver's records, no 
central repository of accident reports in Mexico, and no 
central repository of truck inspections.
    And by the way, with respect to the cross-border trucking 
project, we were told that one of the requirements was to be 
fluent in English, and the Inspector General's office told us 
the way they determine fluency in English was to have a driver 
from Mexico look at a stop sign, for example, and then you 
would inquire, ``What is this?'' And the driver would answer 
``alto,'' Spanish for stop, and the driver would then be 
declared fluent in English.
    The point is we are not anywhere near the point of having 
equivalent standards, and no trade agreement, I believe, should 
diminish safety standards on America's roads. And we now hear 
that Mexico has decided to impose tariffs on sunglasses, toilet 
paper, and grapes, among other things. I hope you will not 
allow that to stand.
    I mean, we want to trade with our neighbors to the north 
and the south and around the world. We want trade to be fair. 
But Warren Buffett himself has indicated you can't consume 3 
percent more than you produce and run trade deficits in the 
$800 billion range and believe that can be sustainable for your 
economy.
    No one is describing these trade deficits as helping 
undermine this economy and help cause this crisis. It has, but 
no one wants to talk about it because the minute you talk about 
it, they suggest somehow you are anti-trade.
    As I said, I am for trade and plenty of it. But I support 
you, and I know you vigorously support trade. I hope you 
understand that these numbers, $800 billion worldwide 
merchandise trade deficit, $266 billion with China, $73 billion 
with Japan. And by the way, that Japanese one has been there 
for 12 to 15 years.
    So we have to decide as a country that we are going to 
stand up for our economic interests by expanding trade in a 
manner that is fair, that requires fair trade rules for our 
producers as well.
    So, again, I thank you for listening to me and answering my 
questions. You have a great opportunity to play a significant 
role here because of your credentials as a free trader. And I 
want you to succeed, and for that reason, I am very pleased to 
vote for you.
    And when your nomination comes to the floor, I will have a 
chance to visit about this a bit more. But in the meantime, I 
send you my best wishes and am pleased that the President has 
chosen you, and I hope you will have a chance to read the book 
I send you and we will have a chance to spend some significant 
time to talk about this.
    Mr. Locke. Well, thank you, Senator Dorgan. Let me just 
make one point very clear. I believe in fair trade, and I 
believe that if we don't have environmental, health and human 
safety standards, and other things incorporated--and labor 
standards incorporated into some of these trade agreements, we 
are putting American workers at a competitive disadvantage.
    And whatever agreements we have, we need to enforce them. I 
think too often in the past when we have alerted other 
countries to our concerns over violations of trade agreements, 
which have been hard-fought, involving tough negotiations, if 
some of the elements of those other--of the trade agreements 
are not enforced, then we have basically given away more than 
we have gotten back.
    And as a former prosecutor, I believe in vigorous 
enforcement of the law, and I will do everything within my 
power within the Department of Commerce, if confirmed, to 
enforce those agreements.
    And let me just give you an example. When I was Governor of 
the State of Washington, we pressed the Administration to 
enforce the trade laws and impose anti-dumping penalties for 
China for apple juice concentrate coming into the United 
States. We believed that they were illegally dumping apple 
juice concentrate. We pressed Mexico and the Administration 
with respect to some trade policies and differences with 
Mexico.
    But, for instance, our farmers, apple growers, have to 
abide by health and human safety standards, pesticides, and 
herbicide regulations. And the apples coming in from other 
countries, whether Latin America or South Pacific, don't 
necessarily have to follow those same standards. And so, the 
prices are cheaper. That puts American farmers and American 
workers at a competitive disadvantage.
    So I believe it is appropriate to have those protections in 
our agreements.
    Senator Dorgan. Well, I appreciate that answer. My time has 
expired.
    Just one final quick comment, and that is much of what we 
produce in this country now is intellectual property. And it is 
very important to be protected. There is substantial piracy and 
counterfeiting around the world, and you are going to be in a 
position to, I think, take new aggressive actions to deal with 
that.
    But we must deal with that to protect the property, the 
intellectual property that we create in this country. And the 
piracy and counterfeiting is unbelievable. So you will do 
American business and the inventors and creators in this 
country a great service if you will make that a significant 
priority as well.
    Mr. Locke. I agree with you 100 percent.
    Senator Dorgan. Thank you.
    The Chairman. Thank you, Senator Dorgan.
    Governor, we are having a hearing here tomorrow, a full 
Committee hearing on cybersecurity. And this comes within our 
purview on this Committee, and it--I mean, not trying to be 
dramatic about it. When the Internet was invented, everybody 
fell flat on their face, they were so thrilled, and the world 
began to do business in a different way.
    Now both the President Bush's Director of National 
Intelligence, Mike McConnell, who I greatly respect, and 
President Obama's Director of National Intelligence, Admiral 
Blair, who I greatly respect, have labeled cybersecurity 
perpetrated through the Internet as the number-one national 
hazard of attack on the homeland in West Virginia and anywhere 
else in America.
    So I mean it really almost makes you ask the question, 
would it have been better if we never had invented the Internet 
and had to use paper and pencil or whatever? And that is a 
stupid thing to say, but it has genuine consequence because it 
is on the Internet that these acts of shutting down--you know, 
they have the television ads every day saying that the 
Department of Defense is attacked 3 million times a day, and it 
is true.
    Everybody is attacked. Anybody can do it. People say, well, 
it is China and Russia. But there could be some kid in Latvia 
doing the same thing. I mean it is an individual act. It 
doesn't require a sleeper cell. It doesn't require any ammonia 
or explosives. It is just an act.
    And yet it is an act which can shut this country down, shut 
down its electricity system, and its banking system. Shut down 
really anything that we have to offer. It is an awesome 
problem.
    On the Intelligence Committee, we were taken for a full day 
to discuss--to an undisclosed place in Virginia to discuss 
this. It is a fearsome, awesome problem, and it is under your 
watch, so to speak. I mean, obviously, it is broader than that, 
too.
    I wonder where this stands with you, what your thoughts 
are, and what you think we ought to be doing about it?
    Mr. Locke. Senator, cybersecurity is obviously of utmost 
importance from a national security standpoint to protection of 
our way of life. As you indicated, a cyber attack could cripple 
the banking system, communications systems, electricity, and 
systems on which any and all businesses operate. It could bring 
our country to a grinding halt.
    I know that the great professionals, the scientists at the 
National Institute of Standards and Technology have been 
leaders in this and have been working with other agencies, and 
it is an incredible set of laboratories that we have with 
several Nobel Laureates who are proud to call themselves 
employees of NIST.
    It is something that every Federal agency is going to have 
to work on and together, in concert with the members of this 
Committee and the Members of Congress and, of course, the 
President's security officials as well.
    I would like to work more with you and learn more about 
your thoughts, but clearly, it is going to require a lot of 
interagency cooperation and greater attention.
    The Chairman. You are going to have to work very closely 
with the intelligence community because it is a question of 
trying to keep up. We will never get ahead of those who 
perpetrate violence, this kind of violence against us. All we 
can try to do is to get ahead for a little bit, then we will 
fall behind.
    It is a losing game for us, and it is potentially a 
catastrophic national event. And I just think it has got to be 
at the top of your list, and Americans don't know about it. 
Probably don't believe it is going to happen because that is 
not the kind of thing that is likely to happen in a place 
called the United States of America.
    But it already has, and it threatens the Nation unlike 
anything else. More so than suitcase bombs, more so than dirty 
bombs, more so than plutonium bombs, this is what threatens us. 
And I wish to lay that down as a major, major subject.
    We will be having a hearing tomorrow. We will be having 
many, many others. It is that serious.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Governor Locke, I chaired the Oceans Subcommittee of the 
Commerce Committee, and one of the things that we have had 
reports on for the last couple of years are ways to improve the 
management and oversight of our oceans. But the Puget Sound 
Partnership in Washington State has been an innovative and 
collaborative science-based effort to manage Puget Sound and an 
eco-based management system approach.
    And as you know, Puget Sound is the second-largest estuary 
in the United States. So it is a pretty comprehensive effort. 
Part of the problem is we are seeing dead zones already from 
ocean acidification, with major problems to the fishing 
industry, particularly the shellfish industry.
    And so, my question is, isn't that ecosystem science-based 
approach the kind of management approach to ocean governance 
that we should be seeing throughout the country?
    Mr. Locke. Thank you, Senator Cantwell.
    President Obama very much supports the use of science and 
not shackling the scientists and making sure that we have good 
science guiding all of our decisions.
    And the Puget Sound Partnership is one that I believe the 
Department of Commerce will want to use as a model in working 
with all the estuaries throughout the United States, but also 
as a way of addressing the issue of depleted stocks, whether it 
is salmon, whether it is red snapper, and other species.
    Those types of collaborations, those types of partnerships, 
those types of reliance on science and using science as a guide 
for subsequent actions, all of that is the approach that we 
need to have throughout the Federal Government and especially 
at the Department of Commerce.
    Senator Cantwell. Would you say that--I know that you have 
been quoted before as saying that we need to look at long-term 
goals like stock recovery rather than just the immediate needs. 
And obviously, fisheries management is difficult.
    I am assuming that you support an open and transparent 
process on fisheries management. But wouldn't you agree that in 
the long run, we have a long way to go with NOAA and some of 
these policies in creating a more open and transparent process 
and focusing on recovery?
    Mr. Locke. I do believe that we have a ways to go, and I 
know that the NOAA scientists are very committed. They are 
great professionals. We need to work perhaps more closely with 
stakeholder groups, and we need to use some of the resources of 
other agencies within the Department of Commerce in mitigating 
the economic impact of some of these policies where we are 
trying to reduce the fishing, trying to achieve the goals or 
the mandate of the Magnuson-Stevens Act to end overfishing by 
2011.
    There is going to be a lot of dislocation, economic 
implications and consequences to the affected fishing industry, 
and that is where we need to provide technical assistance, 
economic assistance. But we need to use science as the guide, 
and we need to have open, transparent policies working with the 
stakeholder groups so they understand the objectives.
    If we allow overfishing to continue, there will be no 
fishing left for them or for future generations, and it will 
completely end the fishing industry in so many communities. We 
don't want that to happen. But we need to take tough measures 
quickly and soon, but we also need to provide economic 
assistance to those that are impacted.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    I just want to probe a little bit more on cybersecurity 
because when you say--the current and the past director of 
national intelligence say it is the number-one national 
security threat, that is a showstopper. And people don't 
believe it. Business doesn't believe it. The big ones do, and 
they are trying to do something about it.
    You mentioned NIST. Several thoughts come to mind. They set 
the standards for all this. I remember when I had been on this 
Committee for about 2 years--and I have been on it 24 years--
and I went out to NIST, and they said they hadn't seen a 
Senator there in 5 years. And it raises a couple of questions 
from me.
    Number one, your scope is so broad. I mean, recently--West 
Virginia is not exactly famed for its ocean capacity. But on 
the other hand, the port of Huntington is the seventh largest 
port, operating port in the United States of America, including 
Baltimore, Los Angeles, and all the rest of them, because of 
the Ohio River.
    And the Coast Guard has become a matter of enormous 
interest to me in protecting the power plants and chemical 
plants, et cetera, that run up and down the Ohio River, which 
always back up, obviously, to the river because they need the 
water. But there aren't enough Coast Guard boats, speedboats 
with gun capacity out there to make any real significant 
difference.
    So one of the problems I think in the Commerce Department 
is that there are so many agencies that do such crucial work 
but don't get attention, and two things occur to me. Number 
one, obviously, NIST's relationship to cybersecurity, how does 
one fully describe it? And second, keeping good people.
    I am not sure--I mean, I think there is an enormous surge 
of public commitment, national service. We are going to pass a 
national service bill. The President wants one. I think most of 
us do. I was a VISTA volunteer. That is the way I got to West 
Virginia.
    But the desire for national service is enormous, but it 
tends to be in the under-50 group or the under-40 group, and 
the professionals who work in key positions at the places like 
NIST, which has been flat-line budgeted for a number of years, 
keeping them, keeping the people who can help us formulate a 
policy on cybersecurity is incredibly important.
    And one of the things I worry about across Government is 
keeping our very best people, that they will come to feel that 
there is too much--I mean, after some sort of false starts, the 
bar now for being allowed to serve in Government in a high 
position is so high that I think it is actively discouraging 
people from wanting to participate. People are looking for 
reasons not to serve in Government even though their instinct 
is to serve in Government because they have a new sense of 
commitment to the Nation and their obligation to the Nation.
    So these things clash. So I am just asking you two things. 
One is what does--what role do you see NIST playing with 
cybersecurity? And second, how are you going to go across the 
Department and pick out the people that you want to stay and 
encourage them to stay? I mean, a lot of them are leaving.
    Mr. Locke. Thank you, Senator.
    And I truly take to heart your emphasis on the need to pay 
closer attention to cybersecurity. I read you loud and clear, 
and you have made an impression on me with respect to that 
topic, and I will learn much more about that. I would be more 
than happy to sit down and chat with you in greater detail 
about this issue.
    The Chairman. Or Admiral Blair.
    Mr. Locke. And the other intelligence officials as well.
    With respect to keeping good people, I agree with you that 
President Obama has excited people around the country to serve 
their communities, to be engaged in their communities, and to 
serve their country, whether it is tutoring in schools or 
cleaning up the environment. You name it. They are engaged. 
They care about this country. And they are concerned about the 
future of this country. I think that is what this election was 
all about.
    The challenge now is to capitalize on that energy and turn 
that enthusiasm into real permanent change in America. I can 
tell you that with respect to Government service, I have long 
believed that it is a very noble calling, and not just the 
elected officials and not just the top officials, but rank-and-
file employees.
    And when I was Governor of the State of Washington, our 
motto was we wanted the employees of the State of Washington, 
regardless of what they did, to be proud to call themselves 
State employees, to be as proud as if they were to call 
themselves an employee of Microsoft or Nordstrom or the Fred 
Hutchinson Cancer Research Center.
    And so, we focused on programs that interfaced with the 
public to improve their interactions with government so that 
they could feel that government was efficient and effective and 
responsive. And we had recognition programs after recognition 
programs, even competition among State agencies on quality 
initiatives and showcasing the reforms that they were able to 
undertake.
    I think we need that at all levels of government. Pushing 
innovation, pushing efficiency, but recognizing the great work 
of Government employees so that they, too, can be proud to say 
they work for the Government.
    I think we need to look at retention policies, promotion 
policies, and compensation policies to keep the best and the 
brightest. I think any Government official will tell you that 
they have always been--they have always had a problem of 
keeping their best and brightest, who were always lured away by 
the private sector or even lured away by other governments.
    State governments, for instance, might train the members of 
the Washington State Patrol, the premier law enforcement agency 
in America, judged the number-one law enforcement agency in 
America, only to have their members--after the State spent so 
much money training them, only to have them lured away with 
higher pay by some of the municipalities in the State of 
Washington or other governments around the country.
    So salaries is an issue. Financial incentives, rewards have 
to be looked at to keep the best and the brightest within 
Government service.
    The Chairman. Before I call on Senator Hutchison, I just 
want to make one statement that should cheer all of us up.
    The applications for the Peace Corps, Teach for America, 
AmeriCorps, VISTA, all of those programs, all of them, are 
higher this year than they have ever been before. And the 
quality of the applications are higher than they have ever been 
before. That is a powerful statement from people who want to 
serve their country in a certain fashion, social service.
    At the other end of the spectrum, but not really, the same 
thing is happening at the Central Intelligence Agency and the 
Defense Intelligence Agency. Their applications are at an all-
time high now, and the quality of those applications is at an 
all-time high.
    So somewhere in that fit, it says very good things about 
American will. What it doesn't say is it gets down to the 
solving of basic problems, like cybersecurity. But we have a 
generation now following another generation that really wants 
to help our country succeed.
    Senator Hutchison?
    Senator Hutchison. Thank you.
    Governor, we talked about the census, and we talked about 
the Supreme Court ruling that you agree with and that you will 
comply with the law. Just one other point on that, and that is 
the Supreme Court did not specifically mention the intrastate 
redistricting. What you have said is, on the record, that you 
want people to be counted one by one in the right place as 
well. That would affect the intrastate redistricting.
    Is it your view that the intrastate redistricting, meaning 
every person counted in their appropriate place, is also a 
function of the census that should be adhered to? The person in 
their proper place should be counted so that intrastate 
redistricting is also not going to be affected by statistical 
sampling?
    Mr. Locke. It is my understanding that there are no plans 
within the Department of Commerce or the Census Bureau to use 
any type of statistical sampling with respect to population 
count.
    Senator Hutchison. Thank you. I think that is clear and 
would apply to intrastate as well.
    Let me ask you one last question--I think we have covered 
pretty well everything here through all the questions. The 
Department of Commerce and the Department of the Interior 
issued joint regulations last December on the use of the 
Endangered Species Act for climate change policy. And in the 
omnibus bill that passed last week, it contains a provision 
that the Secretaries of Commerce and Interior could 
concurrently withdraw within 60 days those joint ESA 
regulations without having to go through any notice or public 
comment and without being subject to any judicial review.
    I am concerned about that, and that a joint set of 
regulations that went through the proper process and all of the 
comment periods and were in a final regulation, that you would 
then be able to withdraw it without any of those notices of 
proposed rulemaking about the withdrawal and the comment period 
before any kind of final withdrawal of that could be made.
    What is your position on that, and is that something you 
are looking at?
    Mr. Locke. Senator, I am not really well versed on the 
history of that particular issue. All I can say is that it is 
important with respect to any listings of endangered species 
that we follow the law and that we provide appropriate and full 
notice of any actions before they are taken so that there is 
ample time for public comment and feedback from other agencies 
and other stakeholders.
    Senator Hutchison. Well, I think that it was an expansion 
of the use of the Endangered Species Act to affect global 
climate change policy rather than the normal use of the 
Endangered Species Act, which is to protect endangered species.
    So my question is, would you agree that if you are going to 
withdraw a final regulation, that you would go through the 
processes of a notice of proposed rulemaking published in the 
Federal Register with comment periods before there would be any 
kind of change in the regulation that was promulgated last 
December?
    Mr. Locke. Again, Senator, that is a little bit out of my 
league and out of my realm of expertise, and I am not familiar 
with the various legal requirements on how regulations are 
proposed under the Federal system and how regulations might 
even be withdrawn. So it is an area which I have almost no 
knowledge.
    Senator Hutchison. Well, the omnibus bill did allow the 
withdrawal without going through the procedures, and so you 
could legally do something like that. And I realize you are not 
prepared to answer that, but I would like an answer on the 
record regarding your views on implementing that, in my 
opinion, erroneous direction that could be used.
    I don't think we should waive the normal requirements for 
rulemakings because I think that they are very thorough, and I 
would hope that you wouldn't use the newly given authority that 
Congress did pass in the omnibus appropriations bill. And I 
would ask you to answer on the record if you would go through 
the normal process if, in fact, you were going to withdraw the 
regulation that was promulgated.
    Mr. Locke. OK. I would be happy to do that, Senator.
    Senator Hutchison. Thank you.
    The Chairman. Let me just make a closing comment in 
thanking you for what has been an absolutely superb, on your 
part, statement of your values, your plans, your history, your 
nature, as well as your wife. And it is the following, and 
Senator Hutchison has just complicated it a bit because she and 
I have agreed that what we would like to do is to have a 
rolling vote tomorrow morning before the first vote or during 
the first vote and vote you out of this Committee.
    Now it is also the practice that people do have questions 
that you need to answer. So what I would strongly counsel is 
that I have no idea what your afternoon or evening schedule is 
like, but what I would like to have it like is to get all of 
those questions answered, even if you don't write an 
encyclopedia on each one of them, so that we can, in fact, 
proceed with that rolling quorum call tomorrow in which you 
will be voted out. And then it is just a matter of getting 
unanimous consent from the Senate.
    I mean, somebody may object. We may have to take a vote, 
but we always take our chances on that. But I would like to see 
you in place as soon as possible for the good of the Nation.
    With that, this hearing is adjourned.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman, I'm proud to be here today to support Governor Gary 
Locke in his nomination to be Secretary of Commerce.
    As a former two-term Governor, a County Executive, and a State 
House Representative, Governor Locke brings a wealth of experience to 
this critical cabinet post.
    In these tough economic times, with unemployment at a staggering 
8.1 percent, Governor Locke understands the complexities and challenges 
facing our economy and our Nation first hand.
    And as the former top executive of a border coastal state, he has 
the experience required to tackle key issues including trade and the 
environment.
    The Commerce Department has jurisdiction over many important 
agencies that sorely need the attention of a committed Commerce 
Secretary.
    I intend to reintroduce comprehensive legislation this year to 
protect our oceans and I look forward to working with the Department of 
Commerce and NOAA to pass this important bill.
    I also believe that the Economic Development Administration (EDA) 
in particular, really needs our focus as we work to try to bring an end 
to this economic crisis.
    The EDA can and must play an important role in helping distressed 
communities in my home state of California and across the country.
    As Chairman of the Environment and Public Works Committee, I look 
forward to working with Governor Locke to reauthorize the EDA and take 
the necessary steps to help move our economy forward in the right 
direction.
    Thank you, Mr. Chairman.
                                 ______
                                 
   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas
    Governor Locke, congratulations on your nomination. I enjoyed our 
visit last week. I respect the depth and breadth of your background, 
and given the issues before us, your familiarity with China should be 
useful as well.
    As I'm sure it hit home during the briefing process, the Commerce 
Department has an extremely broad jurisdiction. As Secretary of 
Commerce, you'll be confronted with a wide range of issues and during 
an economically distressed time for our Nation.
    While you will have many pressing and important issues as 
Secretary, I hope that you will focus your attention on two important 
initiatives: science parks and broadband. At a time when the economy is 
stalled and international competition is growing, we need to do 
everything we can to provide good paying jobs for American workers. 
Science parks provide the launch pad that start-up companies need when 
they are ``spun out'' from a university or company. You also have a 
unique opportunity to dramatically change the lives of Americans who 
have not yet had access to broadband through the implementation of the 
Broadband Technology Opportunity Program. A successful broadband 
program will help deliver far reaching benefits for education, health 
care and business.
    I look forward to your testimony and our ensuing discussion.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Gary F. Locke
    Question 1. How do you see the National Oceanic and Atmospheric 
Administration's role within the Department under your administration 
and what kind of support can we expect to see for National Oceanic and 
Atmospheric Administration and its missions?
    Answer. I see NOAA as a leader in providing the science and 
information needed for wise decisionmaking as this Nation faces 
significant challenges such as climate, energy and the health of our 
ocean and coastal resources. I expect to fully engage with NOAA as 
decisions surrounding these challenges ultimately will have an impact 
on this Nation's commerce and economic prosperity. I value the 
importance of NOAA's service to this Nation and I will work to ensure 
that it is equipped to fulfill it's mission and meet its goals.

    Question 2. What are your plans for the National Oceanic and 
Atmospheric Administration's budget given the needs for ocean and 
coastal research and management and climate monitoring and services?
    Answer. NOAA has a diverse mission ranging from fisheries 
management to severe weather prediction to climate monitoring. Each 
year, NOAA goes through an extensive review of current and proposed 
programs, which allows for a continuous reevaluation of priorities and 
funding. I will work with NOAA and the Administration as well as 
Congress during this process to ensure the needs of climate, ocean, 
coastal and fisheries programs are addressed.

    Question 3. Currently, the U.S. imports 84 percent of all the 
seafood consumed in our country. Of that, half of the imported seafood 
products are farm-raised, aquaculture products. What is your position 
on the need for or your support of creating a national framework for 
aquaculture in the United States?
    Answer. Sustainably harvested wild caught fisheries will not be 
able to meet the projected increases in seafood demand. An 
environmentally safe offshore aquaculture regime may be able to meet 
such a demand and also decrease the Nation's demand on seafood imports. 
Should I be confirmed, I will work with the NOAA Administrator to 
develop a robust, comprehensive, environmentally safe offshore 
aquaculture scheme and consult with states, industry, environmental 
groups and all other interested parties.

    Question 4. In 2000, Congress enacted into law the John H. Prescott 
Marine Mammal Rescue Assistance Grant Program (P.L. 106-555). The 
Prescott Grant Program is conducted by the Secretary of Commerce to 
provide grants or cooperative agreements to eligible stranding network 
participants for recovery and treatment of stranded marine mammals, 
data collection from living or dead stranded marine mammals, and 
operation costs directly related to the recovery and treatment of 
stranded marine mammals and collection of data from living or dead 
stranded marine mammals. As Secretary, would you support amendments to 
the Act that would: include entanglement response in addition to 
stranding; require the Department of Commerce to collect and update 
existing practices and procedures for rescuing and rehabilitating 
entangled marine mammals; establish an interest-bearing fund in the 
Treasury for emergency response to marine mammal entanglement and 
stranding; and allow the program to solicit and accept gifts and other 
donations to increase the impact of the program nationally? Would you 
be willing to work with the Committee on the reauthorization of this 
Act?
    Answer. I am not yet familiar enough with this program to be able 
to commit to what I would support in a reauthorization. I understand 
that the program is extremely valuable and that the grants it awards 
are vital to maintaining a network of stranding responders. I support a 
reauthorization, but I am unable to comment at this time as to what 
elements a reauthorization bill should have. Should I be confirmed, I 
pledge to familiarize myself with the program and the Act and work with 
Congress on a reauthorization.

    Question 5. In the 110th Congress, the Commerce Committee favorably 
reported S. 1580, the Coral Reef Conservation Amendments Act of 2007, 
to reauthorize the Coral Reef Conservation Act of 2000 and strengthen 
the authorities of the Secretary of Commerce to address threats to 
corals. Removing and responding to vessel groundings on coral reefs is 
a serious issue facing the National Oceanic and Atmospheric 
Administration and threatens the health of coral reefs. The previous 
Administration saw NOAA as central part of the solution to address 
vessel groundings. Do you support strengthening the Coral Reef 
Conservation Program within NOAA, including expanding the agency's 
ability to address vessel groundings on coral reefs through civil and 
criminal liability provisions? Would you support legislation to achieve 
this goal?
    Answer. NOAA's Coral Reef Conservation Program is vital to 
protecting and conserving the Nation's coral reefs. I support a strong 
program now and in the future. Vessel groundings are a threat to coral 
reefs, but I am unfamiliar with NOAA's authorities related to 
prosecuting such incidents and would like to respond to you in more 
detail on this issue should I be confirmed.

    Question 6. NOAA's Seafood Inspection Program is a voluntary 
seafood inspection program on a fee-for-service basis under the 
authority of the Agricultural Marketing Act of 1946. This program 
employs approximately 170 people and is entirely funded from fees it 
collects for its services. Last Congress, the Committee reported a 
bill, S. 2688, that would strengthen and expand this program. Would you 
be supportive of Committee efforts to advance this legislation again 
this Congress?
    Answer. NOAA's Seafood Inspection Program lends vital support to 
the Food and Drug Administration's efforts to ensure that seafood 
entering the United States is safe for consumers. I support this 
program and continuing its ability to support the FDA, however, I am 
not familiar with the current legislation in Congress. Should I be 
confirmed, I look forward to learning about this issue and any relevant 
legislation and working with Congress to ensure it meets our needs and 
Congressional desires.

    Question 7. I would like to ask a question about our strategy in 
the WTO Doha Round talks as it relates to the so-called ``Rules'' 
negotiations--i.e., those dealing with disciplines against subsidies 
and ``dumping'' of products. As you know, China, Japan, India and 
others that have routinely violated international rules in this area 
are seeking to use the Doha talks to force weakening of U.S. laws 
against unfair trade. They are hoping we will make concessions in this 
area in return for an overall agreement in the Doha Round. Let me 
assure you that such an approach would lead to a catastrophic result 
when any agreement reached Congress. There is no tolerance in this body 
to weaken our trade laws and allow unfair imports to cause even more 
damage here.
    It is clear that we need a very different approach to the Rules 
negotiations as compared to what we saw with the previous 
Administration. As far as I could tell, our prior strategy was to just 
let the trade law weakening proposals pile up on the other side, 
without putting forward any significant proposals of our own to 
strengthen international disciplines on unfair trade. I believe it is 
critical for the Administration to change this dynamic and put forward 
major, substantive proposals to enhance disciplines against unfair 
trade. These should include proposals to rectify the current disparate 
treatment of the U.S. income tax system vis-a-vis foreign VAT tax 
systems, proposals to force the WTO Appellate Body to follow a 
deferential standard in reviewing national unfair trade determinations, 
and proposals to rectify the raft of erroneous decisions the AB has 
issued over the years.
    Please describe your strategy in this area and if you intend to put 
forward the type of proposals outlined above.
    Answer. As you may know, the U.S. negotiating position in the WTO 
negotiations is under review, and I am certainly aware of Congress's 
concerns about recent WTO rulings affecting U.S. unfair trade laws. If 
confirmed, I look forward to working with USTR Kirk, Congress and other 
stakeholders as we review the U.S. negotiating strategy in the WTO to 
identify an approach that will maintain our effectiveness of our unfair 
trade laws.

    Question 8. As you know, the United States specifically negotiated 
in the Uruguay Round to ensure that WTO dispute settlement panels and 
the Appellate Body would adopt a deferential standard of review in 
assessing national anti-subsidy and anti-dumping determinations. Where 
the relevant WTO agreements would permit of more than one reasonable 
interpretation, the intent was to allow national authorities to adopt 
whichever of these interpretations they felt would be most effective 
and beneficial. Over the years, the WTO Appellate Body has issued 
numerous decisions that have made a mockery of this standard of review, 
essentially finding that there is only one reasonable interpretation of 
key provisions--even where the provisions are unclear on their face and 
do not specifically speak to the issues in contention. Recently, the 
Appellate Body issued an analysis of the standard of review itself, an 
analysis that all but reads that standard out of existence.
    I think it is fair to say that the level of frustration with the 
WTO dispute settlement system in this body and in the country is 
reaching a critical level. This latest effort to rewrite the applicable 
standard of review--and to gut a provision that was critical to U.S. 
support for the Uruguay Round--shows just how out of control the 
situation is.
    How do you plan to address this problem and to ensure that the WTO 
dispute settlement system will, going forward, operate in the manner 
intended? What can we do--and what will you do--to see that the past 
erroneous decisions issued by the Appellate Body are corrected? I would 
welcome the opportunity to work with you and USTR on how we can get a 
grip on this issue, and what steps Congress can take to achieve real 
change.
    Answer. I am aware of your specific concerns with respect to the 
WTO Appellate Body decisions. As I noted above, all of our positions 
are under review. If confirmed, I look forward to working with USTR 
Kirk and the Congress on this review.

    Question 9. I would like to ask you about the anti-dumping 
methodology sometimes referred to as ``zeroing.'' As you may know, the 
United States has employed this methodology--which is essential in 
measuring the full extent of foreign unfair trade--for decades. We used 
this methodology, as did many other countries, long before the Uruguay 
Round agreements were adopted, and after they were adopted. There were 
proposals made in that Round to prohibit this practice, but those 
proposals were never adopted. Despite this long history and clear 
negotiating record, and in some of the most widely-criticized decisions 
it has issued, the WTO Appellate Body has now interpreted the 
agreements to prohibit zeroing. Essentially, foreign countries trying 
to weaken unfair trade rules have now obtained through litigation what 
they could not obtain at the negotiating table.
    In my view, this is one of the most egregious examples of what is 
wrong with the WTO dispute settlement system. It has also resulted in a 
serious weakening of our laws, in that the Bush Administration 
partially implemented this wrongheaded precedent in the context of 
anti-dumping investigations. It is critical that we seek a negotiated 
resolution of this issue that would clearly overturn the AB's faulty 
rulings and restore the historic practice used in the United States.
    Please describe your strategy to ensure that the AB decisions in 
this area are overturned. Can you assure me that you will take no 
further steps to implement this flawed AB precedent?
    Answer. I am aware of your specific concerns with respect to the 
rulings of the WTO Appellate Body concerning ``zeroing'' and, if 
confirmed, I will work with Members of Congress and USTR Kirk to review 
our strategy to ensure that we maintain the effectiveness of our unfair 
trade laws.

    Question 10. What are your plans to: (1) increase the number of 
overseas travelers who come to visit the United States; and (2) 
convince foreign businesses to expand their operations and investments 
here?
    Answer. I certainly recognize the importance of the U.S. travel and 
tourism industry to the U.S. economy in general, and the impact of the 
economic crisis on the industry. If confirmed, I will ensure that the 
Commerce Department undertakes a robust promotion program, developed in 
close consultation with key stakeholders including Members of Congress 
and the industry. I am aware of the Commerce Department's ``Invest in 
America'' program that seeks to attract foreign investment to the 
United States. I look forward to working with you on other creative 
ways to encourage foreign direct investment in the U.S.

    Question 11. Enhancing the protection of American intellectual 
property in other countries has been a priority for Congress for many 
years. Congress has provided the Administration with a variety of 
tools, including the so-called ``Special 301'' annual review, to 
leverage other countries to better protect our Nation's creations and 
innovations. I am concerned about the impact of certain technological 
developments on the protection of music, films, software and other 
copyright materials that are now openly and illegally distributed on 
the Internet, as well as by the role of organized criminal syndicates 
in the production and distribution of counterfeit and pirate materials. 
Can we have your commitment that you will work with us and use these 
tools creatively and forcefully toward achieving the improved 
protection of American intellectual property in other countries?''
    Answer. If confirmed, I can assure you that I will work with you 
toward achieving the improved protection of American intellectual 
property in overseas markets.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           Hon. Gary F. Locke
    Question 1. Last December the Department of the Interior and the 
Department of Commerce published joint final regulations to clarify the 
consultation process under the Endangered Species Act (ESA). This rule 
clarified the role of climate change and global processes in Section 7 
ESA consultations. These regulations were developed through an open and 
transparent public process and complied with the Administrative 
Procedures Act.
    Recently the President signed into law a provision, contained in 
the Fiscal Year 2009 Omnibus Appropriations Bill, which gives the 
Secretaries of Commerce and Interior the authority to repeal this rule 
without having to comply with the Administrative Procedures Act and 
without any public comment. Given the potential economic and legal 
consequences of repealing this rule, would you be willing to leave it 
in place?
    Answer. As directed by the President and Congress I will review 
this rule in consultation with Secretary Salazar and decide upon a 
course of action. Until that review is complete I cannot commit to a 
particular outcome.

    Question 2. If you decide to repeal this rule do you commit to an 
open and transparent process that complies with the Administrative 
Procedures Act and other applicable laws that govern the repeal of 
Federal regulations?
    Answer. If we decide to repeal the rule, I would want to explore 
our options for how to proceed. Again, this decision will be made in 
consultation with the Department of the Interior. I commit to be in 
contact with you and welcome your views through this process.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                           Hon. Gary F. Locke
    Question 1. The broadband provisions of the Recovery Act are not 
limited to grants to build new infrastructure. To the contrary, the 
statutory goals include ``facilitat[ing] access to broadband service by 
low-income, unemployed, aged, and otherwise vulnerable populations''; 
``stimulat[ing] the demand for broadband''; and ``increas[ing] the 
affordability of, and subscribership to, [broadband] service.'' This 
focus on demand-side stimulus is appropriate because, while terrestrial 
broadband service today is available to over 92 percent of U.S. 
households, only an estimated 55-61 percent of such households actually 
subscribe.
    I believe that the $250 million in funds set aside in the Recovery 
Act for adoption of broadband should be a minimum and that actually, 
more than this amount should be spent to ensure that consumers can take 
advantage of this technology that is so important for job creation and 
economic stimulus. The uses of broadband as economic stimulus are 
countless, from enabling someone to search for a job, to start a small 
business, or to work or learn out of their home.
    How do you envision the NTIA moving forward to utilize demand side 
broadband funds? Do you anticipate allocating more than the $250 
million allotted in the Recovery Act?
    Answer. I agree that providing demand-side stimulus is a critical 
goal of the Broadband Technology Opportunities Program. The Recovery 
Act explicitly specifies that the program be designed to ``stimulate 
the demand for broadband, economic growth, and job creation'' and 
provides at least $250 million for sustainable broadband adoption. This 
amount is a floor, not a ceiling. Possible methods by which NTIA may 
utilize demand-side funds include programs designed to provide 
broadband education, awareness, training and even equipment. There is a 
wide range of possible methods that NTIA may employ and the agency is 
seeking input from the public on these issues. NTIA is still holding 
public meetings and is still in the process of seeking public comment 
on a wide range of issues pertaining to the Broadband Technology 
Opportunities Program, including the appropriate allocation of funds. 
If confirmed, I am certain that NTIA will consider carefully demand-
side impact when formulating the final rules for the grant program.

    Question 2. Programs such as Lifeline/Link Up through the Universal 
Service program have been successful in assisting low-income consumers 
in obtaining telephone service. Would NTIA consider implementing a 
similar program to assist with broadband service, or providing a grant 
to USAC to establish a broadband Lifeline/Link Up program?
    Answer. The Broadband Technology Opportunities Program of the 
American Recovery and Reinvestment Act of 2009 has many important 
goals. One of these is to ensure that broadband services be accessed by 
the most vulnerable populations, including low-income consumers. USAC, 
an independent, not-for-profit corporation that was created in 1997 by 
the Federal Communications Commission to administer the Universal 
Service Fund, may be eligible to apply for grant money under the Act. I 
believe that as NTIA considers all the grant applications, it should 
seek to ensure that the goals of the Program are fully satisfied. If 
confirmed, I will work to ensure that NTIA works closely with the 
states to identify those consumers and those areas that most need 
access to broadband services.

    Question 3. Last week, the Washington Post published an article 
entitled ``Stimulus Dollars Energize Efforts to Smarten Up the Electric 
Power Grid,'' and defined the Smart Grid as what will be an ``. . . 
array of switches, sensors and computer chips that will be installed at 
various stages in the energy-delivery process--in power stations, in 
electricity meters, in clothes dryers.'' One of the major obstacles to 
deploying the smart grid is the lack of technological standards 
governing smart grid devices and the patchwork of standards currently 
governing the grid.
    In the American Recovery and Reinvestment Act, we provided $10 
million to energize NIST's efforts to develop the protocols and 
standards necessary to achieve interoperability of Smart Grid devices 
and systems. How will NIST use these funds to support the development 
of Smart Grid technology?
    Answer. As I understand it, NIST is using the ARRA funds to 
accelerate the standards development process. I am aware from the NIST 
Deputy Director's testimony before the Senate Energy and Natural 
Resources Committee 2 weeks ago that NIST expects to deliver an interim 
interoperability standards roadmap by June.

    Question 4. A number of states have already developed 
interconnection standards to allow for consistent, straight forward 
procedures and requirements for connecting to the grid. Massachusetts, 
for example, has created and adopted a Model Interconnection Tariff 
through a collaborative, stakeholder-involved process that simplifies 
the interconnection approval process, limits fees, and ensures 
applications are processed within a short, set timeframe. Are there any 
best practices you have observed at the state level that you believe 
will help NIST develop interconnection standards at the national level?
    Answer. NIST is certainly looking at the states for any best 
practices that are applicable for Smart Grid interoperability at the 
national level. One example is Boulder, CO, the first fully integrated 
smart grid city in the U.S.

    Question 5. What are your security concerns around the running of 
the core infrastructure of the Internet and the role the United States 
plays in that security? Do you believe there are security concerns 
around the running of the core infrastructure of the Internet that 
should be addressed before the U.S. Government gives up oversight of 
ICANN?
    Answer. Preserving the stability and security of the Internet's 
core infrastructure is critical given the importance of the Internet to 
economic development. If confirmed, I will work to ensure that the 
Department of Commerce will take no action that compromises this 
system.

    Question 6. Should the Department of Commerce stay involved with 
ICANN through a further agreement until some of the key issues that 
have been brought up through the Joint Partnership Agreement (JPA) 
review process are reviewed and settled?
    Answer. I do not wish to pre-judge the outcome of the disposition 
of the Joint Project Agreement, but preserving the security and 
stability of the Internet's Domain Name and Addressing System will 
continue to guide any actions taken by the Department in this area if I 
am confirmed. I understand that the Department expects to undertake 
public consultations in the coming month which will inform any decision 
made about the JPA's future, keeping in mind that ICANN can only 
succeed if it enjoys the confidence of the community it serves.

    Question 7. Will you commit to working with the President to 
fulfill his campaign promise to double funding for the Manufacturing 
Extension Partnership, which has proven to be highly effective in 
creating jobs and helping American small manufacturers compete in the 
global marketplace?
    Answer. I agree with the President that manufacturing is a key 
driver of the economy and support his manufacturing agenda that doubles 
the MEP budget. MEP is a valuable program that has a proven track 
record in helping U.S.-based companies compete. The COMPETES Act (P.L. 
110-69) was a great boost to the programs at NIST--in particular the 
MEP--and I will, if confirmed, work with you to implement the 
provisions of that bill.

    Question 8. The New England groundfishery is facing unprecedented 
challenges, as it looks to implement a sector-based management plan in 
2009. Do you believe that sector-based management will provide an 
effective mechanism to support the rebuilding goals of the Magnuson-
Stevens Act while providing a lifeline for the region's fishermen?
    Answer. I believe sector-based management and other limited access 
privilege programs can be valuable tools for fishery management. In New 
England, the controls currently used to manage the fishery, such as 
Days at Sea, have not gotten the fishery to where it needs to be. 
Examining new alternatives such as sectors is a worthwhile endeavor.

    Question 9. What role will you personally take in implementing 
sector-based management and ensuring the survival of the New England 
groundfishery?
    Answer. I plan to work closely with the NOAA Administrator and the 
Assistant Administrator of NOAA's Fisheries Service to ensure sector-
based management is considered through the Council process.

    Question 10. Illegal, unreported and unregulated fishing poses a 
tremendous challenge for the sustainability of our ocean and fisheries 
resources. The absence of sanction measures within the Regional 
Fisheries Management Organizations (RFMOs) appears to be a significant 
challenge in enforcing any strong fisheries management measures within 
those organizations. Do you agree that this is a problem? Will the U.S. 
propose more stringent sanction measures within the RFMOs that it plays 
an active role in?
    Answer. Compliance is a serious problem in the Regional Fisheries 
Management Organization context and tough consequences (such as 
sanctions) for non-compliance is an important tool in deterring illegal 
fishing activities. However, it is also important to work multi-
laterally and maintain good relationships with other countries to solve 
these problems. Should I be confirmed, I look forward to working with 
NOAA and the Department of State to determine and propose appropriate 
consequences for countries that ignore international fishery 
agreements.

    Question 11. As you know, the International Whaling Commission 
(IWC) is the body charged with the conservation of the world's whales. 
The IWC is at a crossroads, and a new proposal regarding coastal 
whaling appears to support partial resumption of commercial whaling. As 
Commerce Secretary, will you seek to strengthen the existing commercial 
whaling moratorium?
    Answer. Unfortunately, despite the International Whaling Commission 
(IWC) moratorium on commercial whaling, there are thousands of whales 
killed each year and their meat ends up being sold in markets in Japan, 
Iceland and Norway. Should I be confirmed as Commerce Secretary, I 
will, with NOAA's support, actively work with our Administration 
colleagues to support IWC measures that support the best interest of 
the Nation and the resource.

    Question 12. As the Department of Commerce moves to ensure that we 
convert from the analog age to a digital age, one aspect of that 
change--the disposal of electronic waste has come to the forefront. A 
recent picture in the Washington Post showed a discarded old TV by the 
side of the road in an article on the DTV transition. In Massachusetts, 
I know that there have been multiple efforts to recapture and recycle 
this waste, recognizing that there are a number of minerals that are 
potentially harmful to the environment. What is the Department doing to 
promote the collection of E-Waste?
    Answer. It is my understanding that the Department of Commerce has 
implemented an electronic stewardship program in accordance with 
Executive Order 13423, ``Strengthening Federal Environmental, Energy, 
and Transportation Management.'' I know informally that the Department 
has a number of other opportunities for employees to be more 
environmentally conscious with electronic equipment and its usage and 
disposal. I look forward to learning more about it if confirmed.

    Question 12a. Is this an area that we should place a greater 
emphasis on as part of the DTV transition?
    Answer. I agree that more attention needs to be paid to ensuring 
the proper disposal and recycling of electronic waste, through both 
voluntary efforts and market-driven initiatives. It is notable that the 
25 million coupons that have been redeemed toward the purchase of a TV 
converter box equate to 25 million analog televisions that may have 
otherwise become E-Waste, but now have had their life and utility 
extended. That said, as I stated in my oral testimony today, I am 
committed to upgrading the quality and clarity of information that is 
provided to the American public about the DTV transition, especially 
through Public Service Announcements. I believe including information 
about E-Waste disposal and recycling in these PSAs is an idea worth 
exploring.

    Question 13. Should we mandate that all manufacturers recycle all 
products they produce? What role should retailers play in recycling? 
What would the E-Waste include, for example, should it include all 
devices that plug in the wall or use rechargeable batteries?
    Answer. As with efforts being made internally as discussed in item 
a. above, the Department believes that opportunities exist across the 
private sector to establish programs for effectively recycling E-Waste. 
It stands ready to work with other agencies and organizations such as 
the Environmental Protection Agency and the Center for Environmental 
Quality to develop a reasonable, workable approach for implementation. 
As a possible first step, we believe it may be beneficial to establish 
an advisory group comprised of representatives from Federal, state and 
local government agencies as well as the manufacturing and retailing 
sectors.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                           Hon. Gary F. Locke
    Question 1. The NTIA has just been given $4.7 billion from the 
recovery bill to run a broadband grant program to stimulate broadband 
build-out. I supported this funding--I want to see an increase in 
broadband service and competition across the U.S. I hope that the NTIA 
will not leave rural broadband to the USDA's RUS program (which got 
$2.5 billion for this grant program), but that the NTIA will also learn 
about rural areas and fund grants to rural America as well. Will the 
NTIA also concentrate on rural areas?
    Answer. NTIA and the USDA's RUS program will be working together to 
achieve greater access to and adoption of broadband in communities 
nationwide. While the RUS program's core responsibility is to rural 
areas, NTIA's responsibilities extend to any ``unserved'' or 
``underserved'' areas, whether urban, suburban, rural or frontier. In 
carrying out this responsibility, NTIA will be coordinating closely 
with RUS to ensure that program funds are used in the most effective 
and efficient way possible. NTIA will dedicate considerable attention 
to the needs of rural areas and, if confirmed, I will ensure that NTIA 
is committed to helping serve rural areas.

    Question 2. The NTIA was also instructed to write a non-
discrimination condition for broadband service funded by these grants. 
I hope you will encourage those writing the conditions to ensure they 
truly protect against discrimination. I believe all networks should 
abide by non-discrimination provisions, and especially those that are 
publicly funded. Are you confident that the NTIA will write a strong 
condition that protects against discrimination on the Internet?
    Answer. The American Recovery and Reinvestment Act of 2009 
instructs NTIA to issue non-discrimination and network interconnection 
obligations that will be contractual conditions of broadband grants it 
issues pursuant to the Act. Those obligations, at a minimum, must 
adhere to the principles contained in the Federal Communications 
Commission's 2005 broadband policy statement. On March 12, 2009, NTIA 
published a Request for Information that, among other things, seeks 
public comment on the nature and extent of non-discrimination and 
network interconnection it should impose on grant recipients. I am 
confident that through the public comment process NTIA will gain the 
information necessary to write non-discrimination and network 
interconnection conditions that fully protect the public.

    Question 3. In general, do you see the Commerce Department playing 
an active role in the development of telecommunications policy? How 
will the Commerce Department interact with the FCC and in their 
regulatory proceedings?
    Answer. As the President's principal adviser on telecommunications 
policy, the NTIA has historically played and will continue to play an 
important and active role in the development of telecommunications 
policy. This role involves close coordination with other Federal 
agencies, including the FCC. The American Recovery and Reinvestment Act 
stipulates specifically that NTIA consult with the FCC in the 
establishment of the Broadband Technology Opportunities Program and, 
through the provision of numerous resources including data and, more 
importantly, expert counsel, the FCC has already aided NTIA and 
advanced the process considerably. If confirmed, I will continue to 
encourage a cooperative and collegial relationship between NTIA, the 
FCC and other Federal agencies.

    Question 4. I am concerned, that even when the United States 
enforces the laws to defend our producers against unfair trade acts, 
the WTO dispute settlement system undermines our enforcement efforts. 
In decision after decision, the WTO overturns proper and legitimate 
trade law rulings by the U.S. Government. The WTO routinely creates new 
obligations for the United States that we never agreed to in 
negotiations. As Secretary, what steps will you take to ensure that the 
Department can use all appropriate methodologies, including zeroing, to 
offset injurious dumping by foreign unfair traders? What actions will 
you take to make certain that the WTO dispute settlement system is not 
abused by those same unfair traders to undermine our laws?
    Answer. I am aware of the concerns of the Congress with respect to 
these WTO rulings. If confirmed, I look forward to working with USTR 
Kirk and the Congress to ensure that our unfair trade laws are 
administered in a strong and effective manner, and that they are not 
undermined through the WTO process.

    Question 5. The U.S. trade deficit continues to be a staggering 
problem for our economy. We will not fully recover in less and until we 
get this trade deficit under control. The Department of Commerce has 
perhaps the most important role in meeting this challenge. It must open 
new markets to U.S. goods and services. It also must guard the U.S. 
market against abusive practices by foreign producers who simply want 
to take advantage of our open market policies. What policies do you 
plan to implement to ensure that foreign goods are traded fairly in the 
United States? What is your view of the proper role for the trade laws 
in helping our economy to fully recover?
    Answer. Enforcement of our trade laws will clearly be a top 
priority for this Administration and for me personally. Protecting 
workers and U.S. businesses from unfair trade practices and opening 
markets abroad is a core mission of the Commerce Department and will 
remain so. I look forward to working with you and other Members of 
Congress, the Cabinet and especially USTR Kirk to develop an effective 
enforcement strategy and to execute it.

    Question 6. One of the offices that you would be in charge of as 
Secretary of Commerce is the Patent and Trademark Office. As you may 
know, some of my colleagues in the Senate are leading an effort to 
bring patent legislation to the floor of the Senate this year. Do you 
think it is important to ensure that any modification of our patent 
laws protects our manufacturing sector and continues to encourage 
innovation?
    Answer. The last major revision of patent laws occurred in 1952. 
Since then American innovation and invention have transformed the world 
and will play a significant role in bringing us out of recession. 
Patent reform is a complex issue that merits careful consideration and 
review, especially in light of several recent landmark Supreme Court 
cases. If confirmed, I will work with USPTO to ensure that stakeholders 
views, including the manufacturing section, are considered in this 
important debate.

    Question 7. I understand that it's possible that the public 
broadcasting infrastructure program at NTIA--the Public 
Telecommunications Facilities Program (PTFP)--might not be included in 
the President's budget for FY 2010.
    This program provides a critical resource for station 
infrastructure maintenance and upgrades. PTFP has helped ensure that 
stations are able to serve over 95 percent of this country--reaching 
the most underserved populations with local public TV and radio. 
Already for FY 2010 there are $48.5 million in grant applications 
pending at NTIA for a program that only has $20 million. Clearly 
eliminating such a critical program which has already suffered 
significant backlogs over the past 5 years would be harmful to the 
system.
    In North Dakota alone, PTFP has funded over $6 million worth of 
grants since 2000. Can I ask that you look into this and that you work 
with us to maintain funding for the PTFP?
    Answer. I have not been made aware of funding levels for the 
President's FY 2010 budget. However, if confirmed, I will look into the 
funding for this Program and report back to you.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                           Hon. Gary F. Locke
    Question 1. The Economic Development Administration (EDA) is the 
only Federal agency whose sole mission is to promote private sector job 
growth in economically underserved communities. I am a strong supporter 
of EDA's efforts in communities across our Nation and believe the 
assistance it provides is particularly important when our economy is 
ailing. Can you commit that if confirmed you will look for 
opportunities for EDA and that it will play a prominent role within the 
Department of Commerce?
    Answer. The Department of Commerce's Economic Development 
Administration (EDA) is tasked with leading ``the Federal economic 
development agenda by promoting innovation and competitiveness, 
preparing American regions for growth and success in the worldwide 
economy.'' This mission is critical in both robust economic times and 
in more troubling times such as the ones we are facing today. For that 
reason, the President included EDA in its FY10 budget highlights and 
provided $50 million in regional planning and matching grants to 
support the creation of regional innovation clusters that leverage 
regions' existing competitive strengths to boost job creation and 
economic growth. It also proposed to launch a $50 million initiative in 
EDA that will create a nationwide network of public-private business 
incubators to encourage entrepreneurial activity in economically 
distressed areas.
    In addition, EDA is working closely, as I understand it, with the 
Department to distribute the $150 million in funding EDA received 
through the Recovery Act with priority for areas experiencing severe 
job losses due to corporate restructuring.

    Question 2. EDA's authorization, the Economic Development 
Administration Reauthorization Act, expired in September 2008 and the 
Environment and Public Works Committee is planning to reauthorize EDA 
this year. A key issue for reauthorization is funding, which the Bush 
Administration cut. EDA received about $250 million in Fiscal Year 
2008, which was a nearly 40 percent cut from FY 2001 ($412 million). 
The FY 2009 Omnibus Appropriations includes $240 million for EDA. Do 
you agree that agencies like EDA have a critical mission and should be 
supported, especially in tough economic times?
    Answer. The President has included EDA in its Fiscal Year 2010 
budget highlights and provided $50 million in regional planning and 
matching grants to support the creation of regional innovation clusters 
that leverage regions' existing competitive strengths to boost job 
creation and economic growth. The budget also proposed a $50 million 
initiative in EDA that will create a nationwide network of public-
private business incubators to encourage entrepreneurial activity in 
economically distressed areas.

    Question 3. As Secretary of Commerce, you will have jurisdiction 
over the National Oceanic and Atmospheric Administration. Under your 
Administration, will you work to make ocean protection a higher 
priority in national policy decisions than it has been in the past? 
What will you do to improve inter-agency and intra-agency coordination 
of policies that affect the oceans?
    Answer. Yes, as Secretary I will support NOAA and work to engage 
other agencies to bring these issues to national attention and improve 
our current ocean policies.

    Question 4. Do you support the creation of a comprehensive national 
ocean policy and codification of NOAA?
    Answer. From my experience as the Governor of the State of 
Washington, I understand that the issues surrounding the management and 
protection of living marine resources is a complex issue that has 
direct impacts on local coastal communities and ocean users. As the 
pressure is only increasing on these resources, the need for a 
comprehensive national approach to ocean policy and decisionmaking is 
necessary. While I can't speak to any specific Act, I do support the 
idea of codifying NOAA's current mission within the Department of 
Commerce and, if confirmed, look forward to working with you to that 
end.

    Question 5. What will you do to foster the timely development of 
NOAA's satellite programs?
    Answer. NOAA's satellites are crucial tools that are valuable to 
the Nation and the world, providing important information for weather 
forecasting and climate change monitoring. The cost overruns that have 
plagued one of NOAA's next generation satellite programs, the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS), are 
a substantial problem and need to be fixed. Since NPOESS is a joint 
program with the Department of Defense, with the National Aeronautics 
and Space Administration (NASA) as a key partner, I am prepared to 
engage with NOAA's leadership and work with the White House as 
necessary to ensure this crucial national program for weather and 
climate forecasting gets back on track.

    Question 6. What do you see as the role of commercial sources for 
NOAA's weather and climate data needs?
    Answer. The Nation's ability to respond to weather events and 
climate change is dependent on data available. I understand that NOAA 
and its Federal partners generate much of the data used, however, I 
recognize that commercial sources for such data may be a valuable 
complement to Federal agency assets. Should I be confirmed, I intend to 
learn more about NOAA's weather and climate functions. I commit to 
examining NOAA's current uses of commercial data sources and 
determining where it may supplement Federal agency abilities with 
commercial services.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Hon. Gary F. Locke
    Question 1. Right now, there are two requests for fishery closures 
on both of Florida's coasts. One deals with endangered loggerhead sea 
turtles and the Gulf of Mexico longline grouper fishery. Another 
potential closure looms for the red snapper in the South Atlantic.
    These issues are painful, controversial, and will cause economic 
harm in a state with 8.6 percent unemployment.
    Governor Locke, in order to implement the Magnuson-Stevens Act 
(MSA) the way it was envisioned, the Fishery Management Councils must 
step up and implement long-term measures in a timely manner instead of 
sending emergency requests to the Federal Government for a fishery 
shutdown. Will you work with me to ensure fishery management councils 
step up and manage resources proactively and for the long term?
    Answer. Yes, I am committed to working with you to ensure that we 
manage fisheries in a manner that achieves sustainable resources and 
healthy fishing communities and that preempts the need for emergency 
rulemaking. Should I be confirmed, I will ensure that NOAA works 
closely with fishery management councils and other appropriate 
stakeholders to ensure proper monitoring of fishery and other marine 
resources to avert potential crises.

    Question 2. It's also very important to me that while we manage our 
natural resources and protected species we also strike a careful 
balance protecting jobs and a way of life for our people. With respect 
to the grouper fishery, there are some measures that can be taken 
immediately--such as working to convert gear for fishermen and funding 
onboard observers. Will you work with me to ensure all options to keep 
this fishery open, including the two I just mentioned, are thoroughly 
examined and aggressively pursued?
    Answer. I agree that onboard observers and gear technology are 
essential to ensure the goals of healthy fisheries, fishing 
communities, and the recovery needs of protected species and, should I 
be confirmed, will commit NOAA to investigate both to ensure the 
balance between healthy coastal communities and healthy marine 
resources is met.

    Question 3. Climate change is a complex problem, impacting our 
national security, our safety and health, and our economy. But, the 
Nation lacks a coherent, integrated, long-term strategy to understand 
and address the consequences of climate change. Dr. Lubchenco, in her 
testimony to this Committee, supported the development of a National 
Climate Service within NOAA. As Secretary of Commerce, where would 
climate science fall within your list of priorities, and do you believe 
that a National Climate Service should be situated within NOAA?
    Answer. President Obama has made addressing climate change a top 
priority for his Administration. As NOAA is a leader in climate science 
and research, these would be top priorities for the Department of 
Commerce should I be confirmed. I do believe we need a National Climate 
Service to meet the needs of our Nation to better understand climate 
impacts and deliver information critical to adaptation, mitigation, and 
management planning. Working with many other agencies, including the 
EPA, Department of the Interior, Department of Energy and Department of 
Agriculture, NOAA should lead a National Climate Service based on its 
existing mandates to provide climate information and services and 
experience managing end-to-end climate operations. NOAA can build upon 
its strong climate monitoring, research, and assessment capabilities, 
and translate climate data and research into information and services 
that address the needs of stakeholders at the local, state, regional, 
and national level.

    Question 4. Satellite sensors are the indispensable tools that let 
us monitor sea level globally. The Jason/OSTM satellite missions, 
jointly led by NASA-NOAA-CNES-EUMETSAT, plays two very important roles: 
(1) it provides a long-term survey of Earth's oceans--tracking ocean 
circulation patterns, and measuring sea-surface heights and the rate of 
sea-level rise; and, (2) is used to assist in forecasting short-term, 
severe weather events, including tropical cyclones.
    This is a proven technology, and to maintain continuity, NOAA will 
need to assume responsibility for the funding of the next Jason 
mission, in partnership with EUMETSET. Where does the Jason mission 
fall within your budget priorities for 2010 and beyond?
    Answer. I have not been involved in the Department's budget process 
for FY 2010 and beyond, but the impacts of climate change, like sea 
level rise on coastal communities, are significant issues. NOAA has an 
important role in environmental monitoring for climate through 
satellites, buoys, ships, aircraft and other means, and I support 
NOAA's continued work in this area.

    Question 5. In 2000, more than 127 million people--45 percent of 
the U.S. population, lived in coastal watersheds. From 2003 to 2008, 
for example, the populations in St. Johns River, FL, Cape Canaveral, 
FL, and Santa Ana, CA, all grew by over 70 percent. These communities 
will be directly impacted by sea level rise. What plans does Commerce 
have in place to deal with the economic impacts, as well as physical 
impacts, of sea level rise? How will Commerce take the lead on this 
issue?
    Answer. The economic and physical impacts of sea level rise present 
a significant challenge for the Nation. Communities like St. Johns 
River, Florida, must be supported in their efforts to adapt to a 
changing climate. I believe NOAA's climate research and science 
activities should support adaptation decision-making and lead efforts 
to assist communities in assessing their risks and vulnerabilities and 
developing strategies for action.
    Should I be confirmed as Commerce Secretary, I intend to 
familiarize myself with the plans Commerce has in place to deal with 
economic and physical impacts of sea level rise. I would expect 
Commerce to work with local, state, and regional governments and 
organizations to proactively address sea level rise impacts from 
climate change. Decision-makers at these levels need the information 
and tools to take smart action to protect lives and property, and 
safeguard the economic infrastructure that exists on our coastlines. 
Such information could be provided by a NOAA-led national climate 
service, in partnership with a variety of other Federal agencies and 
across levels of government and the private sector.

    Question 6. NOAA has one Hurricane Hunter G-4 aircraft, and if this 
plane is down for maintenance during hurricane season, we could have a 
serious problem, placing lives and communities at risk. We need to work 
together to find the resources needed to address this issue.
    Answer. NOAA's Hurricane Hunter flights are vital to the Nation's 
ability to prepare for and respond to impending hurricanes. I am not 
familiar with NOAA's entire fleet or any mitigation plans it may have 
in the event of an aircraft being unavailable during a hurricane. I 
understand that the U.S. Air Force also contributes to hurricane 
flights. Should I be confirmed, I pledge to examine NOAA's current 
operational and mitigation plans. I commit to work with you to identify 
and improvements that can be made.

    Question 7. Governor, as you know, there are some real concerns 
regarding the accuracy of the forthcoming census. What will you do to 
ensure that the low-income populations and minorities are accurately 
counted in the census?
    Answer. The Census Bureau has a wide array of operations in place 
to reach everyone with a particular focus on hard-to-count populations. 
Every decennial census field operation is designed to achieve maximum 
coverage. Examples include specific operations for people who live in 
remote rural areas, people without conventional housing, and operations 
for multi-unit housing in cities where the Post Office may not deliver 
to each household. In addition, census staff conducting field 
interviews are drawn from the communities where they will work. They 
know the culture and speak the languages of the people they need to 
reach. For the first time, the Census Bureau will mail a replacement 
questionnaire to households in hard-to-count areas and they mail bi-
lingual Spanish/English forms to 13 million households. The Census 
Bureau also implements a program to make questionnaires available to 
people that think they have been missed and they will provide support 
in 59 languages.
    All of this is enhanced by the communications and partnership 
program. For 2010, the Census Bureau is using an approach that 
integrates a mix of mass media advertising, targeted media outreach to 
specific populations, grassroots marketing, and special events. By 
integrating these elements with each other and with the Census Bureau's 
2010 Census operations, the campaign will help ensure that everyone, 
especially those hardest to count, is reached. This is combined with a 
partnership program that mobilizes the trusted voices in communities 
where people live, and in the organizations that people trust, to 
convince people that the census is important to their lives, and that 
their participation in it is safe. I am confident that these efforts, 
taken together, will go far to address the differential undercount 
observed in prior censuses. I share the Census Bureau's commitment to 
counting everyone, including the hard-to-count. Supporting this effort 
will be one of my highest priorities as Secretary.

    Question 8. There has been a fair amount of discussion about moving 
the Census Bureau from the Department of Commerce into the White House 
or making it an independent agency. What is your position on whether or 
not the census should be kept within the Commerce or moved? And 
assuming it stays within Commerce, what will you do to ensure that it 
receives the priority attention it requires?
    Answer. The Census Bureau became part of the Department of Commerce 
in 1903. Since that time, the Secretary has exercised oversight of the 
Census Bureau to aid in its successes and to mitigate forecasted 
failures. In 2007, after being informed of emerging problems with the 
Census Bureau's plans to use a handheld computer for its major field 
operation, the Secretary appointed key departmental staff to a task 
force to examine the status of this operation and provide 
recommendations for cost containment and to reduce the risk of a failed 
2010 Census. The Secretary's direct intervention and attention to these 
issues was instrumental in getting the census back on track.
    If I am confirmed, I will move quickly to facilitate the 
appointment of a Census Director, with whom I will work closely. Until 
that time, I will direct key staff to continue the extensive review 
process currently in place that tracks the operational readiness of key 
components of the census operation, including IT systems, costs, 
schedules and risks containment. I will submit to the Congress regular 
status reports on the critical operations necessary to conduct a 
successful 2010 Census.

    Question 9. As you know, much of the future growth in broadband 
will occur in the wireless sector. This growth, however, will almost 
certainly require the allocation (and auction) of additional spectrum 
to the private sector. What role do you see NTIA playing in efforts to 
reallocate unused or underused government spectrum in the next 2 to 3 
years?
    Answer. I recognize that expansion of broadband services will 
depend, in part, on the availability of spectrum. To that end, I 
support the efficient and effective use of the Federal radio spectrum 
and will ensure that NTIA continues to work with the Federal agencies 
to identify spectrum that may be unused or underused.
    NTIA has reallocated a significant amount of spectrum to support 
wireless development. While I support finding ways to make more 
spectrum for available for commercial wireless uses, I also recognize 
the critical importance that Federal radio frequency management plays 
in the areas of national security and public safety. To that end, I 
will work collaboratively with the Federal Communications Commission to 
bring these services to the marketplace without compromising the 
critical missions of the Federal Government.

    Question 10. In terms of the overall administration of the 
Broadband Technology Opportunities Program (the stimulus broadband 
grants program or ``BTOP''), what do you see as the more pressing 
issue: getting broadband to as many areas as possible (the ``supply 
issue'') or ensuring affordable access to broadband for as many people 
as possible (the ``demand issue'')?
    Answer. Addressing both issues is critical to BTOP's success and, 
therefore, NTIA will be considering grant applications that address 
broadband supply and broadband demand with a special attention to 
whether proposed projects are viable and sustainable. The American 
Recovery and Reinvestment Act charges the Department of Commerce with 
the responsibility of addressing the broadband needs of both 
``unserved'' and ``underserved'' populations and facilitating greater 
use of broadband services. The challenges facing Suwannee County may 
differ markedly from the challenges facing downtown Miami. Past 
experience has taught us that availability is often a more significant 
issue in rural areas and adoption a more significant issue in urban 
areas but, if confirmed, I will treat both prongs as essential.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Hon. Gary Locke
    Question 1. While existing U.S. sanction laws prohibit American 
firms from investing in Iran, a loophole allows American companies to 
do business with Iran through their foreign subsidiaries. If confirmed 
as Secretary, what actions will you take to end this practice?
    Answer. If confirmed, I am fully committed to working with the 
Department of the Treasury, which has primary jurisdiction for this 
issue, to prevent the proliferation of sensitive U.S. technologies to 
Iran.
    The Department of Commerce implements and enforces regulations 
regarding the export and reexport of U.S. dual-use items to Iran.
    It is my understanding that as a general rule, existing regulations 
do not permit American companies to export or reexport items to Iran 
through their foreign subsidiaries. I am aware of recent news reports 
that suggest some companies may be doing business in Iran through their 
foreign subsidiaries. If confirmed, I commit to making this issue a 
priority within the Department and the Bureau of Industry and Security, 
which is the Commerce lead on this matter.

    Question 2. As you know, the economic recovery package included 
$4.7 billion for NTIA to promote broadband. In New Jersey, broadband 
has been deployed throughout the state, but many low-income residents 
cannot afford it. How will you ensure that the broadband funds in the 
recovery package reach these underserved low-income residents, and not 
just more rural areas of the country?
    Answer. The Broadband Technology Opportunities Program of the 
American Recovery and Reinvestment Act of 2009 has many important 
goals. One of these is to ensure that improved access to broadband 
service is provided to those consumers living in underserved areas of 
the United States. One of the tasks that NTIA has in implementing this 
Program is to define the term ``underserved'' and to adequately 
differentiate ``underserved'' from ``unserved.'' To that end, on March 
12, 2009, NTIA published Request for Information that, among other 
things, seeks public comment on how to define these terms. Public 
comment on these and other issues will be accepted through April 13, 
2009. In addition, NTIA is in the process of holding a series of public 
meetings that are examining, among other things, these definitional 
issues. In keeping with the goals of the Program, it is critical that 
broadband services be accessed by the most vulnerable populations, 
including low-income consumers. If confirmed, I will work to ensure 
that NTIA works closely with the states to identify those consumers and 
those areas that most need access to broadband services

    Question 3. The Commerce Department's primary mission is to promote 
economic growth and create jobs. Sound Federal investments in 
transportation create jobs, decrease congestion, increase business 
productivity and benefit the environment. If confirmed, will you work 
in partnership with others in the Administration to ensure we are 
making sufficient investment in our transportation infrastructure?
    Answer. The Department of Commerce's Economic Development 
Administration (EDA) is tasked with leading ``the Federal economic 
development agenda by promoting innovation and competitiveness, 
preparing American regions for growth and success in the worldwide 
economy.'' The agency does this through planning, capacity building and 
infrastructure grants to eligible government entities and non-profits 
in distressed areas with a focus on job creation and leveraging private 
investment. EDA has been highly successful and will continue its work 
of investing in our Nation's infrastructure.

    Question 4. The Government Accountability Office has listed the 
census as one of the thirteen (13) urgent issues requiring immediate 
attention by the Federal Government. If confirmed, what immediate steps 
will you take to ensure an accurate count in the 2010 census?
    Answer. I have reviewed the recent GAO and IG reports on the risks 
associated with the 2010 Census. If I am confirmed, I will move as 
quickly as possible to facilitate the appointment of a Census Director, 
with whom I will work closely. Until that time, I will meet with the 
Census Bureau, and the designated investigative groups, to assess the 
current status of operations since these reports were filed. My 
understanding is that the Census Bureau developed a risk-improvement 
plan in response to the GAO designation that established appropriate 
accountability for schedules, production and operations. I understand 
further that this plan to mitigate risks was approved by OMB. I am also 
aware of an extensive review process currently in place that includes 
Congressional oversight, OMB, and other offices in the Department of 
Commerce that we will continue to utilize. I will work with the Census 
Bureau to ensure that these plans effectively address the concerns the 
GAO and IG have raised. I will submit to the Congress regular status 
reports on the key or critical operations necessary to conduct a 
successful 2010 Census.

    Question 5. As you know, one of our top trade priorities with China 
is the protection of U.S. intellectual property rights. It has been 
brought to my attention that copyrighted U.S. medical and scientific 
journal articles have been made available from Chinese state-sponsored 
libraries for online resale by private Chinese companies. In December 
2008, I wrote to Chinese Ambassador Zhou Wenzhong on state-sponsored 
copyright violations, particularly by the firm Kangjian Shixun Science 
and Technology, Ltd., that have significantly affected publishers in my 
state. However, no progress has been made to end these violations. As 
Commerce Secretary, how will you ensure that the theft of U.S. 
copyrighted materials in China is brought to an end?
    Answer. I understand the importance to the U.S. economy of 
intellectual property. The theft of intellectual property from American 
companies is a serious matter. If confirmed, I will work diligently 
with you, other Members of the Congress, my Cabinet colleagues, and 
U.S. businesses to protect the rights of U.S. firms in China. The 
protection of intellectual property will continue to be a top trade 
priority with the Department of Commerce, and it would be my intention 
to actively engage our trading partners on IPR protection and 
enforcement.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Hon. Gary F. Locke
    Question 1. The Secretary of Commerce oversees a large and diverse 
department. Overall, what are your goals and priorities for the 
Department of Commerce in the next 6 months?
    Answer. As I discussed at this morning's hearing, some key goals 
for the next 6 months will be to carry out the President's plan for 
economic recovery, prepare for a successful 2010 Census, and support a 
smooth transition to digital television by the revised June deadline. 
At the same time, the Department needs to continue and strengthen its 
ongoing efforts to maximize innovation, long-term economic growth, and 
environmental stewardship.

    Question 2. Arkansas is ranked 47th out of 50 states in broadband 
deployment and half of our schools use dial-up. Rural broadband 
deployment is one of my top priorities as a Senator and I would like to 
see a greater push for deployment. What are your views on the Broadband 
Technology Opportunities Program?
    Answer. Senator, I believe that the Broadband Technology 
Opportunities Program provides a unique opportunity to expand broadband 
access to communities that desperately need it, including in your home 
state of Arkansas. The statute expressly identifies schools, libraries, 
community colleges and other institutions of higher education as 
intended beneficiaries of this program and I share Congress's concern 
in this regard. Furthermore, the Department of Commerce, through NTIA, 
will work closely with the Department of Agriculture's Rural Utility 
Service to ensure that the Broadband Technology Opportunities Program 
begins the process of providing broadband access to every American, 
especially those in our rural areas.

    Question 3. I am Co-Chair of the Senate Democratic High Tech Task 
force and I share your belief that technology and innovation are the 
keys to our economic success. I've supported initiatives like science 
parks, innovation prizes, nanotechnology research, and the technology 
innovation program. I recognize you have a record in supporting similar 
initiatives. What are your plans for supporting innovation and 
entrepreneurship within the Department of Commerce?
    Answer. As you are aware, the Department of Commerce has a very 
broad portfolio. One portion, of which, is focused on innovation. As 
such, if confirmed, innovation will be a focus of my tenure as 
Secretary of Commerce. From NIST, whose measurements, standards and 
technologies provide industry the tools they need to be more innovative 
and competitive; to NTIA where the broadband grants funded under ARRA 
will help bring broadband access to millions of Americans; to the USPTO 
which through its patents and trademarks help drive innovation in the 
U.S. economy--the Department of Commerce will continue to support 
innovation in the U.S.

    Question 4. Congress took an important step toward promoting 
innovation with the passage of the America COMPETES Act. I believe the 
Nation can do more than just increasing funding for university research 
and boosting STEM education. What plans do you have for making the 
Commerce Department the center for innovation and entrepreneurship 
within the Federal Government?
    Answer. The various components of the Department of Commerce are 
all dedicated to advancing the Nation's economic well being. If 
confirmed, I look forward to harnessing the strengths of the 
Department's bureaus to advance an innovation and entrepreneurship 
agenda, through utilizing a strategic and cross-cutting examination of 
the Department's efforts to promote and advance innovation and support 
of creating good, sustainable jobs for the 21st Century.

    Question 5. Governor Locke, thousands of American companies and 
millions of American workers depend upon our anti-dumping and 
countervailing duty laws for protection against unfair practices by 
imports. As I'm sure you are aware, the very first item of President 
Obama's trade agenda is ``to promote adherence to the rules-based 
international trading system.'' The anti-dumping and countervailing 
duty laws are an integral part of ``the rules-based international 
trading system.'' As Secretary of Commerce, will you commit to making 
enforcement of our trade laws a top priority of the Department?
    Answer. Yes, if confirmed, I will ensure the Department's 
commitment to strong enforcement of U.S. trade laws remains a top 
priority.

    Question 6. As you know, the Mexican government announced that it 
will retaliate against the U.S. with import tariffs on certain U.S. 
goods as a result of the recent Omnibus Appropriations Act that the 
President recently signed into law. What role do you see the position 
of Secretary of Commerce as having in negotiating with the Mexican 
government on these hasty retaliation measures against the U.S.? Do you 
have an opinion on the Cross Border pilot program or the statement made 
by the Mexican government in its reaction to the provision included in 
the Omnibus Appropriations Act?
    Answer. I am aware of these concerns. I understand that the 
President has tasked the Department of Transportation to work with the 
U.S. Trade Representative and the Department of State, along with 
leaders in Congress and Mexican officials, to propose legislation 
creating a new trucking project that will meet the legitimate concerns 
of Congress and our NAFTA commitments. If confirmed, I look forward to 
working with members of the Cabinet, leaders on the Hill, and Mexican 
officials to resolve these concerns.

    Question 7. Inspections of seafood generally falls within NOAA's 
jurisdiction--and USDA. However, NOAA is only responsible for voluntary 
inspection of seafood under the Agricultural Marketing Act of 1946. We 
have learned that a significant number of Chinese and other Asian fish 
producers are apparently using antibiotics and other substances, such 
as malachite green or crystal violet, to enhance their production. Do 
you feel that NOAA's current inspection regime is adequately protecting 
American consumers from imports with these banned substances?
    Answer. The Food and Drug Administration has overall responsibility 
for all seafood safety in the United States. It is my understanding 
that NOAA provides a program utilized by the industry. However, I would 
be happy to look into the details of this program and pledge to work 
with you on ways to help FDA better protect American consumers from 
imported seafood.

    Question 8. Could you tell me what actions the Department of 
Commerce will take to ensure that harmful imported seafood products are 
not entering the U.S. market?
    Answer. NOAA supports the FDA mandate on seafood safety both 
through the voluntary seafood inspection service, and through an 
ongoing research component that develops innovative methods to detect 
and screen for pathogens and chemical contaminants. An important 
component of NOAA's Seafood Inspection Service is the routine 
inspection of part of the domestic seafood supply contributed from 
imports. NOAA will continue to support FDA's mandates through these two 
programs.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Hon. Gary F. Locke
    Question 1. As a Congressman, I saw how preparedness efforts for 
the digital television transition suffered under the previous 
Administration, which did not give this issue enough priority. 
Mismanagement at the Department of Commerce resulted in millions of 
consumers being placed on a waitlist for TV converter box coupons.
    However, the recent stimulus package provided NTIA at the 
Department of Commerce $650 million to fund the converter box coupon 
program and assist vulnerable populations which are less likely to be 
prepared for the DTV transition. What will you do differently than the 
previous Administration to ensure that everyone is ready?
    Answer. If confirmed, I will work to ensure that the National 
Telecommunications and Information Administration uses resources from 
the American Recovery and Reinvestment Act of 2009, signed into law by 
President Obama on February 17, 2009, to enhance the Coupon Program's 
and the Federal Communication Commission's consumer outreach to the 4.2 
million households still unready for the analog shut-off with; 
particular emphasis to vulnerable populations--seniors, minorities, low 
income, persons with disabilities, and those living in rural areas. The 
Act permits the Coupon Program to transfer funds to the FCC for 
consumer outreach if the Secretary deems it necessary and appropriate. 
If confirmed, I will consult with the FCC to ensure that these funds 
are utilized in a manner that effectively maximizes consumer outreach 
efforts.

    Question 2. Will there be direct outreach to affected TV viewers in 
areas such as Albuquerque and Santa Fe, where almost 12 percent of 
households are ``completely unready'' for digital TV?
    Answer. Yes. The Coupon Program has identified 28 target Designated 
Market Areas that have high percentages of over-the-air households that 
have not prepared for the analog shut-off on June 12. Albuquerque/Santa 
Fe is number one on the list. In addition, the National Association of 
Area Agencies on Aging and its partners--an NTIA grantee--is working in 
Santa Fe to help consumers apply for the coupon and purchase and 
install the converter box.

    Question 3. Today, most Americans take it for granted that they can 
get a telephone number or an e-mail address. But in my state, there are 
New Mexicans living in rural areas where there is no telephone or 
Internet available. Imagine not being able to call 911 in an emergency 
or not being able to run a business since customers cannot call you--
let alone place an order via e-mail or a website. As the Commerce 
Department works to expand access to broadband, can you assure me that 
Americans living in areas unserved by telephone and Internet providers 
will not be left behind or neglected?
    Answer. The Broadband Technology Opportunities Program of the 
American Recovery and Reinvestment Act of 2009 has many important 
goals. One of these is to ensure that improved access to broadband 
service to consumers living in ``unserved'' areas of the United States. 
Another purpose of the program is to provide improved access to 
broadband service to consumers residing in ``underserved'' areas. It is 
apparent to me that adoption is more of a problem in urban areas, while 
availability is a more pressing concern in rural areas. On March 12, 
2009, NTIA published Request for Information that, among other things, 
seeks public comment on how the agency can best meet the goals of the 
Act, which include providing access to broadband service to consumers 
residing in unserved areas. Public comment on these and other issues 
will be accepted through April 13, 2009. If confirmed, I will ensure 
that NTIA vigorously pursues all opportunities the BTOP affords to 
begin the work of making broadband service available in all areas of 
the United States.

    Question 4. The Commerce Department houses a diverse collection of 
agencies and divisions. It does everything from supporting scientific 
research and the commercialization of new technologies to expanding 
American exports and promoting minority-owned businesses. How do you 
plan to harness these important Commerce Department initiatives into a 
coherent strategic vision to promote innovation and create jobs across 
the country?
    Answer. I am committed to harnessing the talents of the Department 
to promote economic development and job creation. The diverse bureaus 
of the Department, all in their areas of expertise, support American 
businesses and entrepreneurs. If confirmed, I will actively engage the 
bureaus in the development of a strategic vision to carry out the 
economic agenda of the Obama Administration.

    Question 5. The U.S. has had huge trade deficits for years. In 
today's economic climate, American companies face many hurdles to 
selling their products overseas. Unfair trade practices and complex 
technical regulations in foreign countries can also make exporting a 
real challenge, especially for small businesses. How will the Commerce 
Department help companies in New Mexico reach their full potential for 
exporting their products?
    Answer. The Commerce Department, as the chair of the interagency 
Trade Promotion Coordinating Committee, has the lead role in ensuring 
that all U.S. export promotion programs and resources are deployed in a 
strategic and effective manner. If confirmed, I will work to ensure 
that the Department's export promotion programs, and those of the TPCC 
member agencies, maximize the competitiveness of U.S. businesses, 
including New Mexican exporters, in the global marketplace.

    Question 6. New Mexico is a beautiful place with terrific tourist 
destinations like historic Santa Fe, the Taos Pueblo world heritage 
site, and natural wonders like White Sands National Monument. Yet 
international tourism is suffering due to current world economic 
conditions. How will the Office of Travel and Tourism Industries (OTTI) 
at Commerce promote tourism in this current economic climate? How can 
the Commerce Department help businesses such as those in New Mexico 
that rely on tourism?
    Answer. I certainly recognize the importance of the U.S. travel and 
tourism industry to the U.S. economy in general, and New Mexico in 
particular, and the impact of the economic crisis on the industry. If 
confirmed, I will ensure that the Commerce Department undertakes a 
robust promotion program, developed in close consultation with key 
stakeholders including Members of Congress and the industry.

    Question 7. As the former Governor of Washington State, you are 
familiar with many of the economic challenges facing our Nation's 
Indian tribes, especially those located far from urban centers. How 
will the Commerce Department under your leadership promote 
entrepreneurship and business opportunities on tribal lands?
    Answer. EDA and MBDA support economic development capacity building 
for tribal organizations. EDA oversees annual planning grants to more 
than 50 American Indian and Alaska Native entities to support the 
development and maintenance of regional comprehensive economic 
development strategies which help these organizations to identify 
challenges and take advantage of opportunities to support 
entrepreneurship and economic development.
    MBDA also plays a critical role. I understand that the Office of 
Native American Business Development (ONABD) has successfully 
collaborated with numerous stakeholders in pursuit of bolstering 
economic development and sustainability on Indian lands. MBDA's Native 
American Business Enterprise Centers work with Native American 
entrepreneurs who wish to grow their businesses in size, scale and 
capacity. These firms are then better positioned to create jobs, impact 
local economies and expand into national and global markets.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Hon. Gary F. Locke
    Question 1. The BTOP program provides us with an enormous 
opportunity to connect all parts of the Nation to the modern Internet 
economy. To implement the program successfully, numerous issues have to 
be addressed, such as defining ``unserved'' and ``underserved,'' 
determining what role state governments will play in the process, 
coordinating with other Federal agencies, determining how funding 
priorities should be set, and countless other questions that commenters 
are sure to raise. What will you do to ensure that NTIA adequately 
addresses these issues in the short time it has, and that it does so in 
a transparent manner?
    Answer. NTIA has taken a number of steps to ensure it implements 
the BTOP program quickly and transparently. First, NTIA issued a 
Request for Information seeking public comment on a multitude of 
issues. Comments can be filed electronically or by mail. All comments 
received will be posted on an NTIA website for public review. To ensure 
that NTIA has the ability to act quickly, all comments are to be filed 
no later than April 13, 2009. In addition to seeking written public 
comment, NTIA, in coordination with the Department of Agriculture, is 
hosting 6 days of public roundtable meetings each dedicated to specific 
issues that must be addressed in implementing BTOP. Again, to make the 
program transparent, the roundtables are being webcast and questions 
for the panelists can be submitted by phone or e-mail. I am confident 
that NTIA will take the public input from the roundtable meetings and 
written comments and rapidly fashion all necessary rules and grant 
application guidelines to enable the Department rapidly to get stimulus 
funds in the hands of those who can use it to provide jobs and promote 
broadband deployment.

    Question 2. How will you ensure that efforts by applicants to 
obtain funding from various stimulus funding programs outside of BTOP--
with the Department of Energy for example--are coordinated?
    Answer. NTIA is working closely with the Department of Agriculture 
to ensure that the RUS loan program and the BTOP program are fully 
coordinated, both to reduce the administrative burden on applicants and 
to ensure that the people's stimulus money is spent quickly and wisely 
to promote job creation and broadband deployment. President Obama has 
directed each agency to establish their own Recovery Act web page which 
will give applicants up-to-date account of the funds allocated to them 
by the ARRA. This includes the amount and type of grants authorized to 
each agency by the ARRA.

    Question 2a. In Virginia, I chaired the Virginia Broadband 
Roundtable, which was charged with delivering a ``blueprint'' to assist 
Virginia communities with broadband planning and deployment. The 
Roundtable is about to publish a broadband availability map of 
Virginia, and has already created a ``community tool-kit'' to serve as 
a roadmap for communities seeking to obtain affordable last-mile 
broadband services through a community influenced model. Are there any 
plans to reach out to states that have such resources to compile best 
practices for others to follow?
    Answer. As a former Governor, I recognize that the states are 
valuable laboratories from which the Federal Government can learn many 
key lessons regarding best practices for programs on the national 
level. Similarly, NTIA also recognizes the instructive value of the 
states and their roles as partners in the Broadband Technology 
Opportunities Program. In the American Recovery and Reinvestment Act, 
Congress wisely directed that NTIA consult with the states with respect 
to the best ways to identify areas to which broadband grant funds 
should be directed and the proper allocation of grant funds. 
Additionally, NTIA has already begun meeting with officials from the 
states and has been actively soliciting input with regard to models and 
methodologies. If confirmed, I will direct NTIA to continue to reach 
out to the states and to consult with them in our common goal of 
providing broadband to every American.

    Question 3. What will you do to provide BTOP applicants with the 
resources they need to plan as NTIA resolves many of the fundamental 
underlying issues of BTOP?
    Answer. One of the most important resources that NTIA is providing 
prospective BTOP applicants is a seat at the table as NTIA determines a 
final rule for BTOP applications. NTIA is holding public meetings until 
March 24 and accepting public comment until April 13 so that the 
American public, including prospective BTOP applicants, can provide 
input on how the process should be structured. If confirmed, I will 
move swiftly to ensure that NTIA provide the best resources possible to 
BTOP applicants.

    Question 4. The BTOP program also includes a large pool of money 
for infrastructure mapping. Can you provide your thoughts on how these 
funds will be allocated, and to whom (states, private vendors, etc.) 
and how the data collected/mapped will be integrated with the Form 477 
data that is being collected by the FCC?
    Answer. Along with numerous other issues, NTIA is seeking public 
comment on the best practices for broadband mapping until April 13 and 
NTIA will be holding a public meeting on March 23 that will focus on 
broadband mapping specifically. Furthermore, NTIA has already begun 
consulting with broadband mapping experts in the states to gain insight 
into best practices from those who have already engaged in the mapping 
process at the state level. NTIA is aware that there are certain 
advantages to collecting data in a format that will dovetail with the 
FCC's Form 477 data and will factor in such advantages into its 
consideration. Therefore, while the format of mapping data and precise 
allocation of mapping funds is yet to be determined, NTIA is working 
diligently to develop a complete mapping plan.

    Question 5. The BTOP funding is segregated into several deployment 
categories, including connecting community centers. Can you speak to 
whether you view the expressed categories as guidelines for funding 
levels (meaning that there will not be separate applications for each 
category)? Or is it intended that each category be addressed/funding 
applied for separately?
    Answer. I do not yet have a view on the necessity or advisability 
of separate applications. It is my understanding that at the public 
roundtables NTIA has conducted to date, several panelists and 
commenters expressed a preference that NTIA do whatever it can to 
minimize administrative burdens on grant applicants and suggested that 
there be a single application form for both the BTOP and the Department 
of Agriculture's RUS programs.

    Question 6. Should private providers be allowed to apply directly 
for funding? How will NTIA determine whether the proposed services are 
the ``best fit'' for the community they serve--i.e., providing 
affordable, sufficient band-width, with adequate coverage?
    Answer. The Act gives States, territories, Indian tribes, native 
Hawaiian organizations and nonprofits the right to apply for grants 
under BTOP. Other entities can apply for grants if NTIA finds by rule 
that accepting grants from them is in the public interest. Public 
comment both in response to the Request for Information and from the 
roundtable meetings will inform NTIA as to the advisability of for-
profit entity participation in BTOP. As to ``best fit,'' NTIA's 
scrutiny of grant applications will allow it to determine if a proposed 
application is worthy of funding. In addition, NTIA is empowered by the 
Act to consult with a State or territory regarding the allocation of 
grant funds within the State for projects in or affecting the State.

    Question 7. Given that a portion of the BTOP is directed toward 
serving ``unserved'' communities, what role will the promotion of 
broadband competition in local markets play in your decision-making, as 
competition is likely to spur the growth of a greater variety of more 
affordable solutions?
    Answer. Congress has wisely mandated that NTIA consider such 
factors as whether a grant will increase the affordability of, and 
subscribership to, service to the greatest population of users in an 
area and provide the greatest broadband speed possible to such 
population. Fostering healthy competition is one important way to 
ensure that these goals are accomplished. If confirmed, I will direct 
that NTIA carefully consider the effect of grants in competition and 
improving the quality of broadband services nationwide and in our local 
communities.

    Question 8. What role can the Department play with respect to the 
``insourcing'' of jobs from other countries?
    Answer. If confirmed, one of my priorities will be to examine how 
the various parts of this very diverse organization can contribute to 
high wage job growth by leveraging Departmental resources to spur 
innovation and support entrepreneurship. If we work in this way to 
improve the competitiveness of U.S. businesses and take care in 
monitoring compliance with our trade laws, the end result will be a 
strengthening of our international economic position, increased 
domestic job opportunities, and a rising standard of living for our 
citizens.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Hon. Gary F. Locke
    Question 1. The Commerce Department plays a major role in funding 
the work of the Denali Commission which for over 10 years has 
coordinated the work of Federal agencies in rural Alaska to address 
such basic infrastructure needs as bulk fuel storage, solid waste, and 
teacher housing, as well as economic development and training and other 
programs. Looking ahead, the Denali Commission will also tackle rural 
needs for renewable energy and broadband communications. Do you support 
continuation of the Denali Commission and its work to bring to rural 
Alaska the same level of basic services that most Americans take for 
granted?
    Answer. The Department's Economic Development Administration (EDA) 
has developed a close working relationship with the Commission and we 
collaborate on areas of common interest and occasionally fund joint 
projects. EDA anticipates that it will continue to work closely with 
the Commission to support economic development activities in rural 
Alaska.

    Question 2. Climate change is bringing dramatic change to Alaska's 
Arctic region--its people and communities. There already has been 
permafrost thawing, coastal erosion that undercuts communities, changes 
in fish migration patterns, and a dramatic reduction in Arctic sea ice. 
It has been predicted that the Northwest Passage could be ice-free in 
summer within the next decade. The Commerce Department plays a critical 
role plays understanding and addressing the impacts of Climate Change. 
Given the impacts of climate change already apparent in Alaska what 
should we be doing to ensure the long-term viability and survival of 
Alaska communities and Native peoples' culture, economy, and 
subsistence way of life?
    Answer. Alaska is already showing signs of impacts from a changing 
climate on its natural and human environment. Alaska's communities and 
Native peoples' culture, economy, and subsistence way of life are 
vulnerable to such impacts. In order to ensure the long-term 
sustainability of these communities and cultures, authoritative, timely 
and accessible climate information and service must be made available 
at the state and local level. Communities must be supported in their 
efforts to adaptation to a changing climate. This includes tailoring 
climate research and science activities to support adaptation decision-
making, as well leading efforts to assist communities in assessing 
their risks and vulnerabilities and developing strategies for action. 
Should I be confirmed, I look forward to working with NOAA to address 
these issues.

    Question 3. What steps should be taken to address increased 
commercial activity in the Arctic such as oil and gas exploration, 
shipping and tourism?
    Answer. Not only is NOAA charged with protecting, restoring and 
managing our coastal and ocean resources, it is also called upon to 
support the Nation's commerce with information for safe, efficient, and 
environmentally sound transportation. As commercial activity in the 
Arctic expands, NOAA has many services and a broad expertise to bring 
to bear including resource protection, climate monitoring, and oil 
spill response. Should I be confirmed, I will work with the leadership 
at NOAA to ensure all of NOAA's abilities are available as Federal 
agencies prepare for such an expansion.

    Question 4. How can we get a more stable budget for NOAA's research 
in the Arctic and is it time we passed a NOAA Organic Act?
    Answer. It is my understanding that NOAA has a number of research 
activities in the Arctic, the specific details of which I am not aware. 
Nor am I aware of the specific funding associated with those 
activities. That said, the Arctic region is at the forefront of 
realizing significant environmental change from the warming of the 
planet. Arctic research should be an ongoing, stable component of a 
larger climate change research program both at NOAA and across Federal 
agencies.
    With regard to a NOAA Organic Act, while I can't speak to any 
specific Act, I do support the idea of codifying NOAA's current mission 
within the Department of Commerce and, if confirmed, look forward to 
working with you to that end.

    Question 5. As the United States prepares for COP-15--the United 
Nations Climate Change Conference in Copenhagen in December, it is my 
understanding that NOAA has been advised that ``feedbacks'' from the 
Arctic region are growing--methane rising from the thawing permafrost; 
more heat being absorbed by the ocean which, lacking ice, reflects less 
solar radiation back into space. We're concerned not only of the 
impacts of climate change to the Arctic, but the increasing--and 
unforeseen--contribution of greenhouse gases and heat from the Arctic. 
Can we work to ensure that the growing Arctic feedbacks are assessed 
and information shared among nations as we negotiate a climate regime?
    Answer. Should I be confirmed, climate change will be one of my 
highest priorities. My focus will include ensuring we work with our 
international partners to assess arctic feedback and share related 
information.

    Question 6. Here at home, support for the co-management activities 
your Department provides with the Department of the Interior are often 
the first cut when budget problems arise. All parties involved say they 
are navigating without appropriate information. Efforts to jointly 
manage other marine mammals in this region--such as whales and walrus--
also suffer from neglect. We need NOAA's commitment to undersea mapping 
of the Alaska coast. As Secretary, will you work to ensure that we have 
a much stronger, enduring bilateral relationship with Russia--not only 
with your fish and marine mammal portfolio but also with international 
Commerce portfolio?
    Answer. I understand the Administration is reviewing the full range 
of our bilateral relationships including that with Russia, and aspects 
of our commercial relations would be part of the review. If confirmed, 
I look forward to hearing your ideas and working with you on ways to 
expand our commercial relationship.

    Question 7. Can you confirm for the Committee that you will 
actively support the opportunities in fisheries, marine mammal 
conservation, transportation, telecommunications, and tourism?
    Answer. I do commit to actively supporting opportunities in 
fisheries, marine mammal conservation, transportation, 
telecommunications, and tourism. I think this is an area where we might 
usefully leverage the diverse functions of the Department in order to 
achieve improved results.

    Question 8. Likewise, can you guarantee for us that you will be in 
regular consultation with your counterpart in Russia on a number of 
matters in this part of the world and to reinstate the International 
Trade Coordinator the Foreign Commercial Service once had in Anchorage.
    Answer. Exports are an essential element of economic growth. If 
confirmed, I look forward to working with you to develop and effectice 
export promotion strategy and will assign a high priority to review 
your request regarding U.S. Foreign and Commercial Service staffing in 
Alaska.

    Question 9. Alaska's economy--and that of the Nation--depends 
largely on international trade (AK exports totaled: $3.6 billion in 
2007 of which 50 percent was seafood and 30 percent minerals; major 
partners: Japan, China, Korea, Canada; air cargo alone plays a big role 
in the Alaska economy). The current global credit crisis and recession 
are hitting international trade hard. What steps do you think are 
necessary to rebuild and reinvigorate international trade?
    Answer. The most important thing is full and effective 
implementation of stimulus programs here in the United States and in 
foreign markets to unfreeze credit and stimulate demand. The 
legislation enacted by Congress and signed by the President is a step 
forward to that end, and if confirmed, I look forward to working with 
you on additional ideas to reinvigorate international trade.

    Question 10. Past administrations have considered eliminating the 
EDA program, yet in Alaska EDA grants are important to creating new 
jobs and economic opportunities, especially in rural Alaska. Do you 
support continuation of the EDA program and, if so, what role do you 
see it playing?
    Answer. The Department of Commerce's Economic Development 
Administration (EDA) is tasked with leading ``the Federal economic 
development agenda by promoting innovation and competitiveness, 
preparing American regions for growth and success in the worldwide 
economy.'' This mission is critical in both robust economic times and 
in times of economic decline. For that reason, the President has 
included EDA in its FY10 budget overview and provides $50 million in 
regional planning and matching grants to support the creation of 
regional innovation clusters that leverage regions' existing 
competitive strengths to boost job creation and economic growth. The 
budget overview also launches a $50 million initiative in EDA that will 
create a nationwide network of public-private business incubators to 
encourage entrepreneurial activity in economically distressed areas.
    In addition, EDA is working closely with the Department to 
distribute the $150 million in funding EDA received through the 
American Recovery and Reinvestment Act with priority for areas 
experiencing severe job losses due to corporate restructuring.

    Question 11. Alaska's marine fisheries are managed by the North 
Pacific Fishery Management Council and generally considered one of the 
most well-managed fisheries in the world, producing some 62 percent of 
the Nation's seafood landings and with no stocks considered overfished. 
What, if any, changes to the Regional Fishery Management Council 
process do you propose that may affect Alaska?
    Answer. I commend the Alaska Regional Fishery Management Council 
for managing such large and productive ecosystem. Should I be 
confirmed, I will encourage them to continue to ensure that stocks are 
not overfished and that all fishery management plans are consistent 
with the Magnuson-Stevens Act.

    Question 12. Alaska already has the largest closed areas in the 
world, some 900,000 square miles including the recent closure of the 
Arctic to fishing. Yet some have proposed more restricted Marine 
Protected Areas, ``no take zones,'' to further restrict fishing in 
certain areas. Do you support the Administration taking additional 
actions, including use of the Antiquities Act, to restrict close 
fishing areas above and beyond the closures already adopted that the 
regional council process? If so, what say would Alaska have in the 
decisionmaking process?
    Answer. I support including a public process when possible. I 
believe the National Marine Sanctuaries Act has a superior process for 
designating marine protected areas, which includes opportunities for 
input from the states and the public-at-large.

    Question 13. The State of Alaska has banned finfish farming from 
its waters to check the spread of invasive species and disease that 
could threaten its abundant wild stocks. Do you support the initiative 
to permit offshore aquaculture in Federal waters including Alaska?
    Answer. I am not familiar with the basis of NOAA's decisions on 
homeporting of its vessels. I know that conducting fleet operations in 
Alaska is important to NOAA and the State. Should I be confirmed, I 
look forward to learning about homeporting decisions and working with 
you and the rest of the Alaska delegation to address any concerns you 
have.

    Question 14. The Commerce Department conducts significant marine 
research in Alaska yet most of the vessels doing this research are 
home-ported outside of the state, in Oregon, Washington or California. 
Will you work with the Alaska delegation so more research vessels 
conducting Alaska research are based in Alaska?
    Answer. I am not familiar with the basis of NOAA's decisions on 
homeporting of its vessels. I know that conducting fleet operations in 
Alaska is important to NOAA and the State. Should I be confirmed, I 
look forward to learning about homeporting decisions and working with 
you and the rest of the Alaska delegation to address any concerns you 
have.

    Question 15. Will you support funding for replacement of the now-
condemned NOAA dock facility in Ketchikan?
    Answer. I am not familiar with the dock facility in Ketchikan, but 
look forward to familiarizing myself with the issue, should I be 
confirmed, so I can comment on the funding.

    Question 16. NOAA listing of species such as Cook Inlet beluga 
whales restricts Federal funding of activities that may affect the 
species which in turn can effect fishing, oil and gas development, 
expansion of the Port of Anchorage, a vital lifeline for most Alaskans 
and the U.S. military presence there, and wastewater treatment 
facility, even though it's not demonstrated that these activities have 
any effect on the species. As Secretary, how will you deal with 
application of the Endangered Species Act?
    Answer. The Endangered Species Act is a valuable tool to protect 
our most vulnerable species from extinction. The protections it affords 
species such as the Cook Inlet beluga whale are important to its 
survival. Activities that may jeopardize a threatened or endangered 
species' existence are often important to a state's economy. Should I 
be confirmed as Commerce Secretary, I will ensure that all activities 
are balanced with species conservation as prescribed by the Endangered 
Species Act.

    Question 16a. Will you assure Alaskans that all such decisions will 
be based on the best available science?
    Answer. The Magnuson-Stevens Act requires that all decisions are 
based on the best scientific data, not just for Alaska, but for the 
Nation. It is imperative to a healthy ecosystem to ensure that 
decisions made on fishery management plans are based on the best 
available science.

    Question 17. Last year the Government Accountability Office (GAO) 
added the 2010 Census to their ``High Risk'' list, questioning the 
readiness of the Census Bureau to carry out the 2010 Census. 
Specifically the GAO cited problems with information technology, 
operational management, and the overall cost (est. $14 billion) of 
carrying out the 2010 Census. Alaska has its own unique concerns with 
getting an accurate count with a highly transient population that 
extends to extremely rural areas and yet the count is extremely 
important for formula funding and other applications. As Commerce 
Secretary what will you do to make sure that the 2010 Census is 
successful and avoids cost overruns?
    Answer. If confirmed, I will continue processes already in place 
that help senior management at the Commerce Department know exactly 
where the Census program is on its planning and implementation. This 
includes regular briefings on the status of the budget, schedule, 
risks, and issues that are currently provided to the Department of 
Commerce and the Office of Management and Budget. I understand that the 
Census Bureau has in place a risk management plan that includes risk 
mitigation plans (to avoid issues) and risk contingency measures. The 
Census Bureau has included contingency funds in its budget requests to 
address unforeseen events (such as the potential impact of the current 
economy on completing the census). I intend to monitor the management 
of the 2010 Census closely to ensure that that strict cost control 
measures are in place, and I will report to the Congress regularly so 
that we can work together to address any emerging issues quickly and 
transparently.

    Question 18. Will you work with the Alaska Native Tribes and 
regional Native Corporations to ensure an accurate count in Alaska?
    Answer. Yes. I will work closely with both the Census Bureau and 
its AIAN stakeholders throughout the decennial process to ensure an 
accurate count.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Harry Reid to 
                           Hon. Gary F. Locke
    Question 1. Government policy-makers and businesses require 
accurate information about the nature and quality of U.S. trade with 
specific nations and regions to make informed decisions about where to 
commit their resources and take advantage of foreign market 
opportunities. These decision-makers also require accurate information 
on the nature of foreign direct investment in the United States in 
order to prioritize their economic development activities and 
international operations.
    While the Federal Government has developed the means to track 
Federal and state merchandise exports, significant gaps remain. Little 
progress has been made in collecting state-level import data. More 
importantly, almost no data exists that tracks America's services 
exports or imports at the state level. This is problematic, given that 
services are an increasing portion of the U.S. economy.
    Further, on February 23, 2009, the Bureau of Economic Analysis 
issued a final rule in which it stated that the Bureau would no longer 
collect important state-level data measuring the number of 
manufacturing employees, gross property, plant, and equipment, and 
commercial property as part of its annual survey of foreign direct 
investment in the United States. This is problematic given that the 
states have primary governmental responsibility for attracting foreign 
investment into the United States, and rely on this information when 
developing their economic development plans.
    Additionally, on June 4, 2008, the Bureau of Economic Analysis 
announced that it would terminate the survey of new foreign direct 
investment in the United States, which provides insight into whether 
FDI is an acquisition of existing U.S. assets or is a ``greenfield'' 
investment. This data may be important to policymakers, however, as 
there may be different policy implications between these types of 
foreign direct investment.
    Finally, in recent years there has been extensive attention paid to 
the role of investments by sovereign wealth funds. There has been 
interest in ensuring the transparency of the activities of sovereign 
wealth funds. One way to add to the transparency of sovereign wealth 
funds is to ensure data collection by the U.S. Government on the 
foreign direct investment into the United States by sovereign wealth 
funds, while of course respecting business confidential information.
    Governor Locke, are you willing to ensure that sufficient resources 
are provided to ensure that state-level investment data continues to be 
collected by the BEA?
    Answer. The Administration understands the importance of this 
detailed data on foreign direct investment and we will work with BEA to 
restore, update, and correct statistical problems with these series. In 
the current Fiscal Year, BEA is developing a more comprehensive survey 
that addresses gaps in coverage of certain types of foreign investments 
and restores detailed data eliminated from the BEA surveys (as well as 
data on ``greenfield'' investments). After the release of the 
President's FY 2010 budget, we will provide additional information on 
future improvement to foreign direct investment data collection.

    Question 2. Do you have a plan to develop more accurate state-level 
services export data, and more accurate state-level import data for 
both goods and services?
    Answer. BEA delivered a report to the Congress in 2008 on the 
feasibility of producing state-level data on exports and imports of 
services and is working with the Department's International Trade 
Administration on developing prototype estimates. After that work is 
complete, we will have a better estimate of what would be required to 
produce accurate and complete state-level estimates. The International 
Trade Administration also has a program with the Census Bureau to 
produce state-level exports of goods. What might be required for Census 
and BEA to produce on-going state-level data on imports and exports of 
goods and services can be examined after the BEA-ITA work on prototype 
estimates is complete.

    Question 3. Will you ensure that the BEA does not terminate its 
survey of new foreign direct investment in the United States, so that 
policymakers and the public will continue to have data that 
distinguishes between foreign direct investment in the United States 
that is an acquisition and foreign direct investment that is so-called 
``greenfield'' investment?
    Answer. We are working to restore the complete set of foreign 
direct investment data, including the Greenfield data.

    Question 4. Would it be possible for the BEA to gather and publish 
data on foreign direct investment in the United States by sovereign 
wealth funds while respecting business confidential information? If so, 
do you believe it would be worthwhile to gather such data?
    Answer. Most sovereign wealth funds' investments are portfolio 
rather than direct investments (their ownership share of companies is 
normally less than 10 percent). Data on portfolio investments in BEA 
Balance of Payments Accounts data are collected by the Treasury 
Department, and would require inter-departmental collaboration with 
Treasury to develop integrated FDI and portfolio statistics on 
sovereign wealth funds.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Hon. Gary Locke
    Question 1. Given the devastating effects of the current economic 
crisis, I believe that the Department of Commerce must first and 
foremost focus on the preservation and creation of American jobs. The 
U.S. economy has lost 3.6 million jobs since the onset of the 
recession--the most since 1945. The Department of Labor has reported 
the number of people receiving unemployment benefits has reached 4.8 
million, the highest since record-keeping began in 1967--and this 
number does not include the nearly 1.7 million receiving benefits 
through an extension last summer.
    With its statutory mission ``to foster, promote, and develop the 
foreign and domestic commerce'', the Department of Commerce has a 
mandate to defend and grow the American economy through job 
preservation and creation. Yet the diverse and disparate agencies that 
comprise the department have little or no occasion to coordinate their 
efforts toward maximizing the job maintaining and creating potential of 
the department. While divisions such as the Economic Development Agency 
and the Minority Business Development Agency each have their own 
programs to increase employment in their respective target communities, 
there is the potential for even greater job creation through the 
coordination of their efforts with the core functions of other 
department components, such as the export-promoting activities of the 
International Trade Administration, the economic analysis of the 
Economics and Statistics Administration, and the stewardship of 
technological innovation by the National Telecommunications and 
Information Administration.
    That is why I will introduce legislation to establish a Job 
Creation Coordinator at the department. Answering directly to the 
Secretary of Commerce, the Coordinator would not only ensure that each 
agency is carrying out its primary mission in a way that maximizes U.S. 
employment, but would also identify and implement opportunities to link 
separate programs being carried out by the agencies in a way that 
ensures that department resources are being spent in a manner which 
guarantees the utmost job creation per dollar appropriated.
    Governor Locke, as Commerce Secretary, would you prioritize 
American job preservation and creation, and work with this Committee to 
ensure that the disparate agencies of the department coordinate their 
efforts as necessary to maximize their job creating potential?
    Answer. I can assure the Committee that, if confirmed, I fully 
commit to leveraging the inherent strengths of the various bureaus of 
the Department of Commerce so to maximize job creation and retention 
throughout the American economy. Each of the bureaus of the Department 
provides depth to specific elements of the American economy, be it pure 
scientific research, protection of natural resources, the support and 
promotion of business or direct job promotion. I believe the Department 
is particularly well situated to assist President Obama's goal of job 
creation and retention and of the strengthening of the American 
economy.
    I understand that the Department has embraced an integrated 
approach to the administration of funds received through the American 
Recovery and Reinvestment Act (ARRA). The Department has implemented 
the effort, as I understand it, corporately to ensure the Department is 
implementing its responsibilities well.
    If confirmed, I look forward to working closely with this Committee 
on this important management challenge, and hope that our collective 
efforts at Commerce may serve as a model for the rest of government.

    Question 2. I understand policies and priorities, one need look no 
further than the budget, and in the Commerce Department, more than half 
of your budget will fund the National Oceanic and Atmospheric 
Administration. While it was a positive step to see an increase in the 
previous administration's budget request for FY 2009 putting NOAA's 
overall request above $4 billion for the first time, this increase was 
not adequately represented across all of NOAA's functions. In fact, 
absent an increase in funding for satellite programs, the 2009 request 
was a flatline, and the National Ocean Service and National Marine 
Fisheries Service actually experienced a decrease of nearly $50 million 
each. It is in the process of allocating scarce funding resources that 
we truly reveal what programs we want to carry out and in what manner, 
and how we rank the importance of various programs.
    What is your opinion of the adequacy of NOAA funding under the 8 
years of the Bush Administration?
    While the top line has increased to around $4 billion, we have seen 
more and more of that go toward satellite programs. This is 
understandable, but it is also troubling to see other NOAA programs get 
funding cuts. What is your plan for making sure that these other non-
satellite programs--whether in fisheries, endangered species research, 
ocean science, marine mammals, and so on--receive the appropriate level 
of funding?
    How are you preparing to work with the Office of Management and 
Budget and other agencies to develop an effective budget that avoids 
interagency redundancy and leaves no gaps for NOAA missions that are 
inherently tied to the work of other agencies?
    Answer. On March 11, President Obama signed the FY 2009 Omnibus 
Appropriations Act which dramatically increased NOAA funding from prior 
years. Coupled with the additional funding provided NOAA in the 
American Recovery and Reinvestment Act, NOAA's Fiscal Year 2009 funding 
is unprecedented and will enable NOAA to address many of its pressing 
infrastructure needs and program challenges. If confirmed, I will work 
with OMB and the Congress to see that this progress can be built on for 
the future. While it is true that the cost growth in NOAA's satellite 
programs has been a challenge, I assure the Committee that the 
management of these critical procurements will be one of my top 
priorities. I will work with the Congress to find ways to accommodate 
these vital but challenging satellite programs within NOAA's other 
priorities. I will also work to ensure that going forward NOAA's budget 
process is robust, forward-looking, and adequately accounts for the 
Nation's needs for oceanic and atmospheric information and services as 
well as the activities of other agencies.

    Question 3. As Governor of Washington, you received two fisheries 
disaster declarations in your state, for Pacific salmon and Pacific 
groundfish. As you and I discussed last week, our New England 
groundfishery has seen major declines in revenue in recent years--
landings value has dropped 32 percent in New England since 2002, by a 
total of more than $41 million. In the state of Maine, the landings 
decline has been 55 percent. And the industry is currently facing 
regulations designed to rebuild fish stocks that would cut fishing 
effort further for 2009--to just 20 days on average.
    Since 2007, the Governors of Maine, Massachusetts and Rhode Island 
have sought a Federal disaster declaration which would allow access to 
funding to ease the burden on our groundfishing industry. To date, 
these requests have been unsuccessful, despite several letters of 
support to Secretary Gutierrez from the New England Congressional 
delegation and a Senate Resolution (S. Res. 376 from the 110th 
Congress) that unanimously supported this fisheries disaster 
declaration. Without such a declaration and the access to funding it 
would allow, we could literally see the end of an industry that 
predates even the Pilgrims' arrival in North America.
    As Secretary of Commerce, how would you handle fisheries disaster 
requests? What criteria, and what timeframe, will you use to determine 
whether a fishery has experienced a ``disaster''?
    Answer. From my experience as Governor of Washington, I understand 
that a lack of clear guidance and criteria can be frustrating for those 
seeking a disaster determination. Should I be confirmed as Secretary of 
Commerce, an important first step of mine will be to clarify criteria 
and timeframes for the disaster request and determination process.

    Question 4. When Congress reauthorized the Magnuson-Stevens Act in 
2006, we included language allowing the Secretary to declare a disaster 
as a result of regulatory restrictions. In the last days of the Bush 
Administration, NOAA issued proposed regulations stating that despite 
Congress' directive, the Secretary would not declare a disaster in all 
cases where regulations are effectively shutting down fishing for most 
fishermen--even under a NOAA-approved management plan intended to 
achieve rebuilding targets. Do you agree with this edict from the last 
Administration? If so, how does such a mandate carry out Congressional 
intent?
    Answer. The issue of fisheries disaster determinations is something 
I plan to look at closely should I be confirmed as Secretary of 
Commerce. We certainly need to follow the law and I will commit to 
carefully reviewing the regulations proposed in January and ensuring 
that any final regulations are fully consistent with the Act and 
Congressional intent.

    Question 5. I have served as the Republican leader of the 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard for more 
than 12 years, and during my tenure I have seen the relationship 
between the National Marine Fisheries Service and our fishing 
industries erode to what we have now--a polarized culture in which 
mistrust is mutual and pervasive. Frankly, as a life-long Mainer, I 
have never seen such tension between the fisheries regulators and our 
fishermen. On February 26, 2009, the Commerce Inspector General issued 
a report that underlined this history of, as he put it, ``poor 
communication and mistrust'' in the Northeast Region. As long as this 
contentious relationship continues, it will undermine any attempts to 
move forward with credibility and cooperation. What bold steps can we 
take to cast off the ghosts of the last administration and instill a 
new willingness from all parties to work together?
    Answer. I am troubled by the mistrust that has built between NOAA's 
National Marine Fisheries Service and the fishing community and I think 
a change in administration can be the impetus for improving these 
relationships. It is incumbent on the Agency to reach out to the 
fishing community and communicate its science and policies clearly. I 
intend to commit more staff and resources to meet the communication 
needs of the fishing community. I also plan to work with the NOAA 
Administrator to strengthen cooperative research so fishermen are more 
engaged in the scientific process. These actions are critical for 
productive dialog and to end the mistrust that exists today.

    Question 6. Are you willing to commit to closely examining the 
culture and attitudes pervasive in the National Marine Fisheries 
Service's Northeast Regional Office, and report back on the changes you 
make to improve the way it interacts with fishermen?
    Answer. Yes, I am fully committed to improving the relationship 
between NOAA and fishermen all over the country, and most particularly 
in New England. I will work closely with the NOAA Administrator to 
improve the trust between the agency and fishermen, and will report 
back to you often on the changes we are making.

    Question 7. Can you commit to putting a greater emphasis on socio-
economic funding, research, and assessment, so that you have a greater 
understanding of the communities NOAA must regulate?
    Answer. Socio-economic research is critical to understanding the 
impacts of fishing regulations and I will commit to putting greater 
emphasis on understanding the perspectives of fishermen and fishing 
communities in this process of management. If confirmed, I look forward 
to working with you on this effort. We must work together to help solve 
these difficult problems. We must find a way to achieve long-term 
sustainability for our fisheries in New England without compromising 
this important way of life for fishing communities.

    Question 8. While Governor of Washington State you were 
instrumental in developing regional salmon recovery efforts for wild 
Pacific salmon, negotiating with Canada over joint management of trans-
boundary salmon stocks, and working with the Washington Congressional 
delegation to secure Federal funds for restoration of ESA-listed stocks 
of Pacific salmon. During your tenure, you coined the phrase 
``extinction is not an option'' in reference to ESA-listed Chinook 
salmon in Puget Sound.
    According to the National Marine Fisheries Service (Status Review 
for Anadromous Atlantic Salmon (Salmo salar) in the United States--July 
2006) both the Long Island Sound Distinct Population Segment (DPS) of 
Atlantic Salmon (Salmo salar) and the Central New England DPS have been 
extinct since the mid-1800s. The few fish that currently return to 
these river systems are the product of restoration projects using 
donor-fish from the Penobscot River in Maine. On November 17, 2000, the 
National Marine Fisheries Service and the U.S. Fish and Wildlife 
Service listed the Gulf of Maine Distinct Population Segment of 
Atlantic salmon (Salmo salar) as endangered under the Endangered 
Species Act, and the listing of Atlantic salmon in the Penobscot, 
Kennebec, and Androscoggin River appears imminent. If confirmed, would 
you champion preservation of Atlantic salmon the way you did in 
Washington State?
    Answer. I believe that recovering threatened and endangered fish 
populations is absolutely essential and I hope my experience with 
Pacific salmon will provide a useful perspective to examine this issue.

    Question 9. The joint recovery effort shared by the National Marine 
Fisheries Service and the U.S. Fish and Wildlife Service appears to 
create an ineffective and inefficient program for overseeing the 
recovery of Atlantic salmon. What steps can you take to restore the 
integrity of the Federal role in recovery? Would you be willing to 
exert a lead role for NMFS if it appears that the joint interagency 
effort is dysfunctional?
    Answer.I am not yet familiar with the specific issues regarding 
recovery of Atlantic salmon in Maine, and the interagency 
jurisdictional issues involved. But, if confirmed, I will certainly 
work to improve efficiencies and ensure a strong working relationship 
between NOAA and U.S. Fish and Wildlife Service.

    Question 10. In a June 4, 2004 letter to Admiral James D. Watkins, 
Chair of the United States Commission on Ocean Policy, you state ``I 
also support the use of Marine Protected Areas.'' But you also note the 
need for retaining control under NOAA, ensuring flexibility, and 
ensuring local support. President Bush disregarded these principles 
when he used the Antiquities Act to declare large Marine Protected 
Areas in Hawaii (Papahanaumokuakea National Monument) and other remote 
areas of the Western Pacific Ocean. If confirmed as Secretary, under 
what circumstances, if any, would you recommend the use of the 
Antiquities Act in designating marine protected areas?
    Answer. I support an open and transparent process in MPA 
designations, such as in the National Marine Sanctuaries Act.

    Question 11. As you are aware, trade enforcement authority is 
currently divided between the Department of Commerce's International 
Trade Administration, and the Office of the U.S. Trade Representative. 
While the ITA is the lead agency in implementing U.S. laws prohibiting 
trade subsidies and dumping by foreign countries, it has only an 
advisory role with respect to countering foreign violations of trade 
agreement obligations, over which USTR has primary enforcement 
authority. The problem with this arrangement--besides inefficiently 
sustaining two separate bureaucracies tasked with monitoring foreign 
compliance with trade agreements--is that USTR has an inherent 
institutional conflict of interest in seeking to negotiate trade 
liberalization agreements on the one hand, while defending import-
sensitive U.S. industries against those same trade partners on the 
other.
    This conflict of interest has manifested repeatedly in USTR's 
outrageous resistance to public calls for trade enforcement in recent 
years. It is a shocking fact that all five of the public petitions for 
trade enforcement action--each concerning currency manipulation or 
labor exploitation by China--filed during the previous Administration 
was denied by the office of the U.S. Trade Representative--in some 
cases on the same day they were filed!
    I see two ways of rectifying this unacceptable situation: either 
provide for independent review of USTR's decision NOT to take 
enforcement action, or move trade enforcement authority to an agency 
better equipped to handle it. I am delighted to have the support of my 
friend, the esteemed Chairman of this Committee in advancing the first 
of these options with the Snowe-Rockefeller ``Trade CLAIM Act'', which 
would allow for independent, judicial review of decisions by USTR NOT 
to take enforcement action under Section 301 of the 1974 Trade Act--the 
statute setting forth the process by which the U.S. businesses, workers 
and citizens can request trade enforcement action. Under that bill, 
workers, business and other members of the public who have had a 
petition for trade enforcement denied by USTR would be able to appeal 
that denial to the U.S. Court of International Trade, which would have 
the authority to force USTR to take enforcement action.
    The second option--which I will be proposing in forthcoming 
legislation--is to completely overhaul the inter-agency trade 
enforcement process by moving primary trade enforcement authority from 
USTR--whose staff spend three-quarters of their time negotiating new 
free-trade agreements and has failed to accept a public petition for 
enforcement action for 12 years--to the ITA, which is tasked with 
looking out for American businesses. Indeed, it was similar concern 
with the Treasury Department's unwillingness to make use of U.S. anti-
dumping laws as requested by American businesses that caused Congress 
to move anti-dumping authorities to Commerce from the Treasury 
Department in 1979.
    Governor Locke, what do you think should be done to end the 
effective ``shutting out'' of American workers, businesses and citizens 
seeking more aggressive trade enforcement action from the government? 
Do you feel that agencies other than USTR should play a more proactive 
role in the enforcement of U.S. trade rights?
    Answer. Enforcement will clearly be a top priority for this 
Administration and for me personally. Protecting workers and U.S. 
businesses from unfair trade practices and opening markets abroad is a 
core mission of the Commerce Department and will remain so. I look 
forward to working with you and other Members of Congress, the Cabinet 
and especially USTR-designate Kirk to develop an effective enforcement 
strategy and to execute it.

    Question 12. As you know, the U.S.-Canada Softwood Lumber Agreement 
(SLA) is of very great importance to the people of the State of Maine 
and to lumber companies and their workers across the country. The 
central problem that gave rise to this Agreement was Canadian subsidies 
and consequent dumping. The Import Administration of the Commerce 
Department has the expertise to monitor and analyze Canadian subsidies 
as no other agency does.
    Without this monitoring and consequent enforcement, the benefits of 
this Agreement will not be delivered. Maintaining strong trade remedies 
and their vigorous enforcement is essential to provide an incentive for 
Canada to adhere to this agreement, knowing that if it left the 
Agreement, there will be unilateral measures taken at the border to 
offset its unfair trade practices.
    Governor Locke, may I have your assurance that you will make 
enforcement of the SLA and U.S. trade remedy laws a top priority of 
your department, providing the resources, but even more important, the 
leadership, to assure compliance with the Agreement?
    Answer. I can assure you in full confidence that enforcement of the 
SLA and U.S. trade remedy laws will be a top priority of the Commerce 
Department under my leadership. If confirmed, I will be fully committed 
to ensuring that Canada comes into full compliance with the SLA.

    Question 13. Yesterday, Senators Shaheen, Schumer, Collins, 
Gillibrand, and I sent a letter to Sandra Walters, the Acting Assistant 
Secretary of Commerce for Economic Development at the Department of 
Commerce, requesting that the Department transfer the $50 million of 
funding available in the Recovery Package to regional economic 
development commissions. In the 2007 Farm Bill I worked to authorize a 
Northern Border Commission to address the devastating regional economic 
issues that are located in the northern tier of Maine, New Hampshire, 
Vermont, and New York. I believe that working together the four states, 
with the assistance of the Federal Government, can address the regional 
challenges stemming from geographic isolation, and population loss. The 
region's pulp and paper industry is particularly affected by the recent 
downturn.
    Governor Locke, do you believe in the model of regional economic 
development commissions? Can I be assured that you will expeditiously 
work with Assistant Secretary Walters and provide resources to the 
regional economic commissions that is provided in the recovery package?
    Answer. The Economic Development Administration (EDA) has a long 
and successful history of working closely with regional commissions 
such as the Appalachian Regional Commission (ARC), Denali, and the 
Delta Regional Authority (DRA) and, as I understand it, has encouraged 
a regional approach as a funding priority to all of its project 
applicants. If confirmed, I look forward to working with the 
commissions in connection with our important American Recovery and 
Reinvestment Act work.
    In addition, the President's Fiscal Year 2010 budget provides $50 
million in regional planning and matching grants within EDA to support 
the creation of regional innovation clusters that leverage regions' 
existing competitive strengths to boost job creation and economic 
growth.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Sam Brownback to 
                           Hon. Gary F. Locke
    Question 1. There has been legislation proposed in Congress over 
the past few years to change the patent laws, and it has become very 
contentious. The proponents are a group of high-tech and financial 
services companies, and on the other side there is a larger group of 
companies from a variety of industries--manufacturing, green tech, 
nanotech, biotech, pharmaceuticals, and venture capitals. My question 
to you is this: I know you come from a state with a number of large 
high-tech companies. Do you agree that we should not be changing our 
patent laws in a way that chooses one group of companies over another? 
If you are confirmed, do you feel you can consider this issue 
impartially and help guide the debate to a place where we're not 
choosing high-tech over manufacturing, for example?
    Answer. If confirmed, I would work with Congress on patent reform 
legislation that would enhance innovation by fairly balancing the 
interests of innovators across all industries and technologies. I agree 
that patent law reform should not favor one industry or any particular 
area of technology over another.

    Question 2. Many high-tech companies that oppose S. 515, the Patent 
Reform Act of 2009, rely on their ability to protect their patented 
innovations by receiving damage awards from proven patent infringers. 
The proposed legislation changes the way damages are calculated, making 
infringement far less costly. In your role overseeing the USPTO, would 
this concern you? Are you concerned that this well-meaning patent 
legislation will actually hamper U.S. innovation?
    Answer. Innovation is critical to creating jobs and bringing us out 
of the current economic downturn. Any statutory proposal must be 
weighed in terms of its effect on job creation and promotion of 
innovation. If confirmed, I will review all patent reform proposals 
from that perspective.

    Question 3. The high-tech sector is divided between those who 
primarily invent and those who primarily package and market others' 
inventions. It is understandable that, just as any business wants to 
cut its costs, some high-tech companies who pay for others' patents 
would want to reduce the costs for the patents they purchase or license 
from other high-tech companies. The damages provisions of the Leahy 
patent bill, S. 515, would have the effect of devaluing patents. Are 
you concerned that degrading patent holders' rights might be a tempting 
short-term response that could have serious long-term consequences for 
our economy?
    Answer. If confirmed, I would not support any statutory reform that 
devalues patent holder's rights.

    Question 4. In your questionnaire you indicate that you hold stock 
in Microsoft, a member of the Coalition for Patent Fairness, a group 
that has been lobbying in favor of the Leahy patent bill. Given your 
personal interest in this company, how can you guarantee that you will 
approach the patent reform debate objectively?
    Answer. If confirmed, I am confident that I can and will continue 
to exercise my best objective judgment in all policy matters and I 
commit to consult with Ethics officials to ensure that my involvement 
in this area is entirely consistent with Ethics rules.

    Question 5. If you are confirmed, you will inherit a serious 
problem at the Patent and Trademark Office that was created by what's 
known as ``fee diversion.'' It occurs when the Administration or 
Congress redirects the patent and trademark application fees paid by 
inventors, research universities and innovation companies to other 
spending. Currently the backlog of patent applications is nearly 
800,000 applications and it takes at least 31 months to issue the 
patent. For the economy that means that start-up companies are waiting 
over 2 years to take their products to market. It means that new jobs 
and new inventions are trapped in that backlog when they could be 
helping our economy recover.
    In the 110th Congress, I supported an amendment in the Judiciary 
Committee that would permanently end fee diversion by creating a 
separate account that would receive all the patent and trademark 
applicant fees and allow only the PTO to have access to those user 
fees--essentially a lockbox for patent and trademark user fees. Since 
PTO is not funded with taxpayer dollars but with user fees, do you 
support the permanent ending of fee diversion?
    Answer. The USPTO's mission is critical to American innovation and 
invention. If confirmed, I will maintain the threshold principal that 
all user fees paid for services should remain with the USPTO as it has 
for the last 4 years. If confirmed, I will work to continue that the 
user fees stay with the Office to be spent on managing and improving 
USPTO operations.

    Question 6. I recently joined Senators Coburn, Feingold, Kyl, 
Wyden, Grassley, and Bond in sending a letter to Judiciary Committee 
Chairman Leahy asking that the Committee not rush patent reform 
legislation and work with those voicing concerns about the bill. The 
Judiciary Committee held a hearing on patent reform on March 10, 2009, 
and the bill will appear on the Committee's markup agenda on March 19, 
2009. I am very concerned that this bill is intentionally being rushed 
when there is no Commerce Secretary nor is there an Under Secretary of 
Commerce for Intellectual Property (PTO Director). Do you agree that 
this sweeping legislation that will greatly impact the economy should 
not be considered until the Administration has its Commerce Secretary 
and PTO Director confirmed?
    Answer. The Administration will be better able to participate fully 
in this critical legislative process when political leadership is 
nominated, confirmed and in place at USPTO. If confirmed, I will be 
actively involved in representing the Administration's views with 
stakeholders and Members of Congress on this landmark legislation.

    Question 7. As Secretary of Commerce you will have a huge 
responsibility to ensure the effective implementation of the $4.7 
billion broadband grant program that will be overseen by NTIA. As this 
money moves to fund specific projects it will be essential that it not 
be used to artificially impact or bias business decisions that should 
be made in the free market. I am particularly concerned that NTIA not 
impose any supra-market conditions on grant applicants that would bind 
them to a `network neutrality' regime. Doing so would impair the 
ability of grantees to manage their own networks to ensure high quality 
services, putting them at a technical disadvantage, and would weaken 
the long-term viability of the projects that taxpayers are funding.
    NTIA's responsibility is to effectively implement a massive 
taxpayer-financed grant program to extend broadband access in the U.S. 
This program should not be used to preempt the appropriate authority of 
Congress by introducing a significant new regulatory burden within the 
marketplace that would also impair the effectiveness of this program. 
Can you assure this Committee that NTIA will not seek to implement 
binding network neutrality rules as a condition for receiving broadband 
deployment grants?
    Answer. It is my understanding that the American Recovery and 
Reinvestment Act of 2009 instructs NTIA to issue non-discrimination and 
network interconnection obligations that will be contractual conditions 
of broadband grants it issues pursuant to the Act. Those obligations, 
at a minimum, must adhere to the principles contained in the Federal 
Communications Commission's 2005 broadband policy statement. On March 
12, 2009, NTIA published a Request for Information that, among other 
things, seeks public comment on the nature and extent of non-
discrimination and network interconnection it should impose on grant 
recipients. I am confident that through the public comment process NTIA 
will gain the information necessary to write non-discrimination and 
network interconnection conditions that fully protect the public.

    Question 8. Network neutrality requirements would regulate the 
manner in which companies manage their broadband networks. Do you think 
that there is a problem today in how broadband operators manage their 
networks that warrants the imposition of industry-wide net neutrality 
regulations? What impact do you think such regulations would have on 
broadband deployment and the upgrading of broadband networks, 
especially in the current economic environment?
    Answer. As noted in my response to your previous question, the 
American Recovery and Reinvestment Act of 2009 instructs NTIA to issue 
non-discrimination and network interconnection obligations that will be 
contractual conditions of broadband grants it issues pursuant to the 
Act. Those obligations, at a minimum, must adhere to the principles 
contained in the Federal Communications Commission's 2005 broadband 
policy statement. On March 12, 2009, NTIA published a Request for 
Information that, among other things, seeks public comment on the 
nature and extent of non-discrimination and network interconnection it 
should impose on grant recipients. I am confident that through the 
public comment process NTIA will gain the information necessary to 
determine the extent to which any network management problems currently 
exist and to write non-discrimination and network interconnection 
conditions that fully protect the public.

    Question 9. What in your view deserves the highest priority in 
terms of grant funding--access to unserved areas or improved access in 
underserved areas?
    Answer. The American Recovery and Reinvestment Act charges the 
Department of Commerce with the responsibility of addressing the 
broadband needs of both ``unserved'' and ``underserved'' populations 
and facilitating greater use of broadband services. NTIA believes that 
addressing both issues is critical to BTOP's success. The challenges 
facing Greeley County may differ markedly from the challenges facing 
downtown Wichita. Past experience has taught us that availability is 
often a more significant issue in rural areas and adoption a more 
significant issue in urban areas but, if confirmed, I will treat both 
prongs as essential.

    Question 10. In unserved areas should multiple providers receive 
grants to deploy broadband infrastructure in order to provide broadband 
service the same geographic area? In other words, should this program 
be used to not only provide first time service, but also to foster 
competing services? If so, will this not dilute the effect of the 
program and thereby limiting fund availability to fewer unserved areas?
    Answer. Congress has wisely mandated that NTIA consider such 
factors as whether a grant will increase the affordability of, and 
subscribership to, service to the greatest population of users in an 
area and provide the greatest broadband speed possible such population. 
Fostering healthy competition is one important way to ensure that these 
goals are accomplished. On March 12, 2009, NTIA published Request for 
Information that, among other things, seeks public comment on how to 
best distribute broadband grant funds. It is my understanding that 
public comment on these and other issues will be accepted through April 
13, 2009. In addition, I am aware that NTIA is in the process of 
holding a series of public meetings that are examining, among other 
things, these allocation and competition issues. Therefore, NTIA has 
not reached a final determination of whether multiple providers could 
receive grants to deploy infrastructure in the same geographic area; 
however, NTIA is considering a wide array of options in developing 
effective and efficient practices. If confirmed, I will direct that 
NTIA carefully consider the effect of grants in competition and 
improving the quality of broadband services nationwide and in our local 
communities.

    Question 11. The Commerce Department, through NTIA, is charged with 
managing the Federal Government's use of spectrum. The Federal 
Government uses a significant amount of spectrum in a variety of 
environments--from battlefields to disaster recovery operations to 
national parks. As technology enhances the ability to use spectrum more 
efficiently, some question whether the Federal Government needs all of 
its current spectrum holdings to manage its operations. What plans do 
you have to evaluate the use of spectrum by the Federal Government and 
to determine whether certain swathes of that spectrum could be 
reallocated for commercial use?
    Answer. Through the use of radio technologies, Federal agencies 
support missions related to national defense, flight safety, 
environmental research, space exploration, law enforcement, and 
emergency and disaster relief services, among others. I plan to explore 
opportunities where the Federal Government can become more spectrum 
efficient by working closely with Federal agencies to ensure that they 
apply new technologies in a way that promotes efficient use of the 
radio spectrum. I will also ensure that NTIA continues to evaluate 
radio uses by service type to evaluate them in terms of technologies 
and spectrum management techniques employed to get the most use out of 
each band. NTIA is also reviewing bands occupied by Federal systems to 
see whether there are geographic areas or portions of frequency bands 
that are available for other uses.

    Question 12. To what extent do you see the Commerce Department 
playing an active role in the development of telecommunications policy?
    Answer. As the President's principal adviser on telecommunications 
policy, the NTIA has historically played and will continue to play an 
important and active role in the development of telecommunications 
policy. This role involves close coordination with other Federal 
agencies, including the FCC.

                                  <all>

</pre></body></html>
